<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]


 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012 

                              ----------                              


                        WEDNESDAY, JULY 27, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Durbin, Landrieu, Reed, Pryor, 
Brown, Shelby, Cochran, Alexander, Moran, and Kirk.

                        DEPARTMENT OF EDUCATION

                        Office of the Secretary

STATEMENT OF HON. ARNE DUNCAN, SECRETARY

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. The Senate Appropriations Subcommittee on 
Labor, Health and Human Services, and Education will please 
come to order.
    Secretary Duncan, welcome back to the subcommittee. This is 
obviously a critical moment to be talking about education 
funding. The Nation will default on its loans in just 6 days 
unless Congress raises the debt ceiling; we all know that. I 
believe that to bring Federal deficits under control, we must 
be willing to make some tough, but necessary, budget choices. 
But we must be just as willing to say no to foolish and 
destructive choices. And this is especially true when it comes 
to funding for the education of our children.

         2011 CONTINUING RESOLUTION IMPACT ON EDUCATION BUDGET

    The fiscal year 2011 continuing resolution eliminated 37 
education programs totaling more than $900 million. Those cuts 
included the successful Striving Readers initiative, the 
Federal Government's only comprehensive literacy program. 
Meanwhile, cash strapped State and local governments are 
slashing school budgets and firing tens of thousands of 
teachers. Los Angeles public schools cut their budget for 
summer classes from $18 million last year to $3 million this 
year. Philadelphia recently issued layoff notices to more than 
1,500 of its 11,000 teachers. Many districts are shortening 
their academic calendar despite growing evidence that students 
should be spending more time in school, not less.
    From my perspective, as chairman of both this subcommittee 
and also the authorizing committee, I believe the combined 
Federal, State, and local budget cuts pose a grave threat--let 
me repeat that--pose a grave threat to education reform efforts 
across the country just as those efforts are reaching critical 
mass.
    Forty-eight States and the District of Columbia have 
collaborated to create high-quality, common education 
standards. Mr. Secretary, your Race to the Top initiative has 
jump started ambitious State-level reforms on teacher 
accountability, academic standards, and the better use of data 
in tracking student performance.
    In the HELP Committee, the authorizing committee, we hope 
to mark up the reauthorization of the Elementary and Secondary 
Education Act this year. However, it is wishful thinking--
wishful thinking--to expect improvements in school quality when 
we are laying off teachers, increasing class sizes, and 
reducing instructional time. To demand reform without resources 
is to set up students and teachers to fail.

                         INVESTING IN EDUCATION

    Other countries understand this. China, for example, has 
tripled its investment in education. It is building hundreds of 
new universities. Even in times of austerity and shrinking 
budgets, smart countries do not just turn a chainsaw on 
themselves. They continue to invest in the future.
    A good case in point is early childhood education. Experts 
agree that high quality pre-kindergarten education gives a 
critical boost to students' long-term academic success. But the 
quality of early childhood education programs varies widely. 
Many States lack any coordination.
    The fiscal year 2011 appropriations bill addresses these 
challenges head on. And, Mr. Secretary, I applaud your efforts 
on this. We have provided $700 million for your Race to the Top 
initiative, and working together, you very wisely, I believe, 
have put $500 million of that into an early learning challenge 
grant program, in a competition. Studies have shown that high 
quality pre-school returns $7 for every $1 invested, but we 
will not be able to continue that investment if overall funding 
for domestic discretionary spending is slashed.
    At the other end of the learning continuum, we must do 
everything we can to preserve the fiscal integrity of the Pell 
Grant program. The 9 million students who rely on Pell grants 
to earn a postsecondary education each year need to be assured 
that this aid will not vanish in the middle of their college 
careers. So, I was very pleased that Senator Reid's plan would 
virtually close the Pell shortfall for the next 2 years. I want 
to engage with you on that aspect also in the question period. 
This will greatly improve our prospects of maintaining the 
maximum Pell grant at its current level of $5,550 per year.
    Mr. Secretary, I appreciate the work that you are doing not 
only to protect our Nation's investments in education, but to 
challenge the States to do better, and to make sure the money 
is spent in ways that will truly improve student learning.
    I also want to thank you for coming out to Iowa this last 
weekend, both for an event on Sunday regarding early childhood 
learning and also for Governor Branstad's education summit for 
Iowa. I could not be there because I had to come back here, but 
I read your remarks, and from all I hear, your presentation was 
both well received and challenging to the lawmakers and the 
policymakers in the State of Iowa.
    With that, I will yield to my ranking member, Senator 
Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Mr. Chairman. Thank you for 
calling this hearing.
    Mr. Secretary, I look forward to hearing your testimony 
today on the fiscal year 2012 budget request for the Department 
of Education.

                             BUDGET SAVINGS

    But as we convene today's hearing, I am gravely concerned 
that the Department of Education has delayed some of the tough 
choices that are necessary to ensure national economic 
stability. We all understand the critical role of education in 
our society and its impact on our Nation's ability to compete 
in a global economic environment. However, our Nation is $14 
trillion in debt, and I think we must rein in spending.

        FISCAL YEAR 2012 DEPARTMENT OF EDUCATION BUDGET REQUEST

    In times of economic uncertainty, while every Department 
should be looking for savings and efficiencies within the 
budget, the Department of Education has requested a 13.3 
percent increase from 2011. In comparison to 2010, the 2012 
budget request is a 20.7 percent increase. Let me repeat that--
20.7 percent increase since 2010.
    The Department of Education has requested 20.7 percent more 
funding in 2012 than it received 2 years ago. However, in your 
written statement, Mr. Secretary, you state, and I quote, ``Our 
request is a responsible budget that emphasizes both fiscal 
constraint and investment in education reforms that will 
deliver results.'' Mr. Secretary, how can you consider an over 
20 percent increase since 2010 a responsible budget that 
emphasizes fiscal restraints?

                     RACE TO THE TOP BUDGET REQUEST

    One of the key investments proposed by the Department of 
Education in 2012 is Race to the Top. The budget includes $900 
million for the program, an increase of $200 million or 28.6 
percent above 2011. According to the Department, Race to the 
Top funds are awarded to States that are leading education 
reform with ambitious, yet achievable plans. Specifically, Race 
to the Top creates incentives for State and local reforms that 
produce improvements in student achievement, while reducing 
achievement gaps.

                ALABAMA AND RACE TO THE TOP COMPETITION

    I understand that education reform is never easy. However, 
it is made significantly more difficult when States must meet 
prescriptive requirements, in this case a de facto requirement 
for charter school legislation, to even compete for available 
funding. My State of Alabama has been a leader in innovative 
science, technology, engineering, and mathematics (STEM) 
initiatives. The Alabama math, science, and technology 
initiative has earned nationwide recognition as a model for 
increasing the math and science achievements of students, the 
very achievement that Race to the Top states it supports. Yet, 
Race to the Top only awarded STEM programming 15 points out of 
500. That is troubling, Mr. Secretary.
    Instead, the Department chose only States with charter 
schools as awardees. Despite its nationally recognized STEM 
program, a key component to our future workforce competing in a 
global economy, Alabama finished dead last in the latest round 
for Race to the Top funding. And although the Department of 
Education often states its objectives to be loose on means and 
tight on ends, the experience of the State--my State--clearly 
illustrates this is not the case.

                     STATE FLEXIBILITY TO INNOVATE

    As the United States continues to fall behind other 
developed countries in reading, math, and science, States 
should be given the flexibility, I believe, to implement 
critical reforms as identified on the State and local level. 
The Federal Government should not mandate initiatives, but 
assist States in implementing programs that they deem most 
important to improving their students' achievement.

                      PELL GRANTS--GROWTH IN COST

    A key component to this achievement is improving access to 
education. As a Nation, we are on the brink of breaking our 
commitment to students who wish to attend college because the 
Pell Grant program is on a fiscally unsustainable path. Since 
2008, the cost of the Pell Grant program more than doubled. 
Legislative changes that expanded eligibility, combined with 
the dramatic rise in the number of students seeking further 
education due to the economic recession, have caused costs to 
skyrocket.
    And while the 2012 budget request offers proposals to 
address the growth in costs, the administration also proposes a 
$5.6 billion increase in discretionary Pell Grant funding. We 
cannot continue to throw money at this problem. Access to 
higher education must be protected and immediate reforms are 
necessary to ensure the Pell Grant program continues as the 
basis of our commitment to helping low income students attend 
college.

               DISTANCE LEARNING AND STATE AUTHORIZATIONS

    Finally, Mr. Secretary, I am concerned about State 
authorization provisions related to distance learning under the 
proposed program integrity regulations. While I understand the 
Department of Education has delayed the enforcement date 
related to distance learning until July 2014, as long as an 
institution is making a good faith effort to obtain the 
necessary State authorizations, I do not believe that this 
adequately addresses the underlying issue. Simply extending the 
deadline does not take into account the burdensome impact of 
these regulations on colleges and universities.
    In addition, the definition of what ``good faith'' means--
good faith effort is vague, and the Department's proposed 
guidelines will prove costly and time-consuming.
    I hope, Mr. Chairman, that we can work together to find the 
appropriate balance between fiscal responsibility and 
meaningful education investments because we need this in 
America.
    Senator Harkin. Thank you very much.

                 OPENING STATEMENT OF SECRETARY DUNCAN

    Again, Mr. Secretary, welcome, and your statement will be 
made a part of the record in its entirety. Please proceed as 
you so desire.
    Secretary Duncan. Thank you so much, and good morning, 
Chairman Harkin and Ranking Member Shelby. Thank you very much 
for having me here today to talk about education, the economy, 
and the need to continue investing in our future, even as 
Congress and the administration work together to reduce overall 
spending and manage our Nation's deficit.

           KEY INVESTMENTS IN FISCAL YEAR 2012 BUDGET REQUEST

    Our Department of Education has submitted a formal 
statement on our 2012 budget proposal outlining our request to 
boost investments in education in order to secure America's 
future. Key investments include closing the Pell Grant 
shortfall both through efficiencies and more resources, 
protecting desperately needed title I and Individuals with 
Disabilities Education Act (IDEA) formula funds for students 
most at risk, expanding reform programs, including Race to the 
Top and Investing in Innovation, or i3, and our early learning 
and college completion programs. These programs support State 
and local policies to accelerate achievement for all students, 
particularly for students most at risk, and provide adequate 
funding for student aid administration, now that all Federal 
student loans are originated through the direct loan program.

             BUDGET REQUEST IN CURRENT ECONOMIC CONDITIONS

    Recognizing the real fiscal challenges facing the country, 
we also propose efficiencies, consolidations, and cuts in 
programs that are not as effective as they should be. We 
understand that just as every family is doing more with less, 
so should we. But like America's hardworking families, we also 
understand that you cannot sacrifice the future to pay for the 
present, and nothing is more important to a family's future and 
to our future as a Nation than education.

                    INVESTING IN PROGRAMS THAT WORK

    Mr. Chairman, I was in Iowa earlier this week where I 
talked about the fact that your State had gone from being a 
national leader in education to being frankly in the middle of 
the pack. I know that was a difficult message for citizens in 
Iowa to hear, but I didn't want to sugarcoat the message 
because that would not be doing any favors to Iowa's children.
    And your State is not unique. In fact, America as a whole 
has gone from being a world leader in education to being in the 
middle of the pack. In this new century, the middle of the pack 
is simply not what we want for our children or for our country. 
We all have to get better, and in order to get better, we must 
continue to invest in programs that are working.

                           PELL GRANT PROGRAM

    The Pell Grant program is helping millions of young people 
and adults get new skills for the jobs of tomorrow. Demand has 
skyrocketed from 6 million to 9 million grants in 4 years. 
College has never been more necessary for success in the global 
economy, but it has also never been more expensive and out of 
reach for an increasing number of Americans. We cannot afford 
to go backward. We must once again lead the world in college 
graduates.

            WELL-ROUNDED CLASSROOM AND AFTER SCHOOL PROGRAMS

    We must continue to invest in programs like title I and 
IDEA, and programs that help support literacy, science, and 
mathematics, and other subjects necessary for a well-rounded 
education, and provide a rich offering of high quality after-
school activities. They give struggling students the extra help 
they need to succeed. They promote equity and safety in 
schools, strengthen the teaching profession, and support 
English language learners, students with disabilities, rural 
students, and other special populations.

              TEACHER PREPARATION AND CLASSROOM INNOVATION

    We also have to give States and districts the flexible 
dollars that allow for innovation and reform. Today in America, 
thanks to programs like Race to the Top and Investing in 
Innovation, States and districts are preparing teachers to 
teach to higher standards. They are integrating technology into 
classrooms, expanding arts programs for students with 
disabilities, and producing a new generation of teachers in 
science, technology, engineering, and math, the STEM fields.

                       SCHOOL TURNAROUND PROGRAM

    Today, thanks to our School Turnaround Program, low-
performing schools across the country are undergoing dramatic 
changes--new leadership, new staff, new curriculum, longer 
school days, and fresh approaches to educating students at risk 
of failure.

            NEED TO KEEP EDUCATION SUPPORT IN TOUGH ECONOMY

    From big cities like New Orleans and Chicago to small towns 
in Tennessee and Kansas, educators are tackling our toughest 
challenges, exploring new approaches to education, and building 
new partnerships that are making a difference in the lives of 
our children. At the same time, we all know States and 
districts are facing more fiscal pressure than ever before. 
Recovery Act funding has largely dried up, and local and State 
revenues have yet to recover from the recession. The harsh 
result is that too many students are losing out--losing out on 
music, drama, sports, science, field trips, exchange programs, 
summer school, and many other unique and wonderful things that 
make education so worthwhile. Their generation, our children, 
are being cheated out of a world-class education because our 
generation is unable or unwilling to make the tough choices 
necessary to protect them.
    The current debate about the debt ceiling and the deficit 
is not just about budgets and numbers. It is really about the 
fundamental promise at the heart of the middle class American 
dream. For much of the last century, America was a country 
where if you worked hard, you and your family could enjoy the 
basic benefits of a secure and comfortable life--a job, a home, 
affordable healthcare, quality education, and a secure 
retirement. Today, for too many Americans, these building 
blocks of middle class life are increasingly beyond their 
reach, and that is creating uncertainty and anxiety. This is 
not good for the country, it is not good for our families, it 
is not good for children and for education.

                           PREPARED STATEMENT

    So, while I absolutely appreciate the hard work underway to 
cut spending and get our debt under control, I want all of us 
to work together to do this in a way that does not undermine 
the education of our Nation and the education of our children. 
They are counting--our children are counting on us to prepare 
them for the future. Business owners are counting on us to 
produce the workforce they need to compete in the new economy. 
Families are counting on us to open the doors to opportunity 
for every child, regardless of background, income, ability or 
disability. We cannot let them down. We cannot let ourselves 
down. The path to a strong future starts in our Nation's 
classrooms.
    Thank you.
    [The statement follows:]
                   Prepared Statement of Arne Duncan
    Chairman Harkin, Ranking Member Shelby, and Members of the 
Committee: Thank you for this opportunity to talk about President 
Obama's fiscal year 2012 budget to help America out-educate the rest of 
the world. While the President's overall request for 2012 reflects 
broad agreement that the Federal Government has to start living within 
its means, we believe it is absolutely essential to keep investing in 
education so that, as the President put it, ``every American is 
equipped to compete with any worker, anywhere in the world.''
                  final fiscal year 2011 appropriation
    I want to begin by thanking the Chairman, the Ranking Member, and 
other Members of this Subcommittee for your work on the fiscal year 
2011 appropriation for education. I know that you faced some tough 
decisions in reaching agreement on the 2011 budget, but I believe the 
final appropriation reflected a responsible mix of continued investment 
in high-priority activities as well as reductions in programs and 
activities based in large part on the recommendations in the 
President's 2012 budget.
    In particular, I want to thank you for your renewed support of the 
Race to the Top program, which now includes the Early Learning 
Challenge competition. In May, I was pleased to share the podium with 
Secretary of Health and Human Services Kathleen Sebelius to announce a 
$500 million competition that will reward States that create 
comprehensive plans to transform their early learning systems by 
coordinating services, raising standards, and increasing the 
effectiveness of pre-K teachers. I also announced separately that we 
will use the remaining $200 million in fiscal year 2011 Race to the Top 
funding to support a competition involving the nine States that were 
high-scoring finalists but did not receive funding in the first two 
rounds of Race to the Top.
    I'm also grateful that Congress provided $150 million for a second 
Investing in Innovation (i3) competition, as well as $30 million to 
keep moving forward with our Promise Neighborhoods initiative. In 
addition, Congress did the right thing by providing the significant 
funding and programmatic changes needed to maintain the $5,550 maximum 
Pell Grant award, as well as essential funding for the continued 
effective and efficient administration of the Department's 
postsecondary student financial aid programs.
                 president obama's 2012 budget request
    Turning to 2012, we recognize that the final 2011 appropriations 
bill will have an impact on the levels provided in fiscal year 2012, 
and we are aware of the ongoing bicameral, bipartisan discussions 
between the Administration and congressional leadership on the Nation's 
long-term fiscal picture, which may result in further adjustments to 
funding levels for 2012. Nonetheless, the 2012 budget request for the 
Department of Education reflects the Administration's policy priorities 
and remains a good starting point for developing these funding levels. 
The request represents both fiscal constraint and investment in 
education reforms that will deliver results. The overall discretionary 
request for the Department of Education, excluding Pell Grants, is 
$48.8 billion.
    As you know, financing the Pell Grant program, which is funded 
through a combination of discretionary and mandatory appropriations and 
has faced growing demand in recent years as more and more students and 
working adults seek to improve their knowledge and skills, has been a 
real challenge for the Department and for the Congress. The President's 
budget responds to this challenge by proposing a combination of tough 
choices to generate savings from Pell Grants and student loan programs 
and increased discretionary funding. The overall goal of our Pell Grant 
proposals is to protect the $5,550 maximum Pell Grant award, put the 
program on more sustainable financial footing in 2012 and beyond, and 
ensure that more than 9 million low-income students can continue to 
rely on Pell Grants to enter and complete a college education.
    Our 2012 request included a Pell Grant Protection Act that was 
designed to rein in Pell costs and place the program on more solid 
financial footing by eliminating the extra Pell Grant, ending the 
interest subsidy for graduate student loans, and allowing the 
conversion of guaranteed student loans to the Department. This 
proposal, combined with administrative action to implement enhanced 
income verification procedures for Pell Grant applicants as part of 
improvements in the processing of the Free Application for Federal 
Student Aid (FAFSA), would have produced an estimated $100 billion in 
discretionary Pell Grant savings over the next 10 years. The final 2011 
appropriations act ended the extra Pell Grant, achieving a significant 
portion of the savings proposed in our 2012 request, and we will be 
working with the Subcommittee to build on those savings in negotiations 
over the 2012 appropriation.
                          making tough choices
    Before I describe some of the key investments we are proposing for 
2012, I want to emphasize that our overall strategy for supporting 
effective education reform is fully consistent with the current fiscal 
environment. From the beginning, this Administration has envisioned a 
smaller Federal role focused on key priorities and structured to ensure 
the most productive use of the resources entrusted to us by taxpayers 
and the Congress. This is why, for example, our reauthorization 
proposal for the Elementary and Secondary Education Act (ESEA) would 
consolidate 38 existing programs into 11 more flexible authorities that 
would give communities more choices to implement their own research-
based reform strategies.
    We also have worked hard to identify and eliminate duplicative, 
unnecessary, or ineffective programs, and Congress accepted many of 
these recommendations in its final action on the fiscal year 2011 
appropriation. Key eliminations included Even Start, Smaller Learning 
Communities, Educational Technology State Grants, Tech Prep Education 
State Grants, and Leveraging Educational Assistance Partnerships, as 
well as a number of smaller programs. While each of these programs 
undoubtedly provided meaningful benefits to students and schools over 
the years, we recognize that all levels of government are challenged to 
do more with less in these times of financial constraint. That's why 
our 2012 budget places a priority on spending smarter through cost-
effective reforms that improve student outcomes, including by 
consolidating and, where appropriate, eliminating programs.
    But make no mistake; the President's request for education is about 
investing in our Nation's future. President Obama has said that to win 
the future, we have to win the education race, and his 2012 budget 
reflects what is needed to educate our way to a better economy. More 
specifically, the 2012 request for education is designed to promote 
reform, reward success, and support innovation at the State and local 
levels while maintaining strong support for students most at risk of 
educational failure. To meet these goals, our 2012 investments in 
education are divided into four significant priorities.
                       sustaining reform momentum
    First, our request includes an additional $900 million for Race to 
the Top, which already has demonstrated how competitive rewards create 
powerful incentives for State and local leaders to make groundbreaking 
education reforms. In the first two RTT competitions, 46 States created 
bold comprehensive reform plans that have buy-in from Governors, 
legislators, local educators, union leaders, business leaders and 
parents. As noted earlier, we will use 2011 Race to the Top funds to 
make awards to high-scoring but unfunded finalists from the first two 
rounds of Race to the Top. The 2012 request would focus on supporting 
district-level reform plans while also emphasizing cost-effective 
strategies that improve student achievement in a time of tight budgets. 
The Department would also carve out a portion of funds for rural school 
districts to ensure that communities of all sizes and from all 
geographic areas are able to compete for a fair share of Race to the 
Top funds.
    While we are very pleased that we will be able to launch the Early 
Learning Challenge Fund with fiscal year 2011 Race to the Top funds, we 
are seeking additional funding in 2012 to continue critical investments 
in early learning that will support model systems of high-quality early 
learning supports and services for children from birth to kindergarten 
entry. These investments would complement proposed 2012 increases for 
programs in the Department of Health and Human Services, including 
increases for Head Start and for quality child care.
    The 2012 request also would encourage reform and innovation through 
a $300 million request for the Investing in Innovation (i3) program to 
develop, evaluate, and scale up promising and effective models and 
interventions with the potential to improve educational outcomes for 
hundreds of thousands of students. The request includes priorities for 
science, technology, engineering, and mathematics (STEM) education and 
early learning, as well as an overall focus on increasing productivity 
to achieve better student outcomes more cost-effectively. The 
Department would include a refined rural priority in the i3 competition 
to ensure geographic diversity in the communities served by recipients, 
and would fund applications from providers and other entities proposing 
evidence-based approaches to address the unique needs and priorities of 
rural districts and schools. We also would take a page from the 
Department of Defense by creating a new Advanced Research Projects 
Agency: Education (ARPA-ED) that would use both discretionary and 
mandatory funds to pursue breakthrough developments in educational 
technology and learning systems, support systems for educators, and 
tools that improve outcomes from early learning through postsecondary 
education. We see this as a natural complement to the innovations found 
in the field through the i3 program.
    In addition, our request would significantly boost funding for the 
Promise Neighborhoods program to $150 million to support comprehensive, 
innovative and cost effective approaches to meeting the full range of 
student needs, drawing on the contributions of schools, community-based 
organizations, local agencies, foundations, and private businesses. 
Also, the request would maintain funding for safe school programming 
designed to reduce substance use, violence, and bullying while 
providing States with greater ability to adapt interventions to school 
needs and drive resources to the most unsafe schools.
                       great teachers and leaders
    Our second priority is teachers and school leaders. I think we can 
all agree that nothing is more important, or more likely to improve 
student achievement and other key educational outcomes, than putting a 
great teacher in every classroom and a great principal in every school. 
Our 2012 request, together with a proposed restructuring of teacher and 
leader recruitment and preparation programs as part of our ESEA 
reauthorization plan, is designed to support State and local reforms of 
systems for recruiting, preparing, supporting, rewarding, and retaining 
effective teachers and school leaders. For example, the budget includes 
funding for a Teacher and Leader Innovation Fund to support ambitious 
reforms, including innovative teacher evaluation and compensation 
systems, to encourage effective teachers, principals, and school 
leadership teams to work in high-need schools. We also are seeking 
funds for Teacher and Leader Pathways to expand high-quality 
traditional and alternative pathways into teaching, with an emphasis on 
recruiting, preparing, placing, and supporting promising teacher 
candidates for high-need (including rural) schools, subject areas, and 
fields. Included in this request is a set-aside to help prepare 10,000 
new STEM teachers over the next 2 years, as part of the President's 
plan to prepare 100,000 new STEM teachers over the next decade. In 
addition, the Presidential Teaching Fellows program (formerly the TEACH 
program), paid for with mandatory funds, would award $10,000 
scholarships to the best students attending our most effective teacher 
preparation programs who agree to work in high-need schools.
                           college completion
    Our third priority is college completion. I've already talked about 
the Pell Grant program, which is the foundation of Federal efforts to 
support both increased college access and completion for low-income 
students. Unfortunately, we know that far too many students who enroll 
in college drop out and never earn a degree. Currently, one-third of 
postsecondary students leave school without earning a degree and only 
one-half finish after 6 years. Clearly, access isn't enough, and we 
need a much stronger emphasis on attainment in postsecondary education. 
Through the $123 million ``First in the World'' competition, we'll 
provide venture capital to develop innovative approaches to increase 
college completion rates and improve educational outcomes while 
lowering costs and time to degree for students in higher education. And 
through our proposed College Completion Incentive Grants program, we 
would provide mandatory funding over the next 5 years in grants to 
States to reward institutions with exemplary college completion 
outcomes.
    The President's budget also would continue support for key existing 
programs supporting college access and completion, particularly for 
minority and disadvantaged students. The request includes funding for 
the Federal TRIO programs and the GEAR UP program, which helps an 
estimated 756,000 middle and high school students prepare for and 
enroll in college. The 2012 budget also provides discretionary and 
mandatory funding for the Aid for Institutional Development programs, 
which support institutions that enroll a large proportion of minority 
and disadvantaged students, and discretionary and mandatory funding for 
the Aid for Hispanic-Serving Institutions programs, which help ensure 
that Hispanic students have access to high-quality postsecondary 
education opportunities.
    We also look forward to working with Congress to strengthen the 
Perkins Act, which shapes the Career and Technical Education program, 
and improve its alignment with the education reform efforts at the core 
of our ESEA reauthorization proposal, so that the Perkins Act is a 
stronger vehicle for supporting the President's 2020 college completion 
goal and the Department's efforts to improve secondary schools.
                support for at-risk students and adults
    Finally, the President's 2012 budget for education would maintain, 
and in some cases expand, the Federal Government's commitment to 
formula programs for students most at risk of educational failure. For 
example, our request for the reauthorized Title I College- and Career-
Ready Students program (currently Title I Grants to Local Educational 
Agencies) includes increased funding to recognize and reward high-
poverty districts and schools where disadvantaged students are making 
the most progress. The $600 million request for a reauthorized School 
Turnaround Grants program would expand support for school districts 
undertaking fundamental reforms in their persistently lowest-achieving 
schools, while the budget also provides funding to help English 
Learners meet the same college- and career-ready standards as other 
students.
    In Special Education, our request for Individuals with Disabilities 
Education Act Grants to States would help States and school districts 
pay the additional costs of educating students with disabilities, while 
our request for Grants for Infants and Families program would 
complement the proposed Early Learning Challenge Fund.
    The 2012 request also provides significant resources to help adults 
pursue educational and employment opportunities, including funding for 
Adult Basic and Literacy Education State Grants to help adults without 
a high school diploma or equivalent to become literate and obtain the 
knowledge and skills necessary for postsecondary education, employment, 
and self-sufficiency, and mandatory and discretionary funds for 
Vocational Rehabilitation (VR) State Grants to help States and tribal 
governments to increase the participation of individuals with 
disabilities in the workforce.
    We are looking forward to the reauthorization of the Workforce 
Investment Act (WIA) so that low-skilled adults and individuals with 
disabilities have access to the education and training they need to be 
successful in the 21st century economy. A reauthorized WIA would 
provide opportunities to upgrade the skills of our Nation's workers so 
that they are able to compete in this new economy. One of those 
opportunities includes a new Workforce Investment Fund, which we are 
proposing in partnership with the Department of Labor, to help provide 
flexibility for the connections necessary to get people into good jobs 
or the education needed for a better job. The Fund will also provide 
resources to evaluate and replicate best practices so that we better 
serve those who have the hardest time finding work--those with limited 
basic skills and individuals with disabilities.
                               conclusion
    In conclusion, President Obama's 2012 budget for education is part 
of a comprehensive and responsible plan that will put us on the path 
toward fiscal sustainability in the next few years. Like every other 
agency across the Government, we are working hard to more efficiently 
steward the Department's resources. At the same time, education remains 
a priority for the Administration due to the critical importance of our 
education system for our continued economic prosperity. The 
Department's budget includes a responsible mix of savings and 
investments that will promote reform and innovation, support a 
comprehensive ESEA reauthorization, and encourage improved 
postsecondary outcomes. I look forward to working with the Committee to 
build support for the President's 2012 budget for education and to 
secure the best possible future for America by providing the best 
possible education for all of our children.
    Thank you. I would be happy to answer any questions you may have.

             PELL GRANTS AND TOTAL EDUCATION BUDGET REQUEST

    Senator Harkin. Thank you very much, Mr. Secretary. We will 
start a round of 5-minute questions.
    Mr. Secretary, I want to talk about this 20 percent 
increase. I was quite surprised to hear that this budget had 
gone up 20 percent since 2010. So, I started looking at it, and 
when you look at the figures, excluding Pell grants, in fiscal 
year 2010, it was $46.64 billion, fiscal year 2012, the 
President's budget is $48.8 billion, which is about a 4 percent 
increase. So, why do we have a 20 percent increase that I heard 
my ranking member talk about? Is that not because of the 
increase in the Pell grants--the number of Pell grant money? Is 
that right, Mr. Secretary?
    Secretary Duncan. Yes, sir.

               UNEMPLOYMENT IMPACT ON PELL GRANT PROGRAM

    Senator Harkin. Well, I would point out, of the $77.4 
billion request for fiscal year 2012, $28.6 billion is for Pell 
grants. Now, we might say, well, gee, what is going on here? 
Maybe we have got to cut back on Pell grants. What is going on 
is we have got over 20 million out of work. We've got an 18 
percent--not 9--almost 18 percent unemployment rate in this 
country.
    So, I guess what we are going to do is penalize the kids 
because their parents are out of work, and they have now fallen 
into the classification where they qualify for Pell grants, 
where before they probably would not have qualified for Pell 
grants.

                    INCREASED DEMAND FOR PELL GRANTS

    So, I hope we keep our eye on exactly what is happening 
here. Most of this increase is because of the increased use of 
Pell grants. We have an increased use of Pell grants because we 
have more poor people in this country, and we have more poor 
people because 18 percent of people are out of work and they 
are not working.
    So, I guess we have a choice to make. Do we cut these kids 
off at the knees?--Say, no, you qualify, but you are not going 
to get the money because we have to keep our budget down, you 
see, and our spending down. Well, as I said in my opening 
statement, that is like turning a chainsaw on yourself. Or up 
my way, we say, it is like eating your seed corn, when you are 
cutting education.

                           PELL MAXIMUM GRANT

    I can tell you, Mr. Secretary, this subcommittee and our 
committee, and I hope the Congress, will continue to be fully 
supportive of the maximum Pell grant.

          PELL SHORTFALL AFTER ELIMINATION OF YEAR ROUND PELL

    Now, again, we in the fiscal year 2011 continuing 
resolution, in order to free up money to make sure we had money 
for the basic Pell grant, we--Congress ended the year-round 
Pell Grant program known as ``two Pells'', which allowed 
students to receive two Pell grants in a single year. Well, 
that cut into some students, but it brought down the costs of 
the Pell Grant program. But even with that change, the 
shortfall for fiscal year 2012 is about $11 billion.

                           MAXIMUM PELL GRANT

    So, the other proposal that Senator Reid came up with--that 
we worked with him on--was to eliminate the in-school interest 
subsidy for graduate loans as another way of making sure we 
could keep the maximum Pell grant for the poorest students. 
This proposal was also in the President's budget.
    So, when you look at the options, why, Mr. Secretary, do we 
choose this one? Why do we choose eliminating the in-school 
interest subsidy for graduate loans? Why--could you just 
enlighten us why that is better than other options we might 
have?
    Secretary Duncan. Yes, Mr. Chairman. These are all very 
tough choices. In an ideal world, you know, better economic 
times, maybe you would not make any of these choices. But at 
the end of the day, we desperately want to preserve that 
maximum Pell grant.

            ELIMINATION OF TWO PELLS AND IN-SCHOOL SUBSIDIES

    And I think there are two factors at work here. One, as you 
said, is we simply have more young people around the country 
who qualify, who have need. Second, what is so critically 
important, I think, that we all understand is that our economy 
is changing. And to get the jobs of the future--there was a 
recent study that came out from the Georgetown University 
Center on Education and the Workforce. They estimate that going 
forward, we are going to be about 3 million college graduates 
short of what the economy needs--what the market is asking for. 
And so, at a time of increasing need, there is also increasing 
demand. And so, we have to keep that maximum Pell Grant at 
$5,550. We have had to make tough calls. Eliminating the two 
Pells in one year--in an ideal world, I would never want to do 
that. Eliminating in-school subsidies for graduate students, 
again, in an ideal world we'd never want to do that. But we are 
trying to be fiscally responsible and share the pain and make 
these tough choices. We think those are the lesser of the 
evils, and we want to at all costs maintain that Pell maximum 
award at $5,550.
    Senator Harkin. I appreciate that. And when we looked at 
that, the interest subsidy for graduate students, I mean, let 
us face it. If you are a graduate student, you are probably 
going to get a pretty good job when you get out. And so, in the 
whole spectrum of things, they could probably afford that 
interest payment--we hope so anyway, with all the unemployment. 
But hopefully our graduate students will lead us--help lead us 
out of this mess. But I can see where we would take on that 
rather than the poorer students in undergraduate school.
    Secretary Duncan. Yes, sir.
    Senator Harkin. So, it is a tough choice, but one that we 
supported.
    My time is up. Senator Shelby.

         STRONG EDUCATION SUPPORT NEEDED DESPITE TOUGH ECONOMY

    Senator Shelby. Thank you, Mr. Chairman.
    Mr. Secretary, I do not think any of us want to take a 
chainsaw to any program that is going to sustain our 
educational system and hope for our young people at all. But we 
are all taking a chainsaw to our budget right now to a certain 
extent because of our failure to act. We have a $14 trillion 
debt. You probably, in putting your budget together, made some 
tough choices.
    What we have got to do, I believe, is make some wise 
choices, and then carry them through. And what those all are, I 
am not sure, but I know that we cannot, as Senator Harkin said, 
we cannot starve the future. We cannot starve our children of 
food and sustenance. We cannot starve them of an education.

             JOB AND EDUCATION REQUIREMENTS OF NEXT DECADE

    Where are the jobs going to be, in your judgment, in the 
next, say, 10 years? Where are the jobs in America going to be, 
and what kind of education process do we need to get there, to 
have our people ready for the workforce jobs that are needed? 
Because at the end of the day, we've got millions of people 
unemployed, and a lot of them are losing hope every day.

          INADEQUACY OF EDUCATION FOR CURRENT HIGH SKILL JOBS

    Secretary Duncan. Let me give you four different statistics 
that sort of get at this. One is that even in this tough 
economic climate, we have 3 million unfilled jobs in this 
country. Many of those are high-skilled, high-wage jobs, and we 
are simply not preparing the workforce for those jobs.

                EDUCATION AND JOB DEMANDS OF NEXT DECADE

    Going forward, up until about 2018, we are going to need to 
fill 2.6 million job openings in the STEM fields--science, 
technology, engineering, and math. Going forward, there is an 
estimate that by 2018, if we stay on the current course, if we 
do not improve, we are going to be 3 million college graduates 
short of what the market demands.
    And then finally, by 2018, between now and then, 63 percent 
of job openings will require at least some college-level 
education. And these are not our facts; these are all facts 
from outside groups, the Bureau of Labor Statistics, and the 
Georgetown University Center on Education and the Workforce. 
So, we need an increasingly educated, high-skilled workforce 
with this particular emphasis on the STEM fields.

          PELL GRANTS--INTEGRAL TO EDUCATION BUDGET AND GOALS

    Senator Shelby. Mr. Secretary, as we think of Pell grants, 
do we not have to think of them in the overall budget process 
of the Department of Education? In other words, they are not 
separate from; they are part--an integral part of the budget. 
Is that correct?
    Secretary Duncan. I think, again, all of our work from, you 
know, early childhood education, which we will talk about----
    Senator Shelby. Everything----
    Secretary Duncan [continuing]. K to 12 reform, all of that 
is to what goal? The goal, as the President has laid out, is to 
lead the world in college graduates by 2020. We think that--we 
have to educate our way to a better economy. So, the Pell 
grants are absolutely vital, integral, critical to getting us 
as a country----
    Senator Shelby. But they are not the only part of the 
education part.
    Secretary Duncan. No, sir.
    Senator Shelby. An important part, yes.
    Secretary Duncan. Yes, sir.

                  PELL GRANTS--HOW DO WE PAY FOR THEM?

    Senator Shelby. Now, how are we going to pay for it? That 
is the bottom line. In other words, the growth--we have a lot 
of people unemployed. We know this, which we hate. But how are 
we going to pay for this, because that is going to be the 
bottom line up here this year and in the future. What are our 
priorities? What are our priorities in education? What are your 
priorities in the Department of Education? Could you list, say, 
the top three or four? You are going to have to make some 
decisions. So do we.

        SAVINGS FROM ELIMINATING TWO PELLS AND IN-SCHOOL SUBSIDY

    Secretary Duncan. So, we are making very tough decisions. 
We have talked about eliminating the grad school subsidies. 
That is going to save the country $18 billion over the next 10 
years.
    Senator Shelby. Eighteen billion dollars.
    Secretary Duncan. Over the next 10 years.
    Senator Shelby. Would that pay for the Pell Grant increase, 
for the, say, the undergraduates?
    Secretary Duncan. Short term, it helps. I mean, this is $18 
billion with a B, this is real money.
    Senator Shelby. Okay.
    Secretary Duncan. So, eliminating the second Pell----
    Senator Shelby. That is $1 billion here and $8 billion 
there, and it is real money?
    Secretary Duncan. Exactly. I am learning that here in 
Washington.
    Senator Shelby. Okay.
    Secretary Duncan. Eliminating the second Pell Grant each 
year, which again was a tough, tough call, that is $5 billion 
every single year. So, over 10 years that is $50 billion. So, 
these are very real savings. You know, tough calls, not calls 
we wanted to make, but we had to make, we think, to preserve 
that maximum funding for Pell grants.

            EDUCATION PRIORITIES--CRADLE-TO-CAREER CONTINUUM

    To answer your question, our priorities are continuing to 
strengthen early childhood education, to continue to drive K to 
12 reform, and to continue to invest in--to increase access to 
higher education. So, this is a cradle-to-career continuum, and 
those are the three steps along that pathway.
    Senator Shelby. But if you cannot have it all, and you 
cannot--I wish you could, and I wish that I were here when we 
owed no money as a Nation, because I think a lot of us could 
get together and have a lot of good ideas including investment 
in education. We are going to have to make tough decisions.
    And thank you. My time is up.
    Senator Harkin. Senator Reed.

                            EDUCATION REFORM

    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you, Mr. Secretary. And certainly you have an extraordinarily 
challenging job, given the budget pressures. I think you 
rightly point out the central need to fundamentally reform our 
education system at the elementary and secondary level, and 
also support it at the higher education level.

        LARGE-SCALE COMPETITIVE VS. FORMULA-BASED GRANT PROGRAMS

    But let me take a moment because I am concerned that the 
overarching strategy at the Department has been to focus almost 
exclusively on these untested, large-scale competitive grant 
programs at the expense of some proven research-based programs 
that have a track record of success. Race to the Top is 
probably the signature program. That is a novel, and I think 
bold, way to sort of rethink education. But it has displaced 
programs, for example, like the school library program.

                       NEED FOR LIBRARY PROGRAMS

    And the Department's own evaluation has found these library 
programs to be extraordinarily effective over many decades. In 
fact, since 1965, more than 60 educational library studies have 
produced clear evidence that school libraries staffed by 
qualified librarians have a positive impact on student 
achievement. And I think it just follows that someone who knows 
about how to use the library and wants to use the library, is 
probably prepared for learning the rest of his or her life.
    There is no plan that I have seen or has been shared with 
me for the Department to replace either through Race to the Top 
or any other program the support that we have given to school 
libraries. So, frankly, those programs are not only on hold, 
but they very well might be lost. And I do not have to remind 
anyone around here, the first thing to go at the local school 
committee meeting is, well, we will not buy any library books 
this year. In fact, back in the 1990s when I got involved in 
this issue, librarians would come to me with books stamped 
ESEA, 1965, and that was 25 years after the legislation was 
passed. So, I am concerned about that.

                      TEACHER QUALITY PARTNERSHIPS

    Another example, too, is the Department has a program that 
is trying to develop support for teachers, but there is already 
a teacher quality partnership grant program that was included 
in the Higher Education Opportunity Act. This program has high 
bars for reform. You are consolidating that program into a 
broader, more flexible funding stream, which could water down 
reforms.

              NEED FOR FULL RANGE OF STUDENT AID PROGRAMS

    And then we all are committed to maintaining student 
financial aid. And the President, I must admit, and your 
leadership has been instrumental in increasing the maximum Pell 
grant. However, the strength and resilience of our Federal aid 
programs comes through a combination of Pell, State grants, 
institutional aid, and student loans. And as we try to work the 
Pell Grant, it seems that we have done a lot to undermine the 
other programs. In fact, we have eliminated some of them 
effectively.
    And so, I do not know. They are not easy questions--with 
easy answers. I have specific questions I will submit to you in 
writing. But I would just in the remaining minute ask you to 
comment.

           FORMULA GRANT PROGRAMS FORM MAJORITY OF ED BUDGET

    Secretary Duncan. Sure. I will try and respond succinctly.
    So, the vast majority--let me be very clear--the vast 
majority of our funding has been, continues to be, and will be 
going forward, formula-based, not competitive-based. And in 
fact, 84 percent of our money is formula-based funding, the 
large--absolute large majority being title I and IDEA.

                 SUPPORT FOR INNOVATION AND ACHIEVEMENT

    We have asked for a small percentage of money to reward 
excellence and courage. And what has been so interesting to me 
in programs like to Race to the Top is it is not just within 
the States that won money, like your State, but it is in a 
State like Chairman Harkin's, where they did not receive a dime 
from us, that we have seen a massive amount of change. For the 
first time, States are raising standards, and that benefits 
disadvantaged children, and rural children more than anyone. We 
have dummied down standards in far too many places.
    And so, at the end of the day, it was not just about who 
received money; it was creating a climate in this country where 
folks started to do the right thing, started to think about 
high standards, or working together on better assessments, or 
finally turning around chronically under-performing schools 
that they hesitated to do before. And so, that work is going on 
nationwide whether States receive money or not.

                     SUPPORT FOR LITERACY PROGRAMS

    In terms of the literacy funding and school libraries, and 
you have been a strong advocate there, we were very 
disappointed that in our fiscal year 2011 budget, funding for 
literacy basically got decimated, went to zero in the 
continuing resolution. And so, we are asking for a very 
substantial increase in literacy funding because that is so 
fundamental, so foundational to student learning. And if 
students cannot read, if they cannot express their ideas 
verbally and on paper, frankly however much else we do does not 
matter. And so, we are, again, in tough economic times, asking 
for a significant boost in that funding.

                  INCREASING COLLEGE COMPLETION RATES

    And then again, just finally on the need for access to 
higher education. We want to continue, as I have said 
repeatedly, we want to continue to maintain that commitment. 
One thing we have not talked about is we are asking for some 
i3-like money, some creative money, to really reward 
institutions and States, and nonprofits that can increase 
college completion rates, and increase productivity, and do a 
better job of helping students with disabilities to graduate. 
So for me, access is desperately important, but it has got to 
be about more than access. It has got to be about attainment. 
It is about getting that college diploma. And we want to really 
invest in places that are going to build cultures around not 
just access, but around completion.
    Senator Reed. Mr. Secretary, I have specific questions I 
will submit to you. But I thank you again for your presence 
today and for your service. Thank you.
    Secretary Duncan. Thank you.

               STRENGTHENING LITERACY IN THE EARLY GRADES

    Senator Cochran. Mr. Chairman. Mr. Secretary, thank you 
very much for your cooperation and participation in this 
hearing. I am pleased to be a co-sponsor with my friend from 
Rhode Island of S. 1328, The Strengthening Kids' Interest in 
Learning and Libraries Act. And that question that he put to 
you is one that I identify with.
    In our State, we have a financial problem because we do not 
have enough tax money coming into the State government 
agencies, and in county and local agencies that fund education 
programs to take care of all of our needs. So, we were really 
excited when the Elementary and Secondary Education Act was 
approved and funding under the various titles began coming to 
our State, and have provided some needed financial benefits 
that have been used to involve students who were not learning 
at the rates they should have been in innovative programs, 
literacy programs. And the school libraries played an active 
role in this.
    I was just curious to know what your assessment of the 
Department of Education's Learning and Libraries Act is having 
on that challenge.

            MISSISSIPPI'S GAINS IN LITERACY IN EARLY GRADES

    Secretary Duncan. Again, we want to do everything we can to 
enhance literacy through libraries, the classroom, and 
technology. That is just fundamental. And I have to tell you, I 
have been recently studying, Senator Cochran, Mississippi's 
results on increasing literacy in the early grades. And I think 
Mississippi is making as fast, if not faster, progress than any 
State in the country. And so, I am spending a lot of time 
talking to folks from your State, looking at what they have 
done right there.
    And Mississippi, as you know, historically has really been 
maybe 50th in so many indicators. And particularly in the early 
grade literacy, I think you have gone from 50th as a State to 
43rd. That is remarkable progress in a short amount of time. 
So, I think there are a lot of lessons to be learned about what 
you guys are doing as a State to create a culture of literacy, 
to better support teachers, to raise expectations.
    And, again, I am always looking not at just where you rank, 
but rates of progress. And the progress your State is making is 
very significant, very encouraging, and I think has national 
implications. So, I thank you for the leadership there. And I 
thank the State for taking on such a foundational issue and 
making remarkable progress in a short amount of time.

                       FEDERAL ROLE IN EDUCATION

    Senator Cochran. I am very proud of the fact that my 
parents were both involved in education. And my father was a 
school superintendent, and my mother was a mathematics teacher. 
And they both were very strong advocates for Federal assistance 
to education at a time in Mississippi when some people thought 
there were strings attached, and there were--it would 
strengthen the Federal role in education--and not necessarily 
to the benefit of the children, but to the control of the 
Federal Government over local decisionmaking.
    I think all of that has gotten sorted out, and there is not 
as much suspicion now as there used to be with Federal money 
coming into the State, and with it, strings being attached that 
might not be consistent with what was really best for the 
children and the atmosphere they were growing up in.

                   LITERACY THROUGH SCHOOL LIBRARIES

    But we want to continue to monitor the use of Federal 
dollars. And there is one program, I think it is called the 
Second Evaluation of the Improving Literacy Through School 
Libraries Program. What effect do you think this has had on the 
ability of school districts that do not have adequate resources 
for furnishing libraries? Has that provided meaningful benefits 
in your opinion?
    Secretary Duncan. I would have to look at the details of 
that. But, again, whatever we can do to support literacy, to 
support early literacy, in the classroom, after school, through 
print, and more and more going forward, digital resources, we 
want to do that, and we want to give students and communities 
who historically have been under-served or under-resourced--
disadvantaged communities--we want to give them more 
opportunity.

                        TITLE I REWARDS PROGRAM

    Senator Cochran. Well, one area that has been brought to my 
attention is the title I program and a new--under new authority 
called Title I Rewards. I was going to ask you if you could 
submit for the hearing record your assessment of how that 
program is working.
    While Mississippi has the country's highest concentration 
of children in poverty, it received only $1,318 per title I 
eligible student. And we were looking at some comparisons with 
other States that had student populations about our size, and 
Wyoming received--and I am not fussing about the higher level, 
but three times as much funding for that program as our State 
did. I am just curious to know why is that, and if that is a 
disparity?
    Secretary Duncan. We would have to look at that and look at 
how States are allocating title I dollars. But to answer your 
question directly, our Title I Rewards Program hasn't been 
funded yet; that is a request, so there is nothing to evaluate. 
But our goal is very, very clear. There are certain high 
poverty, often high minority districts that do an amazing job 
of increasing student achievement. And we want to shine a 
spotlight on that, we want to recognize that, we want to learn 
from that, and we want to incentivize that, give them more 
resources.
    And so, I think, again, with everything we are doing, we 
are trying to put a spotlight on excellence. We spend billions 
and billions of dollars, you know, well over $10 billion a year 
on title I. I want to know which districts are doing an amazing 
job of helping disadvantaged students be successful, and give 
them additional resources and learn from them. That is the 
purpose of that program, but it has not been funded yet, so 
there is nothing to evaluate. That is part of our request.
    Senator Cochran. All right. Thank you very much. Mr. 
Chairman.

            FIRST GENERATION STUDENTS--COLLEGE DROPOUT RATE

    Senator Brown. Thank you very much, Chairman Harkin, and, 
Mr. Secretary, nice to see you again.
    Eighty-nine percent of first generation students--89 
percent leave college without a degree after 6 years, a 
terrible waste of human talent, a terrible waste of the future 
potentially, and a terrible waste of dollars.
    The Gates Foundation said 54 percent of students that leave 
during that 6 years cite the need to work and make money; 31 
percent cite an inability to afford the tuition and fees. And 
this is a direct result of Government not investing the way 
that we should. I appreciate the President's efforts there.
    You came a couple of years ago to speak to an annual--I 
have done it four times in my 5 years now in the Senate--annual 
presidents' conference. We bring in 50, 55 college presidents 
in Ohio, 2-year, 4-year, private, public. And you spoke 1\1/2\ 
years ago, 1 year plus ago there. And trying to figure this 
whole issue out.
    What--talk to me--give me 2 or 3 minutes--what the 
Department is doing to target and eliminate barriers faced by 
first-generation students, especially community colleges.
    My wife was a first-generation. Her dad carried a union 
card for 35 years. She was one--the oldest of four children 
that went to college. She graduated with very little debt. It 
was--I guess I can say this--30 plus years ago. And she--but 
she talks about calling home those first 2 years, and her 
parents never had any real substantive useful advice for her 
about how to navigate their way through college.
    So, give me a couple of minutes of very specific, what this 
Department is doing to rescue--give those young people 
opportunities that they need.

               HELPING FIRST GENERATION STUDENTS GRADUATE

    Secretary Duncan. First of all, thanks so much for your 
passionate leadership in this area. And as we become an 
increasingly diverse country, as the minority population 
becomes the majority, our ability to help those first-
generation students, not just graduate from high school, but 
graduate from high school truly college- and career-ready, and 
then to graduate from college is critical. The fate of our 
Nation hangs on our ability to do that well, so I cannot 
overstate the importance.

                 MAINTAINING ACCESS THROUGH PELL GRANTS

    Three very specific things we are trying to do. One of the 
big emphases today is our desperate fight to maintain access 
for poor students to Pell grants, which by definition are 
students you are talking about. And if we scale back on Pell 
access based upon the research that the Gateses and many others 
have done, we will simply have a lot less people going on to 
college. And they are going to be at a huge disadvantage in 
this knowledge-based, globally competitive economy. So, we have 
to maintain that commitment and help more and more people have 
access.

                    INVESTING IN COMMUNITY COLLEGES

    Second, we have not talked enough today about community 
colleges. We think community colleges have been this unpolished 
gem along the education continuum. Many are doing a magnificent 
job, whether it is with 18-year-olds or 38-year-olds, or 58-
year-olds, folks going back to retrain and retool, in areas 
like green energy jobs, healthcare jobs, technology jobs. We 
are making an unprecedented investment--$2 billion along with 
the Labor Department, to invest in community colleges that are 
building strong partnerships with the private sector. And, 
again, their work and their courses are leading to real jobs in 
the community.
    It has been a great partnership with Labor. My Under 
Secretary of Education, Martha Kanter, is a former president of 
a community college. We have never had someone at that level 
with that background. We did that very strategically because we 
thought that was so important.

       FIRST IN THE WORLD--BUILDING A COLLEGE COMPLETION CULTURE

    Finally, we want to invest in the fiscal year 2012 budget 
in what we are calling the First in the World Competition, and 
to really again put significant money, over $100 million behind 
States and universities and nonprofits that can show us what 
they are doing to build cultures around completion, 
particularly for first generation college goers, folks with 
disabilities, those who have been denied opportunities 
historically. So, those three, Pell access, a huge play in the 
community colleges in trying to invest in place, building 
cultures around completion would be the three I would give to 
you this morning.
    Senator Brown. Thank you, Mr. Secretary.
    Two other issues, one a comment, and then a last question.

              FEDERAL DIRECT STUDENT LOAN ORIGINATION FEES

    It is my understanding that Speaker Boehner's latest 
deficit reduction plan proposes to eliminate the Department of 
Education's ability to offer incentives to borrowers who pay 
their loans on time. The Federal direct student loan program, 
which makes so much sense in terms of students dealing with 
interest rates, cost, debt all of that. I know that my 
colleagues do not--they think it is another big Government 
program. It is one that saves money and helps students, and 
kind of throws the middle man out, if you will, the banks, and 
has made such a difference. But under their deficit reduction 
plan, college students would have to pay a higher origination 
fee for their Federal direct loan. I would just like you to 
continue to do the right thing on the Federal direct loan 
program. It matters so much.

             TITLE VI CULTURE AND FOREIGN LANGUAGE PROGRAMS

    My last question is this. The title VI international 
education and foreign language studies programs are, I think, 
especially important for us to enhance our capacity to 
understand foreign languages and cultures and people--
increasingly important in both a globalized economy and in an 
uncertain world.
    For 50 years, the United States has invested in building 
this national capacity, which is vital to our economic and 
diplomatic efforts around the world. I was disappointed that 
fiscal year 2011 appropriations contained severe reductions to 
international programs.
    I think we--and my question is this. I would like more 
specifics about how you are measuring the effectiveness of this 
program, because I think if you really do measure it, including 
implementing the recommendations made by the 2007 National 
Academies report, the more accurately you measure this, the 
less likely you are going to want to, from my experience with 
this, be making any cuts to this program. So, if you would give 
me your thoughts on that.
    Secretary Duncan. No, I really appreciate you pushing on 
that. And we were disappointed those funds got cut 
substantially in fiscal year 2011. We are looking to restore 
funding for that program that we think is very important. And, 
again, in a smaller world and a more globalized world, in order 
to give young people those kinds of opportunities, we want to 
restore funding in fiscal year 2012. That is part of our 
request.
    Senator Brown. Thank you.
    Thank you, Mr. Chairman.
    Senator Moran. Mr. Chairman, thank you.

                TEACHER AND STUDENT CLASSROOM EXPERIENCE

    Secretary, I appreciate the conversation you and I had last 
week, and look forward to working with you to see that good 
things happen in education, in our country, and particularly in 
Kansas.

                      STATE AND LOCAL FLEXIBILITY

    I voted against No Child Left Behind in its early creation 
back when I was a member of the House of Representatives for a 
number of reasons. I have genuine concern about what is 
happening in regard to teachers. And I am concerned that 
education becomes more of a bureaucracy as compared to a 
profession. I worry that the classroom experience is being 
diminished with focus on in-service teachers' meetings 
preparation as compared to that opportunity for teachers to do 
what they do best, teach our students in a classroom, in my 
view, as students learn with a teacher who loves to teach, with 
a student who wants to learn, and parents who encourage that 
through discipline and encouragement.
    And I want to make sure that the programs we create here in 
Washington, DC, do not impede upon that educational opportunity 
in the classroom.

          FEDERAL FUNDS AS PERCENT OF KANSAS EDUCATION BUDGET

    In Kansas, we receive just over 7 percent of our education 
funding from the Federal Government, and yet as I talk to 
educators--teachers, school administrators, superintendents, 
board members--the amount of time, effort, energy, and cost 
associated with trying to figure out what the Department of 
Education, what the Federal Government is doing in education 
consumes a much more substantive amount of their time than the 
7 percent of funding that is received. And I suppose one could 
answer, well, let us provide more money. I doubt that that is a 
realistic option.

                     STATE FLEXIBILITY AND WAIVERS

    I would love to hear from you the efforts that you are--
your Department is pursuing to make sure that schools have the 
flexibility, that the focus is on the classroom, that it is not 
upon paperwork and bureaucracy. And in particular, you 
indicated that if we do not have ESEA reauthorized by 
September, that you had plans to offer waivers. And I am 
interested in knowing what those--what you would require--what 
those waivers would be and what you would require of States to 
actually receive a waiver. And also your thoughts about the 
growth model, which seems to be educators' kind of solution to 
AYP is changing the model, and what efforts in that regard do 
you see beneficial?
    Secretary Duncan. So, lots there, and I appreciate your 
leadership and thoughtfulness on these issues.

              IMPROVING PARTNERSHIPS WITH STATES AND LEAS

    First of all, one of the biggest things I am trying to do, 
and I want you collectively to hold me accountable, is we want 
our Department to be a better partner. I was a school 
superintendent for 7\1/2\ years, and frankly, I often chafed at 
the restrictions of the Federal Government--I tell the story 
frequently that I had to have a huge battle with my Department 
of Education here for the right to tutor poor children after 
school in Chicago. I won that battle, but it made no sense that 
we had to fight the Federal Government to do the right thing by 
children.
    So, I am acutely aware of the history there. I cannot say 
we are doing it perfectly every day, but I just want to assure 
you we are trying. And I would encourage you to talk to supes 
and State school chief officers, and teachers to find out if we 
are being more receptive and doing a better job of listening.

           INCREASED EFFICIENCY THROUGH PROGRAM CONSOLIDATION

    We have tried to consolidate programs, to cut from 38 to 
11, to become more efficient and effective, but also just to 
have less points of contact, make it simpler for folks to deal 
with us.

                  FLEXIBILITY IN EXCHANGE FOR RESULTS

    And then for me, the tradeoff in all of this, whether it is 
in our education plans, Race to the Top, i3, Promise 
Neighborhoods, whether it is in, hopefully, reauthorization of 
ESEA, and if not, potentially waivers--to me, the real tradeoff 
is where States and districts are raising the bar, setting 
higher standards, and holding themselves accountable. I am a 
big believer in growth rather than absolute test scores. I want 
to know how much students are improving each year, not whether 
they are at some artificial cut point.
    Where States are doing the right thing, we want to provide 
a lot more resources and a lot more flexibility. Where folks 
are backing down, reducing standards, showing an unwillingness 
to close the achievement gap, we are going to challenge them 
very, very hard.

                          NO CHILD LEFT BEHIND

    But for me, the grand trade off philosophically in all 
these things is, if we can hold folks accountable to a high 
bar, then we should give them a lot more room to move. I think 
the current law, I have said repeatedly, is far too punitive. 
It is far too prescriptive. It led to a narrowing of the 
curriculum, and it led to a dumbing down of standards. None of 
those things are good for children or teachers or education in 
our country, and we want to fix the law in a common sense way. 
Chairman Harkin is working extraordinarily hard in a bipartisan 
manner. We are working very, very closely with Senator Enzi, 
and with the gentleman to your left, Senator Alexander, someone 
I have great, great respect for, who held my position. I listen 
very closely when he speaks.

               BIPARTISANSHIP APPROACH TO EDUCATION BILL

    And we just hope, despite some of the dysfunction, frankly, 
that we see coming from our Congress, that we can think about 
education, while putting politics to the side, putting ideology 
to the side, to come up with a common sense, bipartisan bill. 
It is the right thing to do. And I desperately hope that will 
still happen.
    Senator Moran. I thank you for your answer, and I will 
follow up with questions in writing.

             WAIVER FOR MC PHERSON USD SCHOOL DISTRICT 418

    But in that regard, as I indicated to you, I am very 
grateful for the waiver you provided McPherson USD School 
District 418. They have created their own set of tests and 
standards, and you granted the first waiver nationwide. It is 
an example of what is going on in Kansas. It is very 
beneficial.
    Secretary Duncan. And let me be very clear on that. That 
was not a gift; that was something McPherson earned. They 
basically said they were raising the bar above State standards. 
And whenever anyone is holding themselves to a higher level of 
accountability and challenging both adults and students to do 
more, we want to do everything we can to support that, and, 
frankly, to get out of the way. So, I appreciate their courage. 
That is tough, tough work. But if we had more districts and 
more States doing that, today education would be in a much 
better place. So, that was not a gift; that was something they 
absolutely earned. And I appreciate the example they are 
setting for the country.
    Senator Moran. I do criticize you for using my time to 
compliment Senator Alexander.
    Do that when he asks his questions, I would appreciate it.
    Thank you, Mr. Secretary.
    Secretary Duncan. I will use his time to compliment you.
    Senator Harkin. Senator Landrieu.
    Senator Landrieu. Mr. Secretary, let me begin by using some 
of my time to compliment Senator Alexander. I have worked with 
him on many issues.
    And I appreciate his continued support for our bipartisan 
reform efforts.
    I want to thank you, Mr. Secretary, for your passionate 
leadership and your inspirational leadership. I think you are 
exactly the right Secretary for the challenges before this 
Nation. And I thank you for being tough and not backing up and 
pushing this all forward.

                           TEACH FOR AMERICA

    But I wanted to raise just a couple of questions that are 
concerning to me.
    First, is because of the zeroing out of several critical 
and, in my view, superior programs, one of which, not the only 
one, but one of which is Teach for America. This subcommittee 
rallied in a bipartisan way because that program was zeroed out 
both by the President's budget and by a missed definition, in 
my view, of earmark. This subcommittee rallied, the chairman 
helped us, to identify 1 percent of title II-A funds last year 
so that some funding could move to Teach for America and other 
programs that were, in my view, in a very shortsighted way 
zeroed out.
    We have a plan--90 Members of Congress have sent a letter 
to you and the President, urging you to set aside 5 percent 
this year for these high-performing, effective programs. I am 
going to ask you this question in a minute. But I want to put 
on the record, Teach for America last year, there were 48,000 
applicants. Now, these applicants are the top 1 and 2 percent 
of students graduating from all of our universities. From 1,500 
colleges they applied. They only selected 5,000. Again, 48,000 
applied, 5,280 were selected by limits of budget.

                 LEVERAGING POWER OF TEACH FOR AMERICA

    TFA, for every $7 in non-Federal funding, they leverage $7 
in the private sector for every $1 that we fund them.

                 TEACH FOR AMERICA AND STEM INSTRUCTION

    In addition, TFA is the largest single provider of STEM--
science, technology, engineering, and math--teachers in the 
country, so science, technology, engineering, math, STEM. They 
are providing more teachers, so we cut this program out 
entirely. It makes no sense to me.

                       TEACH FOR AMERICA FUNDING

    We have tried to say collectively, how do we get our best 
and brightest in the classroom? So, Teach for America comes up 
with a plan, mostly private sector driven, nonprofit driven. We 
put up a little money, they put up a lot of money, the public 
benefits.
    I am very confused as to how we zero out a program like 
this. So, we want to solve this problem.
    Are you committed to increasing 5 percent so that at least 
Teach for America has an opportunity to compete for decent 
enough money to get them back on track to continue to provide 
the technology, engineering, and math teachers this country 
desperately needs? If so, why? And if not, why not?

           TEACH FOR AMERICA--LEADERSHIP DEVELOPMENT BENEFITS

    Secretary Duncan. First of all, obviously I think Teach for 
America has done a remarkable job, not just at producing 
teachers and teachers in STEM areas and teachers in 
disadvantaged communities, but one of the huge residual 
benefits of the program is it has been an amazing leadership 
program. And many innovative superintendents, many leaders of 
nonprofits, many education entrepreneurs are Teach for America 
alums. And I think that is a benefit. When I ran Chicago Public 
Schools, I worked to bring TFA in. What I did not realize--I 
was not smart enough at the time, when we started opening 
really innovative new schools in disadvantaged communities--a 
wildly disproportionate number of the principals leading those 
efforts were Teach for America alumni. So, it was a really 
important lesson for me.

                 FUNDING INCREASE FOR TEACH FOR AMERICA

    Senator Landrieu. So, do you support the 5 percent----
    Secretary Duncan. So, we are adding--I am getting to that. 
We are right now, as you know, TFA successfully competed, 
again, not a gift, won, a $50 million grant to invest in 
innovation. Had great evidence, great data on effectiveness. We 
were happy to do the 1 percent set-aside. I would need to sort 
of sit down with my staff and think about the 5 percent set 
aside as we move forward. I understand the need, and to give 
more folks the chance to compete would be interesting to me. 
So, I am not willing to commit to it today, but----
    Senator Landrieu. Well, the nine of us are going to push 
you very hard to do that. And there are other programs, not 
just Teach for America, that are superior, effective, and 
extraordinary in their results. We should not be eliminating 
them.

                     RACE TO THE TOP ACCOUNTABILITY

    And my second question, Race to the Top----
    Secretary Duncan. I could not agree with that more.

                       RACE TO THE TOP AMENDMENTS

    Senator Landrieu. Okay. My second is, every State except 
Georgia that won Race to the Top in the first two rounds has 
now amended its State reform plan in some way, usually to push 
back timetables or scaling, you know, scale back initiatives. 
According to the list of approved amendments, there were 12 
winners that changed their plans 25 times.
    My question is, the administration has requested an 
additional $900 million for the Race to the Top, but before 
approving additional funding, are you going to continue to give 
out funding to States just to see their timelines, which they 
promise to meet, push back, or there are promises made, then 
modified, and not reach the goals that we all hope for them to 
do?
    Secretary Duncan. No, we are absolutely holding them 
accountable for outcomes, and we are never giving waivers for 
material changes in applications. We have asked them to take on 
very, very ambitious work. If it takes a little bit longer to 
get that work done well, we are happy to support that. If it is 
bypassing that work or avoiding it, we will never grant that 
waiver. And to be very clear, we will withhold funding if they 
take that step.
    I am not, frankly, seeing that. I am seeing huge amounts of 
courage. I am seeing extraordinarily hard work going on. 
Sometimes it takes a little longer, but I am interested in the 
outcome, in quality. And the second we see a State back away 
from that, we will stop funding them immediately. I want to let 
you know that, absolutely.
    Senator Landrieu. Okay. And I know my time is up, Mr. 
Chairman, but I do have other questions. I will just submit 
them for the record on the TRIO program and emergency 
preparedness for schools. And I thank you very much.
    Secretary Duncan. Thank you.

                       TEACH FOR AMERICA FUNDING

    Senator Harkin. I might just say to my friend from 
Louisiana that I have always been a big supporter of Teach for 
America. It was one of those earmarks that we used to do.
    Senator Landrieu. But it is a federally authorized program, 
so I am very confused about that definition.
    Senator Harkin. Well, we put a set-aside in there for 
everything at 1 percent. I would be delighted to visit with you 
about whether that should be increased at this level or not on 
that set-aside.
    Senator Landrieu. Thank you, Mr. Chairman, for your 
leadership.
    Senator Harkin. Well, for the competition.
    Senator Landrieu. And it is not just for Teach for America, 
but there are several effective programs out there. I mean, I 
understand eliminating programs that do not work, but when we 
start eliminating the best programs that are working at even a 
public/private partnership, I think we have gone way off the 
cliff.
    Senator Harkin. Well, I could not agree more. Thank you 
very much.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman, and I want to thank 
the Secretary for being here today. It is great to see you. I 
think the last time you and I saw each other face to face was 
in Little Rock when you were at Little Rock Central High School 
doing your Courage in the Classroom kick off. I hope that was 
successful. We loved having you in Arkansas. Thank you very 
much for coming down.

                      PROMISE NEIGHBORHOOD PROGRAM

    I want to ask about the Promise Neighborhoods program. This 
is a program under which the University of Arkansas at Little 
Rock was successful in getting a planning grant for fiscal year 
2010. I am curious about your view of how the Promise 
Neighborhood projects are going. What kind of results you are 
seeing out there? What kind of end results you are looking for?
    Secretary Duncan. This is a hugely important initiative to 
me, particularly in our Nation's most distressed, most 
disadvantaged communities. The only way we strengthen those 
communities is by increasing the quality of education and 
building community support for that work, and building the kind 
of wrap-around services and nonprofit partnerships that help 
schools to be successful in very tough communities.

                     PROMISE NEIGHBORHOODS FUNDING

    We were fortunate to be able to fund 20 planning grants, 
that being one of them, around the country. We had 300 
applicants, and we had many more highly creative, thoughtful 
proposals that I would love to have funded that we simply did 
not have the money for. Fiscal year 2011, we have $30 million 
that we are going to use for a combination of purposes--
starting to fund some programs, some communities for 
implementation and others to develop a plan. But we would like 
to see a significant increase in the investment in Promise 
Neighborhoods for fiscal year 2012 to really start to move to 
implementation across the country.
    And the grants are in very poor rural communities. We have 
one planning grant on an Indian reservation, Native American 
reservation, and others in distressed inner-city communities 
where we can get the kind of results that Geoffrey Canada has 
done in the Harlem children zone in New York, dramatically 
transforming the life chances of young people there.

         NEED FOR RECOGNIZING, FUNDING MORE PROMISING PROGRAMS

    We can prove, demonstrate, that communities can come 
together to help the most challenged children and families be 
very successful academically. So, we think this is the right 
investment. It is early on. There is much greater need and 
capacity out there than we are able to fund, and that is what 
is heartbreaking to me. There are people doing amazingly 
thoughtful work, collaborating, partnering in ways that they 
never would have done before. We support that effort to not 
scale back. And so we would respectfully ask for a significant 
increase in funding to move toward implementation to a wide 
variety of communities around the country.
    Senator Pryor. I think that is great. So, you are seeing 
what you would hope to see out there, which is communities 
coming together and really getting great things done. And now 
you are getting to the implementation stage.

               PROMISE NEIGHBORHOOD APPLICANTS AND AWARDS

    Secretary Duncan. And we were blown away by the number of 
applicants, the quality of applicants. And, again, we were able 
to fund 20 or 21. There were probably over 100 that I would 
have felt great about investing in, and I was thrilled to do 
the ones we did. I would love to have had the chance to invest 
in many other communities.

            SCIENCE, TECHNOLOGY, ENGINEERING AND MATHEMATICS

    Senator Pryor. Well, thank you for that answer. Now let me 
also ask about STEM. This is an area that is very important. 
You have prioritized STEM education in your budget. My view is 
that focusing on STEM will absolutely translate into better 
jobs, better opportunities for many, many, many Americans 
around the country. Could you comment on that and talk about 
your vision for STEM education and how that impacts the future 
workforce?
    Secretary Duncan. So, at its heart as we go forward, we 
simply have to produce a lot more young people with skills, 
with competency, with a passion for the STEM disciplines. That 
is where the jobs of the future are. That is going to be the 
future creators, the innovators, the entrepreneurs who are 
going to create jobs in fields that do not even exist today.

                         STEM TEACHER SHORTAGE

    Right now, we have a shortage of teachers who are strong in 
STEM. We have had that shortage in this country probably for 
20, 25, 30 years, and I want to stop admitting the problem. I 
want to try and fix it. And we need teachers with great 
passion, great interest in the STEM fields, not just for AP 
calculus and physics, but in third, and fourth, and fifth grade 
where too often students start to turn away from that, lose 
interest because their teachers do not know the content area, 
and they start to back away.
    So, we have to invest significantly to get that next 
generation of teachers to come in to the STEM fields. The 
President has challenged us to recruit 100,000 new teachers in 
the STEM areas. We have to make sure that students in 
elementary school, eighth grade have access to classes like 
algebra I. We have to make sure that students--sophomores, 
juniors, and seniors--in high school have access to AP classes 
and college-level classes in the STEM fields.
    I think we--I am a little controversial on this but, I 
think particularly in disadvantaged communities, in rural and 
remote areas, we should be thinking about where there is a 
scarcity of great STEM teachers, and I think we should pay 
those teachers more money to take on those assignments in 
communities that just haven't had access. And we see across the 
Nation far too many young people--we just did a recent data 
survey--data collection with the Office of Civil Rights. There 
are far too many--hundreds of thousands of young people who do 
not have access to a class like algebra I in eighth grade. And 
if you want them taking, you know, AP physics or calculus down 
the road, you have to start them in that trajectory.
    So, we have a lot of hard work here. I do not want to keep 
admitting the problem. I want to try to fix it.
    Senator Pryor. Right. Mr. Chairman, thank you. Before I 
close, I would like to say to Secretary Duncan that I know we 
have picked on Senator Alexander today. But I know that Senator 
Alexander has great respect for you because the other day he 
was telling me that he thinks you are the second best secretary 
of education we have ever had.
    Thank you.
    Senator Harkin. Thank you, Senator Pryor. I must just add 
on the STEM stuff, Mr. Secretary, you pointed out it is so 
important to get down to first-, second-, third-graders who 
have a natural instinct and interest in science, and to 
encourage that at that level.
    Senator Kirk.

          EDUCATION SUPPORT FOR CHILDREN OF MILITARY FAMILIES

    Senator Kirk. Thank you. And, Mr. Secretary, it is great to 
see you in this job after what you did for the Chicago Public 
Schools.
    And I want to talk to you about--Senator Durbin and I are 
working on making sure that we are supporting the military 
families, especially around Great Lakes. We have a unique 
arrangement there. We are working with the chairman to make 
sure that we do not see a couple of school districts implode 
that support the military families there.

                            CHARTER SCHOOLS

    Then there is a unique charter school initiative that we 
are rolling, which I think will look a little bit like a DOD 
school, and further support military families that may be 
replicable throughout the rest of the country. I wonder if you 
could comment on those two initiatives.
    Secretary Duncan. Yeah. I do not know the details. I think 
you are working in the North Chicago community.
    Senator Kirk. Right.
    Secretary Duncan. And I will just say simply, we cannot do 
enough to support our military families. And as I talk to 
troops who are serving and who have come back from service in 
Iraq and Afghanistan, when I ask what can we do to help you, 
they consistently say, take care of my children. Educate my 
children. That is the least we can do.
    And so, I do not know the details of the proposal. Whatever 
I can do to support getting high quality options, strengthening 
education for the children of adults who are serving our 
country, I want to do everything I can to help that. I have 
tried to travel to as many bases and schools around military 
communities to really understand the challenges.

               COMMON STANDARDS BENEFIT MILITARY FAMILIES

    This is a little bit off topic. There are huge benefits of 
the common standards that folks are doing, higher standards, 
for as you know, military families move very frequently, and 
they get devastated by those moves to different States doing 
different things, and children finding out they are far behind. 
So, they have been extraordinarily supportive of the work we 
have done to have college- and career-readiness common 
standards in the vast majority of States around the country. 
So, at the local level, nationally, whatever I can do to help 
support these children, please count me in.

                 EXPANDING CHARTER SCHOOL OPPORTUNITIES

    Senator Kirk. Thank you. Senator Durbin and I are also 
working on the Durbin-Kirk ALL-STAR legislation to expand 
charter school opportunities for kids. Right now, for example, 
in a community you know well, Chicago, only about 10 percent of 
families even have the ability to send their kids to a charter 
school. So, we would change the Federal funding law to allow us 
not just to start new charter schools, which is allowed under 
Federal law, but to expand current ones. And I think that would 
allow us to pick the winning charter systems. But can you 
comment on that?
    Secretary Duncan. I think, again, that is where I have been 
very, very clear. I am not pro-charter; I am pro great schools. 
And where you have great charters, giving them the chance to 
replicate, to serve more students, it is silly not to do that. 
I have also challenged the charter community, when schools are 
not working, we need to hold them accountable and close them 
down. But where you have high-performing charters, particularly 
in disadvantaged communities, to give them the chance to serve 
more children makes absolute sense to me.
    And where you have now not just sort of mom and pop charter 
models, you have some national models. You have folks that are 
replicating at a pretty significant scale in many communities 
and demonstrating this is not one amazing principal or one 
charismatic teacher, but systemically they are closing 
achievement gaps in very significant ways.
    And where we are seeing that, I just want every child in 
this country to have a chance to go to a great school.

                         ACADEMIC YEAR CALANDAR

    Senator Kirk. Yeah. Can I have you talk about a big picture 
item? Our basic school calendar was established two centuries 
ago, in the 19th century, to provide a summer break to bring in 
the harvest, which I think is particularly inappropriate for 
the now 80 percent of Americans who live in an urban or 
suburban area.
    We generally see in school performance that the summer 
break will set kids back at least 1 month if not more. Give me 
your views on all-year school in the 21st century.

                       LONGER SCHOOL YEAR NEEDED

    Secretary Duncan. I usually get booed by children when I 
talk about this, and adults usually--most adults cheer, not 
everyone.
    But I think we are crazy on this as a country. The fact 
that our school calendar is based upon an agrarian economy 
makes no sense to me whatsoever. And other countries that are 
out-educating us today--I do not think they are any smarter 
than us but, a lot of them are just going to school 30, 40, 50 
more days a year than we are.
    Senator Kirk. Right.
    Secretary Duncan. And they are just working a little bit 
harder and we need to work a little bit harder. All of you guys 
are in your positions because you work pretty hard. And we are 
just denying that opportunity to our young people. So, I am 
advocating everywhere I can, passionately, for longer days, 
longer weeks, and longer years.
    And let me be clear. Particularly in the summer, not that 
every child needs to do that. If you have a middle class 
child--a child that has access to libraries and summer camps 
and museums, that is okay. But if that child is going to be in 
the street or is going to sit in front of a TV all summer, that 
is a devastating loss. We are trying to close achievement gaps, 
not expand them.
    And so, to not give those students those kinds of 
opportunities makes no sense. So we can be, you know, 
thoughtful, we can be creative here, you can differentiate, you 
know, on what students need. But to just say we are going to 
stop learning in June and just hope for the best, particularly 
in disadvantaged communities, just makes no sense to me 
whatsoever.
    And, Senator, I have gone too long on this. But what really 
troubles me is you see some districts being really creative 
around the use of time and technology and doing some great 
things. You see other districts retrenching, going to 4-day 
weeks, shortening the school calendar. And I understand these 
are tough economic times, but those are horrendous decisions, 
and we need more time, not less. Our children need more 
structure, more opportunities to learn. And if we want them to 
compete and to compete successfully in a global economy, right 
now we are putting them at a competitive disadvantage from 
children in India and China who are going to school 30 to 50 
days more each year than children in the U.S. I do not know why 
we would want to put our children at a competitive 
disadvantage.
    Senator Kirk. And, Mr. Chairman, I know there are 
difficulties and we have to work out payer work arrangements, 
but the country, I think, should begin a debate on moving to 
all-year school. I think that would help our performance.
    And I would say the very controversial thing of joining 
Senator Landrieu on praising Secretary Alexander and his work.
    Senator Harkin. Thank you very much.
    Senator Alexander.
    Senator Alexander. Well, thanks. If I had known all these 
compliments were going to flow, I would have come on time.
    That gives me a chance to restate what I have said many 
times. I really compliment President Obama for his appointment 
of Secretary Duncan, who has a real heart for the job and a lot 
of experience, and is willing to challenge a lot of 
conventions. And despite the fact he is more of a basketball 
player than a politician, he is a better politician than most 
cabinet members and than most senators. So, all of us, I 
included, really respect your work.

                        EDUCATION ACCOUNTABILITY

    Let me use my time to talk with you for a few minutes about 
what we call accountability in the education business. And I 
want to read a letter--not a whole letter. I want to read a 
sentence from a letter or two and see whether you agree with 
it. I think you are generally familiar with the letter. This is 
a letter that the chief counsel of Chief State School Officers 
wrote to me and cc'd Senator Harkin, and Senator Enzi, and 
Senator Bingaman in May, talking about the work they have been 
doing, which you have been very much involved with. And I have 
asked, Mr. Chairman, this letter be included in the record.
    Senator Harkin. It will be.
    [The information follows:]

                    Council of Chief State School Officers,
                                      Washington, DC, May 19, 2011.
The Honorable Lamar Alexander,
455 Dirksen Senate Office Building,
United State Senate, Washington, D.C. 20510.
    Dear Senator Alexander: In anticipation of our meeting, I wanted to 
share with you some information regarding the important work currently 
being led by the States on behalf of our Nation's students. We look 
forward to discussing our work with you in greater detail in hopes that 
we might be able to partner with you and work with the Senate Health, 
Education, Labor and Pensions Committee to inform reauthorization of 
the Elementary and Secondary Education Act (ESEA).
    Over the course of the past several years, and in the face of 
outdated and burdensome Federal requirements, States have led in 
developing policies and systems designed to ensure that all students 
graduate from high school ready for college and career. This is 
evidenced by myriad State-led reforms, including:
  --The development and adoption of college- and career-ready, 
        internationally benchmarked standards, including the Common 
        Core State Standards in reading/language arts and math that 
        have been adopted by 45 States and territories;
  --The ongoing development of robust, internationally benchmarked, 
        assessments aligned to rigorous standards, including through 
        the two national assessment consortia (PARCC and SMARTER 
        Balanced);
  --The design and implementation of growth models for accountability, 
        which focus schools on ensuring that students meet the goal of 
        college- and career-readiness; and
  --The development of improved standards for teacher and principal 
        effectiveness, and teacher and principal evaluation systems 
        focused on student achievement.
    In the light of this State leadership, CCSSO spearheaded a task 
force of chiefs in developing a roadmap for States in looking at next-
generation accountability systems. Coming out of this task force are 
principles that would guide new models of school and district 
accountability designed to better drive school performance toward 
college- and career-readiness; more accurately and meaningfully 
identify and support the range of schools; and better provide 
actionable data to support districts, schools, principals, teachers, 
parents, students, and policymakers to dramatically improve student 
achievement. Beyond these core requirements, States may and will 
develop proposals that approach these issues in different ways. Each 
state's proposal would be guided by the following principles:
  --Fully align accountability expectations and measures to the goal of 
        all students graduating from high school ready for college and 
        career;
  --Make annual accountability determinations for all schools based on 
        the performance of all students;
  --Base accountability determinations on student outcomes, including 
        but not necessarily limited to improved, rigorous statewide 
        assessments in reading and math (grades 3-8 and high school) 
        and accurate graduation rates;
  --Base accountability determinations in part on disaggregated data of 
        student performance across relevant subgroups;
  --Provide timely, transparent, disaggregated data and reports that 
        can meaningfully inform policy and practice;
  --Include, as appropriate, deeper diagnostic reviews of school and 
        district performance, particularly for low-performing schools, 
        to create a tighter link between initial accountability 
        determinations and appropriate supports and interventions;
  --Focus on building district and school capacity for significant and 
        sustained improvement in student achievement toward college- 
        and career-ready performance goals; and
  --Focus significant interventions on the lowest performing 5 percent 
        of schools (elementary and middle, and high schools) and their 
        districts (in addition to targeted interventions to address the 
        lowest performing subgroups and/or schools with the greatest 
        achievement gaps).
    A critical number of States are committed to moving forward in the 
design of accountability systems aligned to these principles and we 
expect a number of additional States to join in the next couple of 
weeks. States seek a reauthorization that supports this State 
leadership and innovation, and does not remain a barrier or seek to 
codify a single ``right'' answer for national education reform. We want 
to work with you in this effort and hope that our work helps to inform 
your conversations going forward. I look forward to meeting with you to 
discuss these issues in greater detail.
            Sincerely,
                                                      Gene Wilhoit.

          NO CHILD LEFT BEHIND--FLEXIBILITY AND ACCOUNTABILITY

    Senator Alexander. Thank you. Thank you.
    In this letter, it talks about the work that the different 
States have done in creating common core standards, in creating 
a test to see where children are meeting that standard, and 
creating what we call growth models, which have been discussed 
in this hearing before, and especially in working in there that 
you, and I, and others care a lot about, which is finding a way 
to measure teacher and principal effectiveness, and especially 
relating that to student achievement. And it is a very 
impressive record.
    And they go on to say this. And I had a conversation about 
this with one of your predecessors, Secretary Dick Riley, the 
former Governor of South Carolina, who supports this idea. The 
last--this is the sentence in the letter, it says, ``States 
seek a reauthorization of the Elementary and Secondary 
Education Act that supports this State leadership and 
innovation, and does not remain a barrier or seek to codify a 
single right answer for national education reform.'' Do you 
agree with that?
    Secretary Duncan. Yes.

                       FEDERAL ROLE IN EDUCATION

    Senator Alexander. Well, good. Then as we go down through 
these, one of the difficult issues that we have as we think 
about fixing No Child Left Behind is this accountability 
section. And to what extent should the Federal Government write 
anything about tests, write anything about a growth model, 
write anything about how to measure teacher performance, 
because whenever we put it in law, then the Department of 
Education, which you and I know something about, then goes 
through a process of rulemaking, establishes ``parameters,'' 
which are what people in Washington think Chicago 
superintendents or Governors of Tennessee ought to be doing. 
And it all sounds good. By the time you get it all done, you 
have a superintendent flying in from Denver, Chicago, or 
Nashville seeking the Secretary's approval for some specific 
growth model, which is a big waste of everybody's time.
    So, what I am trying to get at--and let us take a specific 
example. Let us take the idea of relating student performance 
to teacher pay. I am a big advocate of rewarding outstanding 
teaching, master teachers. I think it is the Holy Grail of 
education. How do we reward outstanding school leaders and 
teachers with more pay, more honor?

                         TEACHER INCENTIVE FUND

    And I think many of us agree on that. But my fear is that 
if we put it into the law, and we write a rule about it, then 
suddenly we will be defining what 100,000 schools will be 
trying to do, and I do not think it works well that way. I 
think what has worked well is your teacher incentive fund where 
you give grants and money to local school districts who then 
work with their teachers or work with their community and come 
up with different models for rewarding outstanding teaching.
    So, what would your advice be as we work on fixing No Child 
Left Behind about how we accomplish this goal, which there is 
broad bipartisan support for, without running into the problem 
of violating what the Chief State School Officers have told us 
they do not want done.
    Secretary Duncan. Yeah. These are really, really thoughtful 
questions, and you and I have talked about this a multitude of 
times.

                           STATE FLEXIBILITY

    There is a balance we are trying to strike and where I 
think we are all trying to get to the same point and trying to 
figure out how to do that. The last thing we want to be is to 
be prescriptive or top down. We think the teacher incentive 
fund has been very effective. We think Race to the Top, 
frankly, was very effective. We said that student achievement 
had to be a significant part of teacher evaluations, but we did 
not say a number, and, frankly, we do not know that number. We 
have seen a huge amount of very creative and very, very hard 
work going on at the State level because we incentivize that in 
the right way.
    So, the Council of Chief State School Officers, Gene 
Wilhoit, has been an amazing profile in courage. All this work 
of higher standards, better assessments we talk about, that is 
not coming from you or I. That is coming from Governors and 
chief State school officers having the courage to do the right 
thing. And I cannot overstate what a great partner they have 
been.

             ENSURING ACHIEVEMENT GAINS WITHIN FLEXIBILITY

    I think the vast majority of States are moving in the right 
direction now. My only concern is I do not want to give a pass 
to a State that somehow goes in the wrong direction. And we 
have a history of Governors, both Republican and Democrat, who 
dummied standards under No Child Left Behind, who did exactly 
the wrong thing for children for their State, because it was 
politically expedient, because it made them look good 
politically, but it hurt their children, hurt their education, 
ultimately hurt their State's economy. And nobody said anything 
about it. It was like they all got a great pass.
    So, I want to continue to reward courage, to incentivize 
that. But I also think as the Federal Government, we have an 
obligation to make sure if a State says, you know, we are not 
going to do accountability, we do not care about achievement 
gaps, we think poor children, black or brown children cannot 
learn--we have to think about what the Federal responsibility 
is there. And I think that is--we are trying to get that fine 
line worked out and, again, we continue to look to your advice 
and guidance of how best to do that.
    Senator Harkin. And, Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman. 
Secretary Duncan, Mr. Skelly, thank you for being with us.
    Mr. Secretary, thanks for the good job you are doing.

                 GROWTH IN RATE OF STUDENT INDEBTEDNESS

    In October of last year, we reached a milestone in America 
that most people did not know and did not hear about. For the 
first time in the history of our country, student loan debt 
exceeded credit card debt in America.
    The rate of growth of student indebtedness in our country 
is alarming. The indebtedness that students are incurring to go 
to school is holding them back in terms of their own personal 
ambitions and career goals, and creating a problem for us 
because should they default, ultimately the taxpayers will be 
the losers.
    I and many others have voted consistently for student 
assistance because that is why I am sitting here today. Were it 
not for the National Defense Education Act enacted by this 
Congress out of fear of Sputnik and the Russians, I do not know 
if I would have gone to college or to law school. So, I have 
always felt that I owed it to the next generation to give them 
the same chance.

                    PELL GRANTS VERSUS STUDENT LOANS

    And I have always felt the same way about Pell grants 
because, rather than loans, this is money that a student does 
not have to repay. The Pell Grant now is in the range of 
$5,500. The administration believes it is important and had 
made it part of our budget negotiations.
    And notwithstanding that, the next time I vote on Pell 
grants, I am going to have a very difficult time voting for 
them and looking at student loans the same way. And you know, 
because we have discussed it at length.

                           FOR-PROFIT SCHOOLS

    And the chairman of this committee has looked at a problem 
that we are facing that I think many Members of Congress are 
ignoring; that is the growth of for-profit schools.
    For-profit postsecondary education trains or educates 10 
percent of the students, claims 25 percent of all Federal aid 
to education, and accounts for 44 percent of all student loan 
defaults.
    What is going on is nothing short of scandalous. There are 
private companies that have found a way to game our system, to 
bring students out of high school into a so-called learning 
environment to burden them heavily with debt, to hand them 
worthless diplomas, and then watch while they fail.
    We have got to do something about this, Mr. Secretary.
    I cannot vote blindly for Pell grants and college student 
loans knowing that this Ponzi scheme is going on in the name of 
for-profit colleges. Now let me add, there are good ones, and I 
could name a few and you could, too. But there are so many bad 
ones, terrible schools, that are exploiting students these 
days.
    You looked at this. You have come up with a proposal. I 
think it moves in the right direction, but I think it moves too 
slowly.
    How can we in good conscience extend Pell grants and 
student loans knowing that this kind of predatory lending is 
going on, this kind of subprime mortgage pyramid is being 
created in the name of higher education?

           WORKING TO ENSURE EFFICACY OF FEDERAL STUDENT AID

    Secretary Duncan. Sir, your leadership in this issue and 
Chairman Harkin's absolute passion and leadership I think has 
changed the national conversation.
    And what we tried to do is very simple, and I think it is a 
significant step in the right direction. Is it perfect? 
Absolutely not, and we have had those conversations. But what 
we want to do is where you have good actors, as you said, we 
think that is a good investment. We think that is good for 
young people and folks who have not had those kinds of 
opportunities before to have the chance to increase their 
skills, if it is leading to meaningful work, if those skills 
and what they are learning are real. If it is not, we simply 
cannot continue to invest taxpayer money anytime, but 
particularly in tough economic times, in those places.
    So, we put in place some pretty significant rules and 
guidance that has been heavily challenged by many in the 
industry. Some of the good actors are actually supporting it, 
which has been interesting. But basically, trying to eliminate 
those programs that were not leading to good outcomes, where 
there is, you know, false advertising, where there are no jobs 
available, where you are under a mountain of debt that you 
cannot pay back. That is a horrendous investment. So, we have 
tried to move in the right direction.
    I would also add, I think we have seen pretty significant 
changes in behavior. We have seen a number of CEOs lose jobs. 
You have seen institutions start to behave in some very 
different ways. And so, I think this is going in the right way, 
and I feel much more comfortable about our investment in grants 
and loans, more comfortable today than I did before our 
regulation.

          ACCREDITATION AND TRANSPARENCY OF FOR-PROFIT SCHOOLS

    Senator Durbin. I have only a few seconds left. Here is 
what I think we have to do. You cannot expect a student or that 
student's family to know whether a school is worth investing 
in. There is no way they can tell whether the claims made by 
the school are true or not. It starts with the accreditation.
    I have been disappointed, sadly disappointed, by the 
limited, if negligible, standards for accreditation. Schools 
that are a laughing matter end up being accredited. How is a 
student supposed to know? How is a family supposed to know? 
They assume that if they are accredited and our Federal 
Government will send Pell grants and college student loans 
through those schools, that it is a good education. Why would 
they not assume that?
    Do we not have an additional obligation when it comes to 
evaluating these schools?
    Secretary Duncan. No, I think that is a great, great point. 
Absolutely. And we need to look at that. You have been very, 
very clear on that.
    I would only add one thing; what we are trying to do now is 
to really increase transparency so that young people and their 
parents can have a much better understanding of outcomes. And 
we think that transparency--we think there are lots of choices 
out there, and that transparency will hopefully drive behavior 
in the right way.
    But your basic question about accreditation is an 
absolutely real one, and I will take that to heart.

                     REPAYMENT OF STUDENT LOAN DEBT

    Senator Durbin. And the last point I will make, if you will 
bear with me for 5 seconds. Student loans are different than 
other debts. They are not dischargeable in bankruptcy. A 
student loan you will carry to the grave, and that is something 
we ought to remember and students should be advised of before 
they make these decisions.
    Thank you.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    I want to thank the Chairman for convening this hearing to review 
the fiscal year 2012 budget request for the Department of Education.
    We are engaged in a debate this week about our Nation's long-term 
fiscal outlook as we consider proposals to raise the debt ceiling. We 
can deal with our debt responsibly and in a balanced way.
    We have to reduce the debt and deficit. But investing in education 
and retraining is the best way to ensure our economic recovery now and 
our economic growth well into the future.
President's Budget for Fiscal Year 2012
    The President's fiscal year 2012 budget recognizes the importance 
of education to sustained economic recovery by investing in key areas:
  --Early childhood education.--The President's budget includes $8.1 
        billion for Head Start to serve an additional 1 million 
        children and families.
      The budget also includes an additional $1.3 billion to support 
        1.7 million children and families through the Child Care 
        Development Block Grant Program.
  --High-quality schools.--The President's budget includes $26.8 
        billion, an increase of 6.9 percent, for a reformed Elementary 
        and Secondary Education Act that is focused on raising 
        standards, encouraging innovation, and rewarding success.
  --Innovation and reform.--The budget would invest $1.4 billion in 
        competitive programs that leverage scarce Federal dollars to 
        bring about systemic reform in education.
    --The Early Learning Challenge Fund would spur States to improve 
            the quality of early childhood programs.
    --A new Race to the Top program would bring resources to school 
            districts willing to make needed reforms.
    --A new ``First in the World'' competition would encourage colleges 
            and universities to demonstrate success in graduating more 
            high-need students and preparing them for employment.
    These are the kinds of programs that use limited resources to 
inspire meaningful improvements. And it's the students who win.
Pell Grants and For-Profit Colleges
    I would like to say a word about Pell Grant funding.
    The Department of Education expects demand for Pell grants to reach 
9.6 million students next year, up from 6 million in 2008.
    The President's budget would maintain a maximum Pell Grant award of 
$5,550 per year for these students.
    As a beneficiary of Federal investment in higher education, I have 
always voted to support Pell Grants and Federal student loans.
    But I have become deeply troubled by what I see happening in higher 
education today. The Federal financial aid system is in serious peril, 
largely because of the actions of many for-profit colleges.
    For-profit colleges educate less than 10 percent of students, take 
in 25 percent of all Federal financial aid, and account for 44 percent 
of all student loan defaults.
    We can't afford to see taxpayer dollars wasted by sending billions 
of dollars of Pell Grants to for-profit schools, many of which aren't 
providing a good return on that investment.
    If we want our economy to grow, we should help low-income students 
attend colleges that put them on a path to success.
    But it is irresponsible for us not to question whether the 
taxpayers are getting their money's worth at many for-profit colleges.
    And as we consider increasing funding for the Pell Grant program to 
meet our commitments to students, I think we should also have a serious 
conversation about how to ensure the value of that investment.
    Taxpayers deserve some assurance that a Pell Grant invested in a 
student is leading to a better career, a higher salary, and a greater 
potential to contribute to the economy--not wasted at a for-profit 
college that leads to little except debt.
Conclusion
    Chairman Harkin, we can invest in education in a way that's 
fiscally responsible and will lead to stronger economic growth long 
into the future.
    The Administration has provided us a good start to that 
conversation, and I look forward to hearing from Secretary Duncan this 
morning.

            MISUSE OF STUDENT AID BY FOR-PROFIT INSTITUTIONS

    Senator Harkin. Well, thank you, Senator Durbin. And, 
again, I thank you for your great leadership in this area. You 
are the one who first started getting me focused on this a year 
and a half ago. And as you know, our authorizing committee has 
had a series of hearings and investigations into this going 
back 18 months. And what we have uncovered is just about what 
you just talked about. It is an invasion into the programs that 
we have developed to help poor kids get a decent education to 
prepare them for a career.
    And it has turned into almost an open spigot of taxpayers' 
dollars being siphoned off to hedge funds, Wall Street. You 
would be surprised how many of these for-profit schools are 
owned by Wall Street entities. And they are most interested--
their interest is in the bottom line, not on education.
    Well, we do not mean to get into that, but thank you for 
your leadership.

            SPECIAL EDUCATION MAINTENANCE OF EFFORT WAIVERS

    Mr. Secretary, I do not mean to hold you any longer, but 
just one issue I wanted to raise with you relates to special 
education. Obviously you know this is a long-standing interest 
of mine. We have discussed this many times.
    Tight budgets are leading some States to ask for waivers 
for their maintenance of effort requirements under IDEA. I want 
to thank you for your close scrutiny of those requests, which 
should be granted only under exceptional circumstances. I also 
would encourage you to continue to take a close look at any 
additional requests and use all of the resources available to 
you to make sure a free and appropriate public education is not 
denied students with disabilities.

         SPECIAL EDUCATION--FREE, APPROPRIATE PUBLIC EDUCATION

    Whenever this issue comes up, I always take the opportunity 
for a little teachable moment perhaps and a little history 
lesson. I was here at the beginning of this when we did IDEA. 
And many States I know and some people think that IDEA, the 
Individuals with Disabilities Education Act, which superseded 
the Education of All Handicapped Children Act, was somehow a 
Federal mandate on States, requiring them to give a free, 
appropriate education to kids with disabilities.

                   FAPE--A CONSTITUTIONAL REQUIREMENT

    Well, that is absolutely wrong. The mandate on States to 
have a free, appropriate public education for kids with 
disabilities is a constitutional mandate--constitutional. PARC 
v. Board of Education, Pennsylvania Association of Retired 
Citizens v. Board of Education. That established the principle 
that if a State--first of all, as we all know, States do not 
have to provide free education. There is no constitutional 
requirement for any State--Alabama, Mississippi, or Iowa, or 
any other State to provide a free public education. What the 
Constitution does say is if a State--if a State decides to 
provide a free public education--or FAPE, it cannot then 
discriminate on the basis of race, or sex, or national origin, 
and PARC v. Pennsylvania--I am sorry, it was PARC v. 
Pennsylvania--that case said that a State cannot then 
discriminate either on the basis of disability.

           FEDERAL ASSISTANCE TO STATES IN PROVISION OF FAPE

    The Federal Government came along and said, okay, if that 
is the case, we will try to help States with IDEA to provide 
some help and support. And if you want this money, if a State 
wants to partake in IDEA, well, here are certain requirements. 
No State has to take one dime of IDEA money. But if they do, 
they have to meet certain requirements in terms of a free and 
appropriate public education.
    So, this is a constitutional matter. Even if we provided 
not one dime of IDEA money, States would still have to provide 
a free, appropriate public education to every kid with a 
disability.
    Now, I say all this, Mr. Secretary, I know you understand 
that, but I always like to take that time to reaffirm the fact 
that we have constitutional obligations to provide this kind of 
education to our kids. And when States ask for waivers from 
their constitutional obligation, that ought to be looked upon 
with very close scrutiny as to whether or not they need that 
kind of waiver.
    So, again, I say this in a way of thank you because I know 
you have looked at that with close scrutiny, and to make sure 
that you have continued to look at those waivers very, very 
closely in the future. So, I thank you for that.
    And I will turn to Senator Shelby.
    Senator Shelby. Secretary, you have been very patient, but 
I have three quick areas I would like to get into.

              RACE TO THE TOP APPLICATION SCORING PROCESS

    I am concerned that the scoring process for the Race to the 
Top applications essentially mandates which interventions 
should be used by States and local school districts to improve 
student achievement and reduce achievement gaps. The Federal 
Government, I believe, should give States the flexibility to 
implement critical reforms as identified on the State and local 
level.
    If Race to the Top receives funding in 2012, can I have 
your commitment to review the scoring process for the Race to 
the Top applications, and specifically reevaluate the scoring 
measures on science, technology, engineering, and mathematics 
reform efforts? And will the Department consider changes to the 
Race to the Top program that allow States to be evaluated on 
their statewide vision and reform efforts identified at the 
State and local level? And if not, why not?
    Secretary Duncan. No, absolutely happy to continue to learn 
every single year----
    Senator Shelby. Okay.
    Secretary Duncan [continuing]. And to get that feedback. I 
thought we did a very, very good job. Did we do it perfectly? 
Of course not. And, you know, this is a work in progress, and 
I'm happy to have that conversation going forward.
    Senator Shelby. Do you disagree with some of my concerns 
here?
    Secretary Duncan. I do not know if I disagree. I welcome 
that conversation.
    Senator Shelby. Okay.
    Secretary Duncan. We want to continue in everything we do 
to emphasize STEM. We did it as a competitive priority on i3 
and Promise Neighborhoods and other things. So, STEM is a 
consistent thing there, and I think it is a fair, you know, 
question, and we will look at it very closely.
    Senator Shelby. So, you would review the scoring process.
    Secretary Duncan. Yeah, absolutely, no question, not just 
in that area, across the board. Again, we will take what worked 
and what did not, and learn from it, and try and get better.

           IMPACT OF COMPETITIVE-BASED FUNDING ON RURAL AREAS

    Senator Shelby. Mr. Secretary, formula versus competitive 
funding. The President's budget, your budget, proposal includes 
a substantial increase in the amount of discretionary funding 
that would be competitively awarded. This is a significant 
policy shift from the current formula grant structure. I am 
concerned that replacing formula-funded programs with so-called 
competitive programs will result in the redirection of critical 
Federal funds from smaller rural States or urban areas because 
they will not be able to compete for funding on a level playing 
field.

                      RACE TO THE TOP COMPETITION

    For example, Mr. Secretary, my State of Alabama, Iowa, and 
Mississippi, were all shut out from the competitive Race to the 
Top grants. These three States did not receive any funding in 
round one or in round two.
    Are you concerned at all that a shift from formula funding 
to competitive funding may not allow many high-need States and 
districts to receive Federal funding as illustrated in the Race 
to the Top?
    Secretary Duncan. Yeah. So, we have thought about that 
very, very carefully. Two answers just to think about. Again, 
to be very, very clear, the overwhelming majority of our money 
will continue to be, will always be, formula-based. So, in this 
budget, 84 percent is formula-based.
    Senator Shelby. You see my concern here?
    Secretary Duncan. Yes, I do.
    Senator Shelby. And I am sure it is a concern of the two 
colleagues of mine.
    Secretary Duncan. Yes, sir. And so, what we have tried to 
do in the Investing in Innovation fund, in the Promise 
Neighborhoods initiative, is to really make sure that rural 
States and communities could compete, and we think we did that 
better. So, we will continue to learn. And in all of these 
competitions, the goal is not a fancy PowerPoint presentation. 
We want to invest in places that have the courage and the 
capacity to do some things very, very differently.
    So, I am acutely aware of that, and we want to continue to 
strike that balance. We think in some of the other 
competitions, that went very well. And we want to continue to 
learn across the board in this area.

                  MATHEMATICS AND SCIENCE PARTNERSHIPS

    Senator Shelby. In the area of mathematics and science 
partnerships, the United States continues to fall behind, as we 
know, other developed countries in reading, math, and science 
education.
    According to the 2009 Performance Reporting Ranking, the 34 
countries of the Organization for Economic Cooperation and 
Development, the United States ranks 25th in math, 17th in 
science, and 14th in reading. It is unacceptable to all of us.
    I am concerned, and I am sure you are, that the 2012 budget 
proposal does not request funding for the mathematics and 
science partnership program. In Alabama, my State, funds from 
this formula program have helped finance the highly successful 
Alabama math, science, and technology initiative, a leading 
model for math and science education reform nationwide.
    In the place of the mathematics and science partnerships, 
the Department--your Department--proposes to create a new 
competitive grant program for science, technology, engineering, 
and math.
    How does the Department intend to ensure that all States 
will be able to compete for math and science funding when it is 
no longer distributed by a formula, as my understanding? And 
how will this program close the growing achievement gap between 
the United States and our global competition?

                         WELL-ROUNDED EDUCATION

    Secretary Duncan. We have talked about--a lot about STEM. 
Let me even broaden it a little bit further. One of my greatest 
concerns is that due to the current law and sometimes due to 
budget issues, we have seen a narrowing of the curriculum 
around the country. And that is probably the biggest complaint 
I hear as I travel, urban, rural, suburban, from students, from 
teachers, from parents across the board.
    So, we are asking for significant investment, not just in 
STEM, but in literacy, in arts, in PE, in all those things to 
give children what we call a world-class, well-rounded 
education. So, we want to invest at a different level there, 
getting behind those States and districts, again, whatever they 
look like, those that are committed to giving their children a 
well-rounded, world-class education. And this is not just at 
the high school level; this has to be for first and second and 
third and fourth graders----
    Senator Shelby. Absolutely.
    Secretary Duncan [continuing]. To give them a chance to 
build their skills. So, we are absolutely committed there, and 
want to put significant resources behind that effort.
    Senator Shelby. If we do not do this, where are the jobs 
going to come from in the future?
    Secretary Duncan. Well, the jobs will continue to migrate.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman.
    Senator Harkin. Senator Cochran. No other questions.
    There are no other questions, Mr. Secretary. Thank you very 
much. You have been very generous with your time, and we 
appreciate your appearance here.

                     ADDITIONAL COMMITTEE QUESTIONS

    And we will keep the record open for 10 days for any other 
questions that the Senators may have.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Tom Harkin
                              pell grants
    Question. Congress continues to make a significant investment in 
the Pell Grant program, in order to help make college more affordable 
for low-income students. The number of Pell Grant recipients has grown 
from 6.2 million in 2008 and is projected to reach 9.6 million in 2011. 
At the same time, 56 percent of all bachelor degree students graduated 
within 6 years and 28 percent of all associate degree students 
graduated within 3 years. For low-income students, these rates are even 
lower. Taking into account the difficult budget decisions Congress is 
facing in fiscal year 2012, what can be done to ensure that Congress' 
investment in Pell Grants is fully realized and low-income students 
complete their degrees at higher rates?
    Answer. The Department agrees that certain cost-cutting measures 
are necessary, but does not believe sacrificing the Pell Grant maximum 
award--especially considering current financial conditions--should be 
one of them. As evidenced in its fiscal year 2012 budget request, the 
Department has made maintaining the Pell Grant at its current $5,550 
maximum a priority. The Pell Grant will be an important piece of 9.6 
million students' financial aid packages in the 2012-2013 academic 
year. Ensuring these students have sufficient financial aid to remain 
in school is an important first step in helping lead them to college 
completion.
    Increasing college completion rates is another priority for the 
administration, and the fiscal year 2012 President's budget included a 
number of new programs--including College Completion Incentive Grants, 
First in the World, and College Access Challenge Grants--designed to 
help States and institutions focus on and adopt activities that are 
likely to contribute to higher completion rates. Some of the activities 
endorsed by these programs are: aligning high school graduation 
requirements with institutions' expectations for academic preparation; 
reducing a program's net price or time to degree; and providing low-
income students assistance such as financial literacy training, need-
based grant aid, or educational or career preparation.
                    workload of direct loan program
    Question. Since Congress passed the Student Aid and Fiscal 
Responsibility Act (SAFRA) of 2010, new volume in the Direct Loan 
program has increased to an estimated $124 billion in 2012, up from $29 
billion in 2009. What have been the implications of the increased 
workload on the Department's administration of the Direct Loan program 
and what has been the impact on customer service?
    Answer.
Impact of SAFRA on Direct Loans Administration
    The Department has undertaken a number of administrative 
initiatives to manage increased workload resulting from SAFRA:
  --expansion of origination and disbursement capacity,
  --expansion of servicing capacity, and
  --addition of Government personnel to manage the increased workload. 
        Each of these initiatives has driven increases in Department 
        administrative costs. However, these initiatives have enabled 
        over 2,500 domestic schools and 380 foreign institutions to 
        smoothly transition to Direct Loans for the 2010-2011 award 
        year, and millions of new Direct Loan borrowers to be 
        successfully brought on by the Department's five private-sector 
        loan servicers.
            Origination and Disbursement
    In anticipation of increased Direct Loan volume, in February 2010, 
the Department revised its Common Origination and Disbursement (COD) 
system contract to accommodate projected increases in Direct Loan 
originations. The Department further revised the COD contract in June 
2011 based on updated projections of Direct Loan volume. A Final 
Management Information Report issued on September 16, 2010, by the 
Department's Office of Inspector General, ``Federal Student Aid's 
Efforts to Ensure the Effective Processing of Student Loans Under the 
Direct Loan Program,'' notes that Federal Student Aid took all 
necessary actions to ensure processing of student loans as a result of 
SAFRA, and credits COD with successfully providing the capacity to 
transition to 100 percent Direct lending.
            Loan Servicing
    In order to accommodate expected increases in loan volume, foster 
improved performance through competition, and prepare for the eventual 
expiration of the existing loan servicing contract, the Department 
awarded four new servicing contracts in June 2009, known collectively 
as the Title IV Additional Servicers (TIVAS). The four vendors 
receiving awards were American Education Services/Pennsylvania Higher 
Education Assistance Agency (AES/PHEAA); Great Lakes Education Loan 
Services; Nelnet, Inc.; and Sallie Mae Corporation (SLM). These vendors 
began servicing FFEL loans purchased by the Department in September 
2009 and new Direct Loans starting June 2010. Together, these vendors 
provided a broad base of servicing capacity well equipped to handle the 
dramatic increase in workload post-SAFRA. As of June 2011, these four 
vendors held 50.4 percent of the total loan volume managed by the 
Department. In accordance with SAFRA, the Department is currently 
working on awarding additional performance-based Not-For-Profit loan 
servicer contracts, which will further expand loan servicing capacity.
            Government Personnel
    In order to properly manage the increased loan portfolio, the 
Department increased its FTE from fiscal year 2010 through fiscal year 
2011 after undergoing a 4 percent decrease in FTE from fiscal year 2008 
to fiscal year 2009. In response to SAFRA, over 100 new Federal staff 
have been added to handle an increased level of contract oversight, 
school reconciliation support, school training, and call center 
management. The increase represents a 9 percent rise from fiscal year 
2009 level; over the same period, the number of Direct Loan schools 
nearly doubled; the number of new Direct Loan originations grew by 158 
percent, and the Government-held servicing portfolio grew by 132 
percent.
    Additional Federal staff are needed in fiscal year 2012 to 
effectively manage up to 30 or more new Not-For-Profit contracts during 
fiscal year 2012 through fiscal year 2013.
            Budget Impact
    In order to meet the demands of the increased portfolio, the 
Student Aid Administration Account has required a budgetary increase of 
74 percent for COD and 198 percent in total servicing, including Not-
For-Profit and For-Profit servicers, from 2009 to 2012. As the number 
of borrowers serviced continues to grow, servicing costs will continue 
to rise. These costs are not only necessary to manage effectively the 
student loan portfolio and provide quality customer service; they are 
essential for achieving approximately $67 billion in savings over the 
next 10 years, according to CBO estimates, for the transition of all 
Federal student loan originations to the Direct Loan program.
Impact on Consumer Service
    There were no negative impacts to customer service during the 
transition. Schools have generally been highly satisfied with the 
Direct Loan process and the Department is aware of no students who have 
been unable to receive Federal Student Aid due to the transition. In 
fact, by uniting all Department-held loans for a single borrower with a 
single servicer, the Department has improved customer service for 1.6 
million student loan borrowers.
    In addition, increased workload stemming from SAFRA has not 
prevented the Department from continuing efforts to improve its service 
to students and borrowers who have been traditionally under-represented 
in postsecondary education. For example, the Free Application for 
Federal Student Aid (FAFSA) Completion program has allowed the 
Department to work with State and local education agencies and 
secondary schools to increase the number of completed FAFSA 
applications. Also, by reducing the number of questions an applicant 
must answer and streamlining financial information through the IRS Data 
Retrieval tool, FAFSA simplification efforts have made it much easier 
for applicants to apply successfully for Federal student aid.
  teacher incentive fund--vanderbilt and rand studies on performance-
                               based pay
    Question. Last year, the Center for Performance Incentives at 
Vanderbilt University found little evidence to support a primary goal 
of the Teacher Incentive Fund (TIF)--that rewarding teachers for 
improved student test scores would cause scores to rise. This rigorous 
evaluation funded by the Department raises serious questions about the 
idea behind this program. And, just last week a RAND evaluation of New 
York City's program came to similar conclusions about performance-based 
pay. New York permanently canceled its program after the study's 
release.
    I understand that the Vanderbilt and RAND studies didn't examine 
all of the performance-based pay systems across the country. However, 
they raise the question whether we should continue to provide $400 
million per year for TIF given the need to reduce deficits and the 
significant amount of funding for these grants already.
    Mr. Secretary, what is your view of these evaluations of 
performance-based pay programs, and how will they shape your 
Department's thinking and priorities in fiscal year 2012?
    Answer. These evaluations provide important information about some 
of the challenges schools, districts, and States face when reforming 
human capital systems to focus on improving student outcomes. But the 
Teacher Incentive Fund (TIF) differs in important ways from the 
performance-pay programs studied by Vanderbilt and RAND. In addition, 
the Department plans to significantly strengthen TIF as part of the 
2012 new grant competition.
Performance-based Compensation Systems
    While all of the 2010 TIF grant cohort projects include as one 
statutorily required element the development and implementation of 
performance-based compensation systems (PBCSs), these TIF projects 
support broader activities than just making performance-related 
payments to effective (as measured by student achievement gains and 
observations) teachers and principals. As you mentioned, the Vanderbilt 
study focused on awards to teachers based solely on increases in 
student achievement. Teachers received no additional support, such as 
mentoring or professional development, and the awards were not 
permanent or incorporated into district-wide human capital management 
systems. Finally, although about two-thirds of teachers participating 
in the study expressed support for the general notion that teachers 
should receive additional compensation if their students show 
outstanding achievement gains, a similar proportion felt that the 
program in which they participated did not do a good job of 
distinguishing effective and ineffective teachers. Likewise, large 
majorities agreed that the program ignored important aspects of 
performance not measured by test scores.
    In the 2010 TIF competition, on the other hand, in order to be 
eligible for a grant, applicants had to provide evidence that the 
proposed PBCS is aligned with a coherent and integrated strategy for 
strengthening the educator workforce, including the use of data and 
evaluations for professional development and retention and tenure 
decisions in the LEA or LEAs participating in the project during and 
after the end of the TIF project period. In addition, applicants could 
receive a competitive priority by demonstrating that their proposed 
PBCS is designed to assist high-need schools in:
  --serving high-need students,
  --retaining effective teachers in teaching positions in hard-to-staff 
        subjects and specialty areas, such as mathematics, science, 
        special education, and English language acquisition, and
  --filling vacancies with teachers of those subjects or specialty 
        areas who are effective or likely to be effective.
    Applicants also had to provide an explanation for how they would 
determine that a teacher filling a vacancy is effective or likely to be 
effective, and demonstrate the extent to which the subjects or 
specialty areas they propose to target are hard-to-staff. Lastly, 
applicants had to demonstrate that they would implement a process for 
effectively communicating to teachers which of the LEA's schools are 
high-need and which subjects and specialty areas are considered hard to 
staff.
New York City's Schoolwide Performance Bonus Program
    The RAND study similarly found that New York City's Schoolwide 
Performance Bonus Program had limited impact. The New York City 
Department of Education set annual performance targets for each 
participating school's ``Progress Reports,'' which are based in part on 
student growth. Schools meeting or exceeding those targets were 
eligible to receive a school-wide award of up to $3,000 per union-
represented staff member. A committee at each school determined how to 
distribute the funds. However, the study noted that over one-third of 
teachers did not understand basic aspects of the program, ``including 
the target their school needed to reach, the amount of money their 
school would receive if they met their target, the source of the 
funding, and how committees decide on distribution plans.'' In 
addition, teachers reported that the bonus was too small to provide any 
incentive for changing behavior. Also, most compensation committees 
chose to distribute bonuses equally across all school staff members, 
further limiting the potential for such a policy to reward and motivate 
improved performance. Research suggests that performance-based 
incentive plans work best when participating individuals have a strong 
understanding of the program, when participants expect that their own 
effort can control the outcome, and when rewards are sufficient enough 
to drive action. New York City's teacher bonus program was not strong 
in these areas. Even the RAND report's authors question whether the NYC 
system was sufficiently designed to motivate or effect change.
Teacher Incentive Fund Performance-based Compensation Systems
    In contrast, under TIF, a grantee must show that it has a plan for 
effectively communicating to teachers, administrators, other school 
personnel, and the community at-large the components of its PBCS. 
Grantees must also provide evidence of the involvement and support of 
teachers and principals and the involvement and support of unions in 
participating school districts (where they are the designated exclusive 
representatives for the purpose of collective bargaining) that is 
needed to carry out the grant. Finally, TIF emphasizes performance-
based compensation systems that include compensation that is 
differentiated and substantial. The RAND study authors noted that these 
characteristics were integral to successful implementation of 
performance-based compensation reforms.
Creating Innovative Human Capital and Evaluation Systems
    In the 2012 TIF competition, the Department will provide support 
for State and school district efforts to develop and implement 
innovative approaches to creating human capital and evaluation systems 
that improve teacher and leader effectiveness and student outcomes. 
This new competition would emphasize supporting, retaining, and 
rewarding teachers and principals who raise student achievement. The 
Department would continue to require TIF grantees to develop and 
implement these human capital and evaluation systems with meaningful 
input and support of teachers and school leaders.
                         promise neighborhoods
    Question. Promise Neighborhood grantees have been fully engaged and 
supported by State and city public officials, as well as private 
players. In fact, all 21 of the federally funded Promise Neighborhoods 
planning grantees have leveraged nearly $7 million in matching funds 
from public and private sources--including investment from foundations. 
Their planning efforts are progressing and generating a ground swell of 
local support.
    How are the current grantees planning to leverage existing 
resources to achieve the goals of their local communities?
    Answer. There are a number of examples where the 2010 Promise 
Neighborhoods grantees are leveraging existing resources to help meet 
the objectives of their planning grants. In Worcester, Massachusetts, 
the Main South Promise Neighborhood is partnering with Clark University 
in several ways. Clark is developing the longitudinal data system 
required by the program, and its students serve as formal and informal 
mentors to young residents in the neighborhood. Developed as a 
partnership between Clark and Worcester Public Schools, University Park 
School is an effective, comprehensive high school within the Main South 
neighborhood. Clark also waives tuition for any resident of Main South 
who has lived in the neighborhood for at least 5 years and who meets 
the university's entrance requirements.
    In the rural Mississippi Delta, the Indianola Promise Community is 
partnering with Mississippi State's National Strategic Planning and 
Analysis Research Center, a grantee of the Department's State 
Longitudinal Data Systems program. Mississippi is one of the few States 
with a data system that links K-12 and postsecondary data through the 
use of a unique identifier. The partnership with the Data Center, 
specifically the opportunity to leverage the Department's investment in 
the State's longitudinal data system, creates an opportunity for the 
Indianola Promise Community to manage outcomes at the student level 
from preschool through college.
               maximizing public and private partnerships
    Question. Additionally, how can we maximize this public/private 
partnership moving forward?
    Answer. Peer reviewers of Promise Neighborhoods applications 
evaluate the extent to which applicants would leverage and integrate 
high-quality programs and related public and private investments into 
their work. We can maximize these types of partnerships by placing a 
similar priority in other Department grant programs. Moreover, guidance 
on productivity \1\ released by the Department's Office of Innovation 
and Improvement early this year identified additional opportunities for 
supporting such partnerships. State and local health and human services 
agencies, departments of public safety and parks and recreation, 
community-based organizations, businesses, and other entities have a 
significant stake in the success of our children and youth. Many have 
long provided academic and enrichment opportunities in the form of 
before- and after-school programming, apprenticeships, nursing, or 
counseling support. Breaking down barriers and better aligning and 
using community resources may also help school systems identify and 
access low-cost services or facilities. Governors, working with policy-
makers and educators, can put in place State-level policies addressing 
these issues or issue guidance to districts, schools, nonprofits, and 
institutions of higher education that encourages collaboration and 
leverages public-private investments as part of school reform 
strategies.
---------------------------------------------------------------------------
    \1\ http://www.ed.gov/oii-news/increasing-educational-productivity.
---------------------------------------------------------------------------
        recovery act of 2009 and the education jobs fund of 2010
    Question. Mr. Secretary, I know that you share my concern about the 
state of the economy and the continuing challenges that many families 
are facing, especially when it comes to finding jobs. In my opinion, 
the best way to solve our debt crisis is to get more people working, 
because when people are working they pay more taxes, buy more goods, 
and keep our economy growing.
    Jobs are a particular concern in our Nation's schools, where we're 
hearing more reports every day of possible teacher layoffs. It's 
timely, therefore, to take a look back at the Recovery Act of 2009 and 
the Education Jobs Fund of 2010. Some have said that today's 
unemployment figures prove those investments were a waste of money. 
However, in my home State of Iowa, these bills have helped save or 
create almost 4,000 education-related jobs (960 Ed Jobs through March 
2011 plus almost 2,800 education-related jobs through the Recovery 
Act).
    That's the story in Iowa. What is your assessment of these bills 
from a national perspective?
    Answer. I share your concern about our economy and how it affects 
our Nation's families and children. To do our part to minimize the 
effects of these difficult times on students, we worked with you to 
provide States and school districts with unprecedented resources in the 
Recovery Act and through the Education Jobs Fund to save and create 
education jobs. Based on State-reported data, we estimate that the 
Recovery Act and the Education Jobs Fund have funded over 400,000 
educator jobs since February 2009. We know that the strain of the 
economy continues to force States and school districts to make 
difficult choices, and we know that these two efforts helped to save 
our students from an even heavier burden that would have been felt in 
our Nation's schools.
cost savings and efficiencies initiated by the department of education 
                in fiscal year 2009 and fiscal year 2010
    Question. The fiscal year 2012 budget request identifies savings in 
program administration related to decreased travel costs generated by a 
greater use of teleconferencing. In fiscal years 2009 and 2010, what 
actions did the Department take to create efficiencies in its programs, 
eliminate lower-priority spending and realize other cost savings?
    Answer. The Department took a variety of actions in 2009 and 2010 
to create efficiencies in its programs, eliminate lower-priority 
spending, and realize other cost savings. These included the following 
items:
  --In 2009, the Department closed its office at the U.S. Mission to 
        the United Nations Educational, Scientific, and Cultural 
        Organization in Paris, France and eliminated its attache 
        position.
  --In 2009, the Department closed the National Institute for Literacy, 
        which provided national leadership on issues related to 
        literacy, and coordinated literacy services and policy. Funding 
        for the Institute ended in fiscal year 2009. The Institute's 
        broad mission and lack of clear management oversight led to a 
        diffuse and incoherent system of delivery, as well as 
        duplication of efforts with other Department of Education and 
        Federal offices. The functions of the Institute are more 
        efficiently being carried out by other Department offices, 
        primarily the Office of Vocational and Adult Education.
  --The Department eliminated the Secretary's Regional and Deputy 
        Regional Representatives in the Department's 10 regional 
        offices. These positions were primarily used for communication 
        and outreach, which may be done as effectively by other 
        personnel.
  --The Department undertook two steps to reduce the cost of 
        information technology equipment it leases. The number of 
        computers used per person was reduced from 1.5 to 1.1, with a 
        total reduction of 1,600 computers. In addition, the number of 
        printers on employees' desktops was reduced from 5,700 to 
        1,400.
  --Starting in fiscal year 2010, the Department required any 
        conference or meeting occurring in Washington, DC with an 
        attendance of 250 or less to take place in either of the 
        Department's two large capacity auditorium facilities.
  --In fiscal year 2010, the Department negotiated with one of its 
        Direct Loan servicing vendors to eliminate transfer fees for 
        migrating servicing accounts between this vendor and any other 
        Direct Loan servicing vendor.
     cost savings planned for fiscal year 2011 and fiscal year 2012
    Question. What additional steps will be completed in fiscal year 
2011, and what other steps are proposed in the fiscal year 2012 budget 
request?
    Answer. The Department will complete additional cost savings 
actions in 2011 and is planning more in 2012, as follows:
  --The Department plans to save 7 percent of contract spending by the 
        end of 2011, using 2008 acquisition expenditures as a base. 
        Some actions already taken have been described in the response 
        for fiscal year 2009 and fiscal year 2010. The Department will 
        continue to achieve contract savings by ending contracts that 
        do not meet program needs or projects that are no longer 
        needed, restructuring high-risk cost reimbursement contracts as 
        fixed price contracts, improving contract terms and conditions, 
        improving the procurement process, and investing in a highly 
        skilled acquisition workforce.
  --In 2011, the Department partially implemented an initiative to use 
        double-sided printing as the default printing option. 
        Currently, 25 percent of printing is two-sided. The Department 
        is moving towards using double-sided printing 50 percent of the 
        time.
  --Due to the elimination of several programs administered by the 
        Office of Safe and Drug-Free Schools (OSDFS), and to maximize 
        limited resources, the Department is planning to move the 
        remaining programs administered by OSDFS programs into the 
        Office of Elementary and Secondary Education (OESE). This 
        change will provide new opportunities for staff from OESE and 
        OSDFS to work together to improve school environments and 
        support children's learning, health, and well-being.
  --The Grant Award Notification (GAN) process provides the 
        Department's grantees with official documentation of their 
        Federal grant award and instructions for grants management. 
        This process is currently paper-based, requiring a traditional 
        signature from the Department's representative and mailing the 
        2 copies of the signed GAN to the grantee. In fiscal year 2012, 
        the Department will provide mechanisms for:
    --Electronically signing the GAN documentation sent from the 
            Department to grantees;
    --Electronically transmitting the GAN documentation from the 
            Department to grantees; and
    --Electronically filing and retrieving the GAN documentation.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
                ethnic and immigrant student performance
    Question. In Hawaii, Filipino Americans represent the second 
largest ethnic group in the public school systems but are consistently 
ranked second to last in the Hawaii State Assessments. These tests, in 
which Filipino students in 2010 scored only 69 percent in reading and 
51 percent in math proficiencies, indicate that these students are in 
need of additional assistance throughout their primary, K-12, 
education. Furthermore, a study conducted by the John A. Burns School 
of Medicine, in Honolulu, indicated a significant connection between 
low Filipino cultural identification and low family support with 
delinquency. What new creative efforts are being considered by your 
administration to improve student performance within large ethnic and 
recently immigrated communities, such as the Filipinos, while 
maintaining the integrity of their cultural values?
    Answer. The Department is focusing much of its current efforts on 
improving student performance, as detailed below. Most of these efforts 
are not focused on particular ethnic or recently immigrated 
communities, but are designed to improve performance in a wider range 
of student populations.
    Many of the top priorities of the Department are found in A 
Blueprint for Reform, which proposes a reauthorized Elementary and 
Secondary Education Act intended to help give all children the world-
class education that they deserve and that America needs to ensure 
future economic prosperity. The Blueprint focuses on key priorities 
aimed at improving educational outcomes for all students, including:
  --recognizing and rewarding student academic growth and school 
        progress;
  --ensuring that students complete high school prepared for college 
        and a career, based on rigorous, State-developed standards;
  --putting a great teacher in every classroom and a great principal in 
        every school; and
  --focusing intensive support and interventions on our lowest-
        performing schools that serve our neediest students and 
        communities, including the ``dropout factories'' that account 
        for one-half of the estimated 1 million students who leave 
        school each year without a high school diploma.
    Together, these changes support the goal of ensuring that, by 2020, 
the United States will once again have the highest proportion of 
college graduates in the world--a key goal not only for restoring and 
increasing our economic prosperity, but also for securing the more 
equal, fair, and just society envisioned by our Nation's founders.
    More specifically, the Department is emphasizing the following 
goals:
    Sustaining Reform Momentum.--The Department will reform America's 
public schools to deliver a 21st century education that will prepare 
all children for success in the new global workplace, building on the 
achievements already gained by the Race to the Top and Investing in 
Innovation (i3) programs. Race to the Top will focus on supporting 
district-level reform plans while also emphasizing cost-effective 
strategies that improve student achievement in a time of tight budgets. 
The i3 program will prioritize science, technology, engineering, and 
mathematics (STEM) education and early learning, as well as focus 
overall on increasing productivity to achieve better student outcomes 
more cost-effectively. The Department also will place high priority on 
Promise Neighborhoods to support comprehensive, innovative and cost 
effective approaches to meeting the full range of student needs, 
drawing on the contributions of schools, community-based organizations, 
local agencies, foundations, and private businesses.
    Great Teachers and Leaders.--Nothing is more important, or more 
likely to improve student achievement and other key educational 
outcomes, than putting a great teacher in every classroom and a great 
principal in every school. To help achieve this goal, the Department 
will support ambitious reforms, including innovative teacher evaluation 
and compensation systems, to encourage effective teachers, principals, 
and school leadership teams to work in high-need schools. Emphasis will 
also be placed on expanding high-quality traditional and alternative 
pathways into teaching and preparing 10,000 new STEM teachers over the 
next 2 years, as part of the President's plan to prepare 100,000 new 
STEM teachers over the next decade.
    College Completion.--The Department is committed to ensuring that 
America will once again lead the world in college completion by 2020. 
Regardless of their intended educational path after high school, all 
Americans should be prepared to enroll in at least 1 year of higher 
education or job training to ensure we have a better prepared workforce 
for a 21st century economy.
                     access to 4-year institutions
    Question. Super rural and isolated communities, such as those 
existing on some of the neighboring islands of Hawaii, face many 
obstacles when it comes to accessing higher education. On the Hawaiian 
island of Kauai, for example, residents have access to a local 2-year 
community college but would have to relocate to another island to be 
able to attend a 4-year institution. How is the Department of Education 
improving access to 4-year higher education programs for potential 
university students residing in super rural and isolated areas, such as 
Kauai, without diverting funds from existing local community colleges?
    Answer. The Department provides aid to students based on their 
estimated family contribution, not their location. If a student chooses 
to attend a more expensive school, attend a degree or certificate 
program that would keep him in school for a longer period of time, or 
attend a school in a different location, the total Federal and State 
financial aid he would be able to receive would be influenced by these 
circumstances.
    Additionally, a student may find useful the net price calculator on 
his desired institution's website, to see the potential costs of 
attending that school. In accordance with the Higher Education 
Opportunity Act of 2008, all postsecondary institutions are required to 
have a version of this calculator on their websites by October 29, 
2011. The net price number produced from the calculator will be able to 
help the student see the full cost of attending that school, and help 
him evaluate and make a more informed decision about whether it is 
financially possible for him to attend that institution.
                       student health initiatives
    Question. Nurses in schools provide a vital service to the 
educational system. As your Department has established, proper health 
and nutrition are key to students being considered ``ready to learn'' 
and maximizing their educational opportunities. How is your Department 
supporting and funding initiatives in States, such as Hawaii, that lack 
a robust school health nursing infrastructure and what other creative 
initiatives have been put forward to provide access to school-based 
nurse managed health centers in these targeted States?
    Answer. The administration's Elementary and Secondary Education Act 
reauthorization proposal includes the Successful, Safe, and Healthy 
Students program. This new program would provide resources and 
increased flexibility for States and districts to design and implement 
strategies that best reflect the needs of their students and 
communities, which may include programs that support student physical 
health. Depending on the activity, projects that support the efforts of 
school-based nurses could be funded. Additionally, the administration 
is working to improve student health outside of the Department of 
Education. Under the Affordable Care Act, the Department of Health and 
Human Services awarded $95 million in July 2011 to school-based health 
center programs across the country. These grants will help improve the 
health and wellness of children through screenings, health promotion, 
and disease prevention activities.
                carol m. white physical educaton program
    Question. Your Department has found that students who come to 
school ready to learn perform better in their classes and on 
standardized tests. Good health is a vital component of being 
considered ``Ready to Learn.'' In light of the increasing prevalence of 
chronic conditions, how is the Department of Education supporting 
health screening, prevention and treatment of obesity, and support for 
students with diabetes, asthma, and other increasingly prevalent, 
chronic conditions so that they may be best prepared to get the most 
out of their education?
    Answer. Currently, the Department's primary contribution to the 
physical wellness of students is the Carol M. White Physical Education 
program. Through rulemaking in fiscal year 2010, the Department 
established a competitive priority for the Physical Education program 
for projects that incorporate the collection of body mass index data as 
part of a comprehensive assessment of health and fitness for the 
purposes of monitoring the weight status of their student population 
across time. In addition, the administration's ESEA proposal for the 
Successful, Safe, and Health Students program would provide funding for 
States and districts to design and implement strategies that best 
reflect the needs of their students and communities, which may include 
programs that support student physical health.
                21st century community learning centers
    Question. How would changing the 21st Century Community Learning 
Centers (CCLC) program to a competitive grant program affect Hawaii? If 
Hawaii can no longer rely on a consistent funding formula for the 21st 
CCLC program, program administration and planning for future years may 
become more difficult for the State.
    Answer. We believe that transforming the 21st CCLC program from a 
formula to a competitive grant program will improve program quality. 
States developing high-quality plans to compete for the 21st CCLC funds 
would lead to more of a focus on improved outcomes for students. If we 
encourage all States to submit high-quality applications, we believe 
that would drive more improvements in the field in general. 
Additionally, we believe that numerous States would continue to receive 
funding under a competitive 21st CCLC program.
    Question. How can States maintain consistent program administration 
without formula funds?
    Answer. Those States that would not receive funding under a 
competitive 21st CCLC program would be in the best position to 
determine whether local programs that had received 21st CCLC formula 
funds are worth investing in if 21st CCLC funds are not available. 
States could, for example, choose to invest more State funds in 
programs currently funded by the 21st CCLC program. Another option 
could be that States could encourage school districts to dedicate more 
title I funds to lengthening the school day and providing services 
outside of regular school hours.
    teach grants and proposed presidential teaching fellows program
    Question. The Education Department's fiscal year 2012 budget 
proposal would replace the TEACH Grant program for institutions of 
higher education (IHEs) with a new Presidential Teaching Fellows grant 
program for States. Under the TEACH Grant program, many eligible 
students do not receive grants either because the schools they attend 
do not participate in the program or they anticipate being unable to 
fulfill the program's employment requirements. Did these shortcomings 
prompt the administration to propose replacing the program with its new 
proposal; are there other reasons why the administration wants to 
effectively end the TEACH Grant program?
    Answer. Yes, based on preliminary data, it does not appear that the 
program is fulfilling its intended purpose of encouraging students to 
enter, and remain in, the teaching profession. As many as 75 percent of 
students receiving a TEACH Grant fail to fulfill its requirements. 
Additionally, many of the students receiving a TEACH Grant may be doing 
so in lieu of other institutional aid, which often does not need to be 
repaid.
    The Presidential Teaching Fellows program is designed specifically 
to target students who demonstrate an interest in teaching later in 
their undergraduate career, as well as those individuals in programs 
that have a proven ability to produce quality teaching candidates.
            institutional participation in the teach program
    Question. According to the Education Department, five institutions 
for higher education (IHE) in Hawaii are TEACH Grant eligible. Can you 
explain why some IHEs did not participate?
    Answer. There are many reasons why an institution may not 
participate in this program, but it would be reasonable to say their 
decision is likely based, at least in part, on the decision that 
nonparticipation is in the best interest of their students and 
institution. Many of the problems with the nature of the TEACH Grant 
program, as described earlier, may be contributing factors into an 
institutions' reasoning when choosing whether or not to participate.
                     presidential teaching fellows
    Question. How many of Hawaii's institutions will be considered 
eligible for the Presidential Teaching Fellows program?
    Answer. Any Hawaiian institution's participation would be dependent 
upon if the State chose to participate in the program. In order for the 
institutions in a State to be eligible, the State must first agree to 
embrace certain reforms, including making licensure and certification 
systems more rigorous, measuring the effectiveness of teacher 
preparation programs based on multiple outcomes, including their 
graduates' success in improving student achievement, and to be willing 
to shut down persistently low-performing programs.
                     career and technical education
    Question. The President has set a goal of having the United States 
improve college completion rates and become the Nation with the highest 
percentage of college graduates among its adults by 2020. The Carl D. 
Perkins Career and Technical Education Improvement Act of 2006 is the 
principal source of Federal funding to the States for the improvement 
of secondary and postsecondary career and technical education programs. 
The Department of Education's (ED's) fiscal year 2012 budget proposes 
reducing Federal funding to States under the act from $1.124 billion in 
fiscal year 2011 to $1 billion in fiscal year 2012, following a $140 
million reduction from fiscal year 2010 to fiscal year 2011. Hawaii's 
$6.121 million allocation in fiscal year 2010 will be reduced an 
estimated $595,000 in fiscal year 2011 and an additional $608,000 in 
fiscal year 2012. How will this proposal support the administration's 
goal and the Nation's projected employment needs?
    Answer. While career and technical education (CTE) is vitally 
important to America's future, the Perkins CTE program as it is 
currently structured is not operating in a way that produces optimal 
results for students. ED is currently engaged in developing our 
reauthorization proposal for the Carl D. Perkins Career and Technical 
Education Act. Our intent is to develop a proposal that will improve 
the statute by ensuring that all CTE programs become viable and 
rigorous pathways to postsecondary and career success, providing 
students with the career skills necessary to compete in a global 
marketplace, and collecting better program performance data.
                career and technical education in hawaii
    Question. What effect will this funding decrease have for Hawaii, 
in particular?
    Answer. While the State of Hawaii would receive a reduced grant 
award under the administration's $1 billion request for the CTE State 
Grants program, the State would still continue to benefit from the .25 
percent set aside under section 116(h) of the Perkins Act for programs 
that benefit Native Hawaiian individuals. The State could also 
supplement the funds distributed to local agencies and institutions of 
higher education by taking advantage of the authority in section 112(c) 
of the Act that allows it to reserve State funds for awards in rural 
areas or areas with high percentages or numbers of CTE students.
                     distance education regulations
    Question. Mr. Secretary, Hawaii has a large number of military 
members assigned to bases throughout our State. I am concerned that the 
new regulations on distance education may have potential negative 
impacts on the ability of our military members to access distance 
learning opportunities, particularly since they frequently change duty 
location. What effect will this regulation have on military members?
    Answer. The Department's regulations governing State authorization 
of distance education programs simply required institutions to comply 
with State laws where they exist. It imposed no additional requirements 
beyond being able to demonstrate that they complied with State law 
where those State laws exist. A Federal court recently took action to 
strike the provision of the Department's regulation, but did not 
overturn State law.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                       early childhood education
    Question. I was pleased with the investment in early childhood 
education you decided to make with the fiscal year 2011 Continuing 
Resolution Race to the Top funding. However, I think we both know there 
is much more that should be done. Early childhood education is one of 
the most important investments we can make in a child's education. Can 
you tell me your thoughts and plans for continued funding and 
investments to improve the quality of early childhood education for 
children in Washington State and across the country?
    Answer. The administration wants to ensure that there continues to 
be funding to support the important work of improving the quality of 
early learning programs and services. We are excited about the RTT-ELC 
competition, which is focused on improving the early learning and 
development of young children by supporting States' efforts to increase 
the number and percentage of low-income and disadvantaged children in 
each age group of infants, toddlers, and preschoolers enrolled in high-
quality early learning and development programs, and on States' efforts 
to design and implement an integrated system of high-quality early 
learning and development programs and services. We expect that the 
States that win these grants will serve as models for others, leading 
to improved quality of early learning and development programs across 
the Nation.
                            literacy funding
    Question. I am very troubled by the elimination of almost all 
Federal aid for literacy programs and what it could mean for the future 
of the Federal commitment to literacy. Providing high-quality literacy 
programs for children across the country has always been a priority for 
me. How does the Department plan to support further investments in 
literacy, given its importance in the educational success of students?
    Answer. The fiscal year 2011 compromise agreement included many 
painful cuts, and the reductions for literacy programs were 
particularly difficult. The administration requested increased funding 
for literacy in fiscal years 2011 and 2012, so we are very concerned 
about the cuts to literacy programs. We want to work with you to find a 
way to restore funding for literacy programs.
    The President's fiscal year 2012 budget request included funding 
for the proposed Effective Teaching and Learning: Literacy program, 
which would replace the previously fragmented literacy programs to 
support States in carrying out a comprehensive, pre-kindergarten 
through grade 12 literacy strategy. States would target funds to high-
need districts to implement high-quality evidence-based literacy 
instruction. States and districts would have the flexibility to target 
funds on the activities and grade spans where local need and the 
potential impact on student learning are greatest. In addition, the 
Department just made awards under the Striving Readers Comprehensive 
Literacy (SRCL) program using fiscal year 2010 funds. That competition 
is aligned in many ways with the proposed Effective Teaching and 
Learning: Literacy program. The President's budget request includes 
continuation funds for the SRCL grants in the request for the new 
literacy program.
                21st century community learning centers
    Question. The budget proposal you submitted proposes adding new 
purposes and programs to the existing 21st Century Community Learning 
Centers initiative, including summer school and longer school days. In 
this budget environment, I am very concerned that diverting afterschool 
funds to schools to extend the regular school day will inevitably mean 
fewer afterschool programs and fewer communities being served. How can 
you guarantee that these proposed changes will not result in fewer 
children being served by afterschool programs that keep our students 
safe and give them enriching educational activities?
    Answer. The fiscal year 2012 request for the 21st Century Community 
Learning Centers program, which is aligned with the administration's 
proposal to reauthorize the Elementary and Secondary Education Act 
(ESEA), would allow local recipients to use program funds to expand 
learning time by significantly increasing the number of hours in a 
regular school schedule and comprehensively redesigning the school 
schedule for all students in a school. The administration's ESEA 
reauthorization proposal would continue to allow funds to be used for 
before- and after-school programs, summer enrichment programs, and 
summer school programs, and, additionally, would permit States and 
eligible local entities to use funds to support expanded-learning-time 
programs and full-service community schools. This enhanced flexibility 
would allow communities to determine the best strategies for enabling 
their students and teachers to get the time and support they need.
                 extended-day and after-school programs
    Question. Many extended-day programs only keep students in school 
until 4 PM, or earlier. And, since the majority of afterschool programs 
end between 5 pm and 7 pm and sometimes later, how is extending the 
school day going to fill that gap, ensuring students are off the 
streets, until their working parents get home?
    Answer. I agree that it is critically important that children have 
a safe, enriching place to go between the time that they are dismissed 
from school and when they are supervised at home. The administration's 
reauthorization proposal assumes that local communities are best suited 
to determine how best to provide such support for children and their 
families, whether through afterschool programs, expanding the regular 
school day, week, or year, or a combination of these strategies. Under 
our reauthorization proposal, all of these options would be allowed, 
including afterschool programs.
          initiatives and investment in educational technology
    Question. As you know, the first round of Race to the Top 
Assessments are scheduled to be performed online in 2014. Many States 
and districts are unprepared technologically and in terms of training 
people to administer them and yet funding for classroom technology was 
cut from this and last year's budget proposals. Can you explain the 
Department's rationale for failing to invest in classroom technology, 
and, are there any plans to assist States and districts in ramping up 
to meet the technology challenges of implementing the Common Core 
assessments?
    Answer. The administration believes that technology is integral in 
improving educational quality for students, and that technology can be 
a valuable tool for enhancing student learning and better supporting 
teachers. For that reason, instead of continuing to fund a separate, 
narrowly defined formula program for education technology, the 
administration is proposing, through the Elementary and Secondary 
Education Act (ESEA) reauthorization and fiscal year 2012 budget 
request, new ways of investing and integrating technology across ESEA 
programs. We believe that this new approach would offer more 
flexibility and provide greater support to States, districts, and 
schools in their efforts to integrate technology into curricula and 
instruction and also would encourage the replication of effective 
technology-based practices.
Educational Technology in the Fiscal Year 2012 Budget Request
    As you are aware, the President's fiscal year 2012 budget request 
includes $835 million for the proposed Effective Teaching and Learning 
for a Complete Education initiative, which would address the need to 
strengthen instruction and increase student achievement, especially in 
high-need local educational agencies, through three programs focused on 
literacy; science, technology, engineering, and math; and ensuring a 
well-rounded education. Under this proposed initiative, the Department 
would support States and districts in developing strategies and 
practices to meet the needs of their students and teachers across 
subject areas, including through innovative uses of technology in 
classroom instruction and professional development. The initiative's 
national activities authority also would support States in 
strengthening their use of technology in the core academic subjects, 
including the development and implementation of technology-enabled 
curriculum, assessments, professional development, and tools and 
resources.
    The fiscal year 2012 budget request also includes $300 million for 
a reauthorized Investing in Innovation Fund and $90 million for the new 
Advanced Research Projects Agency--Education (ARPA-ED). The Investing 
in Innovation Fund would support the use of technology to drive 
improvements in educational quality and productivity. The ARPA-ED 
initiative would pursue breakthrough developments in educational 
technology and learning systems, support systems for educators, and 
tools that result in improvements in student outcomes. Other programs 
that would encourage the integrated use of technology in classrooms 
include Expanding Educational Options, College Pathways and Accelerated 
Learning, Effective Teachers and Leaders State Grants, Teacher and 
Leader Pathways, Assessing Achievement, and English Learner Education. 
The administration is also proposing to allow States and districts to 
set aside a sizable percentage of the $14.8 billion request for Title 
I, Part A, College- and Career-Ready Students program to support 
capacity-building activities, including for technology.
Computer-based Assessments
    In addition to these new ways of investing and emphasis on the 
integration of technology across programs, the administration is 
committed to supporting States and districts as they begin to make 
greater use of computer-based assessments. Under the Race to the Top 
Assessments competition, the Department awarded grants to consortia of 
States to develop reading-English language arts and mathematics 
assessments that are aligned with standards that are held in common by 
participating States. The administration's ESEA reauthorization 
proposal and fiscal year 2012 budget request include support for the 
Assessing Achievement program (currently titled State Assessments), 
which would allow States to use program funds to administer assessments 
that are aligned with college- and career-ready standards, as well as 
for other activities relating to implementation of such assessments and 
reporting of assessment data. The administration believes that these 
resources would increase the number of States implementing assessment 
systems that measure whether students are on track to being college- 
and career-ready by the time they graduate from high school, and they 
also would help States align their standards and high school graduation 
requirements with college and career expectations.
                     career and technical education
    Question. Across America, unemployment levels remain high, but we 
know there are jobs available for individuals who have the right skill 
sets. Career and Technical Education (CTE) programs work to ensure that 
students have the academic, technical and employability skills 
necessary for real career readiness. And at the Federal level, it is 
important that we support programs that help our workforce gain the 
skills necessary to be successful. Can you discuss how schools can 
offer CTE programs to help students attain these skills without Perkins 
funding?
    Answer. The Perkins Act funding assists States in expanding and 
implementing CTE education in high schools, technical schools, and 
community colleges. While it constitutes a small percentage of the 
total funding used by States, districts, and institutions of higher 
education for CTE programs, targeted Federal funding can continue to 
spur reform and innovation.
    The majority of the funding for CTE programs comes from State and 
local sources. Therefore, as long as students, school systems, and 
business leaders find that these programs are valuable and provide 
students with relevant and useful skills, these programs are likely to 
continue to exist.
     reauthorization of perkins act--career and technical education
    Question. The Department has mentioned that one reason for cutting 
Perkins funding is an inconsistency in the quality of programs across 
the country. However, I think that cutting funding for Perkins will 
likely exacerbate program quality inconsistencies. Furthermore, due to 
the nature of this formula grant, even high-quality programs will lose 
a significant amount of funding. Can you discuss how the Department 
expects CTE programs to succeed under this loss of funding?
    Answer. The administration's intent is to work with Congress during 
the upcoming reauthorization of the Perkins Act to improve the program 
and ensure that it provides students with the career and technical 
skills necessary to compete in a global marketplace. The current 
accountability system under the act cannot effectively differentiate 
between low- and high-quality CTE programs, nor does it provide 
incentives to distribute funds to schools and postsecondary 
institutions based on performance. We need to ensure that we invest in 
high-quality CTE programs, those that provide multiple pathways to 
success in careers and postsecondary education or training and align 
academic and technical coursework with challenging postsecondary 
expectations, industry needs, and certifications, and respond to the 
changing needs of the global economy.
                           impact aid funding
    Question. Impact Aid is an important education program for many 
schools around the country and, specifically, in my home State of 
Washington. Impact Aid remains a bipartisan priority of the United 
States Senate. Could you please explain for me your plan for continued 
investment in the Impact Aid program?
    Answer. The Department is committed to maintaining funding for the 
Impact Aid program. Since 2001, funding for the Impact Aid program has 
increased by over 28 percent. The administration's budget request would 
maintain the current level of funding and provide over $1.2 billion in 
financial assistance to school districts affected by Federal 
activities. Our request would maintain the Department's commitment to 
over 937,000 federally connected students and ensure that sufficient 
funding remains available for Basic Support Payments, Payments for 
Children with Disabilities, Facilities Maintenance, Construction, and 
Payments for Federal Property.
                       impact aid payment process
    Question. Additionally, how does the Department plan to rectify 
ongoing, consistently late Impact Aid payments to districts?
    Answer. With regard to late payments to districts, as you may know, 
the Impact Aid program is not fully funded and as a result we follow 
payment proration rules that are set by statute. In order to make final 
payments for any fiscal year, all data for all applicants must be 
complete and approved. When we begin making payments for any fiscal 
year, this is not the case. There are a number of reasons why this 
happens, such as amendments submitted by some applicants in September, 
incomplete field reviews (the monitoring process), pending property or 
Indian policy and procedure reviews, eligibility determinations that 
are not final, data questions regarding total current expenditures, 
attendance or local contribution rate figures, and submissions for 
military base housing undergoing renovation that have not been 
approved. As a result of these pending questions, we have to set the 
payment level at a lower level for the first year to avoid making 
overpayments to a large number of districts. In addition, we must set 
an initial payment rate in our system in May or June in order to be 
prepared to begin making payments on October 1, when funds become 
available for the new fiscal year. As this is well before an 
appropriation is enacted, we must consider the possibility that the 
program will not receive an increase or even be level funded for the 
next fiscal year. When we operate under a continuing resolution for 
part of the fiscal year, as we have for many recent years, we have 
limited funds to distribute and try to provide funding to as many 
applicants as possible, which is another reason for setting the initial 
payments at a lower rate. Once we have an appropriation for the full 
fiscal year, we raise that rate and issue another set of payments.
    Under the Impact Aid statute, we actually have 6 years to complete 
payments, the year of the appropriation and 5 more. However, our goal 
is to get this down to only 2 years so that we can get our funds out to 
the LEAs as soon as possible. What generally happens during a fiscal 
year is that we make initial and interim payments for the current year 
and the prior year, and final payments for the second prior year. 
Together these payments are usually equal to approximately the full 
amount of the payments for the current year. The LEAs with the highest 
percentages of federally connected students in their enrollments have 
received the highest proportions of their final payments in the first 
year, which we feel is an appropriate outcome. We continually strive to 
improve and expedite our payment processing while ensuring that our 
payments to all applicants are accurate.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                           teach for america
    Question. Because of the zeroing out of several critical education 
programs, worthwhile organizations like Teach For America have been 
struggling to find alternative sources of Federal funding. To support 
this effort, this subcommittee recently approved a competitive funding 
stream to be set aside for national programs that recruit, train, and 
professionally develop teachers at an amount of 1 percent of title IIa 
funds. Meanwhile, the programs eligible to compete for these funds were 
awarded over $100 million last year, and they will be left to vie for a 
slice of merely $25 million if this set aside is left at 1 percent. 
Nearly 90 Members of Congress--from both parties and chambers--have 
written in support of increasing this competitive funding pot to 5 
percent of title IIa.
    Mr. Secretary, do you support this increase; if so, why, and if 
not, why not?
    Answer. Under the President's fiscal year 2012 budget request, 
Teach For America, along with other nonprofit organizations, States, 
local educational organizations, and institutions of higher education, 
would be eligible to apply for $250 million in competitive grant awards 
under the Teacher and Leader Pathways program, for which the creation 
or expansion of high-quality alternative pathways into the teaching 
profession would be an authorized activity. In addition, Teach For 
America would also be eligible to compete for funding under the 
Investing in Innovation program, through which Teach For America 
received $50 million in 2010 and for which $300 million was requested 
for 2012. Finally, Teach For America could partner with States and 
districts to use funds awarded under the Effective Teachers and Leaders 
State grants program to support Teach For America projects. The 
Department believes that the funds requested for these programs would 
significantly expand the resources available for Teach For America and 
other States, local educational agencies, nonprofit organizations, and 
institutions of higher education to compete for funding to support 
their efforts to recruit, prepare, and develop, and retain effective 
and highly effective teachers.
                  race to the top funding competition
    Question. Every State (except Georgia) that won Race to the Top in 
the first two rounds has now amended its State reform plan in some 
way--usually to push back a timeline or scale back an initiative. 
According to the list of approved amendments listed on the U.S. 
Department of Education's Web site, 12 winners have changed their plans 
25 times, overall.
    Delaware, the District of Columbia, Florida, Georgia, Hawaii, 
Maryland, Massachusetts, New York, North Carolina, Ohio, Rhode Island, 
and Tennessee won Race to the Top funding based on their ambitious 
plans for reform. Now, nearly all of these States and the District of 
Columbia are making changes to their plans.
    The administration has requested an additional $900 million for 
Race to the Top. Before appropriating additional funding to this 
competition, it's worth asking if the Department of Education is 
learning any lessons from the first two rounds.
    Could you address any improvements the Department of Education 
intends to make to Race to the Top to ensure that only the States truly 
committed to their bold reform plans win the funds?
    Answer. We are working closely with States to ensure that the only 
changes they make to the plans in their winning applications are those 
that preserve the ambitious work they set out to do. We are open to 
revisions so long as they preserve the long-term trajectory of the work 
while addressing short-term implementation challenges. If a State fails 
to follow through on the commitment in their application, we will 
freeze or take back its grant award.
    Question. Additionally, can you please discuss the specifics of the 
administration's proposal to expand the Race to the Top competition to 
regions and cities, not just States?
    Answer. We still have details to work out, but it is our intention 
that districts in States that received Race to the Top grants, as well 
as those in all the other States, would be eligible to compete in the 
district competition. In States that won Race to the Top grants last 
year, we do not want to get in the way of the great work these States 
are already doing. District plans should be aligned with the State's 
plans, and we would seek input from the field on how best to ensure 
that alignment. We also recognize the concern that districts in Race to 
the Top States may be further ahead in developing comprehensive reform 
plans. We would explore the best way to ensure a level playing field 
for all districts, whether they are in Race to the Top States or not.
                        race to the top phase 3
    Question. Finally, could you also provide a status update on the 
$200 million fiscal year 2011 Race to the Top competition for the nine 
high-scoring finalists that did not receive funds in the first two 
rounds of the competition?
    Answer. The Department will dedicate (for what we are calling 
``Race to the Top Phase 3'') approximately $200 million for the nine 
highest-ranked but unfunded finalist States from the 2010 Race to the 
Top Phase 2 competition. The grant application for Race to the Top 
Phase 3 will be available in early fall for the nine eligible States: 
Arizona, California, Colorado, Illinois, Kentucky, Louisiana, 
Pennsylvania, New Jersey, and South Carolina. We are working on the 
final details of the grant opportunity, but the focus will be on 
supporting the States' 2010 Race to the Top applications in order to 
drive continued education reform in those States. The Department plans 
to make awards in December 2011.
                   emergency preparedness in schools
    Question. According to the National Commission on Children and 
Disasters, in its October 2010 Report to the President and Congress, a 
major concern is the lack of comprehensive disaster planning and 
preparedness for schools across the country. The Commission echoes a 
2007 GAO Report that identified many gaps in aligning school emergency 
plans with federally-recommended practices.
    The U.S. Department of Education manages the Readiness and 
Emergency Management for Schools (REMS) grant competition to improve 
emergency preparedness in schools. It is the only Federal grant program 
solely dedicated for this purpose. In fiscal year 2010, the Department 
received $30 million and awarded grants to about 120 school districts 
(local educational agencies). The fiscal year 2011 budget request was 
again $30 million.
    The Commission noted that $30 million is insufficient to improve 
emergency preparedness for over 130,000 public and private schools in 
our country. For fiscal year 2011, the Department intends to spend just 
$4 million and provides only $6 million in its fiscal year 2012 budget 
request.
    Given the concerns of the Commission and GAO, why isn't improving 
emergency preparedness for schools a higher priority to the Department, 
and worthy of greater investment?
    Answer. The Department remains committed to emergency preparedness 
planning, and believes that a more cost-effective and efficient 
strategy is to build State-level capacity for emergency preparedness 
planning. Instead of funding grants for Readiness and Emergency 
Management for Schools (REMS) to school districts, the Department plans 
to award grants in 2012 to States to provide support to districts and 
schools, including those that face unique challenges in implementing 
emergency management activities, that will help them prepare to address 
a variety of potential hazards and crises.
    REMS currently does not enable the Department to achieve meaningful 
progress towards sustainable, continuous improvement in K-12 emergency 
management. The REMS grants program has served a small fraction of all 
school districts and is too small to have a significant impact on 
emergency preparedness nationally. Since 2003, the Department has 
distributed 823 grants to districts, a small proportion of the 14,200 
public school districts nationwide.
State Grants for Emergency Management
    Supporting statewide efforts will ultimately allow the Department 
to reach more districts. Also, moving to this new approach will allow 
the Department to support State efforts to develop best practices and 
innovative models that can be shared with and adapted or adopted by 
other States.
    Further, the National Commission on Children and Disasters 2010 
Report to the President and Congress recommended the approach we have 
proposed, stating, ``the Commission recommends that competitive 
disaster preparedness grants be awarded to States through the REMS 
program as an initial step toward developing innovative models designed 
to ensure a higher level of school preparedness statewide.'' This 
approach also would align our emergency preparedness efforts with the 
Department's overall priority to build the capacity of State 
educational agencies across the country.
    We had hoped to initiate the State Grants for School Emergency 
Management in 2011 but, due to the $98 million cut in funding for Safe 
and Drug-Free Schools and Communities (SDFSC) National Activities under 
the fiscal year 2011 full-year continuing resolution, the Department 
did not have enough 2011 funds to make any new SDFSC grant awards.
    Also, in 2012 under SDFSC National Activities the Department plans 
to award additional Safe and Supportive Schools grants to States to 
support statewide measurement of, and targeted programmatic 
interventions to improve, conditions for learning in order to help 
schools improve safety and reduce substance use. Promoting readiness 
and emergency management for schools would be among the programmatic 
interventions supported with those grants.
                         federal trio programs
    Question. Over the last 5 years, Federal TRIO programs have lost 
37,000 participants as a result of stagnant funding. The $26.6 million 
cut in fiscal year 2011 may result in as many as 107,000 fewer 
participants. The administration has requested $920 million for TRIO in 
fiscal year 2012. This funding is critical to growing the capacity of 
TRIO and thereby increasing the rate of college completion for students 
from lower socioeconomic backgrounds. Could you discuss how the 
administration will support and defend its recommended funding level 
for TRIO in fiscal year 2012?
    Answer. The administration believes that the Federal TRIO programs 
play an important role in assisting low-income students and students 
whose parents never completed college with support and preparation to 
enter and complete postsecondary education programs. In designing the 
TRIO competitions for 2012, particularly Upward Bound, the Department 
is focused on ensuring that grantees pursue strategies and activities 
that will maximize the number of students to which they can provide 
high-quality services. The Department also believes that the TRIO 
programs can play an important role in ensuring that our investment in 
Pell Grants results in more students persisting and completing because 
they enroll in postsecondary education better prepared to succeed.
    The administration remains committed to increasing college 
enrollment and completion rates among traditionally underrepresented 
populations. In demonstration of this commitment, we have prioritized 
protecting the $5,550 maximum Pell Grant award in fiscal year 2012 and 
beyond, with the goal of ensuring that more than 9 million low-income 
students can continue to rely on Pell Grants to enter into, and 
complete, a postsecondary education. However, low-income students need 
more than just financial support to enter and complete college; they 
also need supportive services like those provided by our Federal TRIO 
programs.
                 educational stability for foster youth
    Question. Children in the foster care system face unique challenges 
on their path to high school graduation and college success. On 
average, foster children move one to two times per year, and often 
change schools when they move. When students change schools, they lose 
4 to 6 months of educational progress. Only about half of foster 
children graduate from high school, and a mere 3 percent earn 
bachelor's degrees. As the Co-Chair of the Senate Caucus on Foster 
Youth and an advocate for foster youth, I am concerned that children in 
the foster care system do not have the educational stability they need 
to graduate from high school--on time and with the strong educational 
foundation they need to access and complete college.
    Mr. Secretary, do you believe the U.S. Department of Education 
should invest in promoting educational stability for the nearly 450,000 
children in foster care, and, if so, what would that investment look 
like? Might this investment include school vouchers for youth in care 
over 18 months; stronger collaboration between State Educational 
Agencies and State child welfare agencies; Federal funding for the 
transportation needed to keep foster youth in their school of choice; 
or other solutions?
    Answer. All students, especially those in foster care, need 
educational stability in order to succeed in school. We certainly need 
to do more for youth in foster care, who are more likely to repeat a 
grade, and score lower on standardized tests, than youth who are not in 
foster care. Between one-quarter and almost one-half of all children in 
foster care are also in special education, well above the average for 
the general population.
    Collaboration among State educational agencies (SEAs), State child 
welfare agencies, local educational agencies (LEAs) and schools is key 
to tackling these challenges. In letters to Chief State School Officers 
and State Child Welfare Directors, we are planning to encourage States 
and LEAs to develop or review and, if appropriate, revise their 
policies and guidelines for serving children in foster care, in order 
to minimize the disruptions to education that can come from being 
placed in foster care. We have encouraged SEAs, LEAs, and child welfare 
agencies to collaborate during this process and to publicize these 
policies and guidelines so that school administrators, teachers, social 
workers, and parents understand and can replicate and reinforce their 
efforts to increase the educational success of foster children. ED has 
also urged child welfare agencies to collaborate with LEAs on policies 
and procedures to ensure that foster children remain in and receive 
transportation to their school of origin in cases where this is in the 
best interest of the foster child, using funding under title IV, part E 
of the Social Security Act and other available resources for such 
purposes. We have pushed for all States and LEAs to have any revised 
policies and guidelines in place prior to the start of the 2011-2012 
school year.
    ED is also collaborating with the Department of Health and Human 
Services (HHS) on this issue, by providing HHS with the information and 
technical assistance needed to successfully carry out that agency's 
work under the Fostering Connections to Success and Increasing 
Adoptions Act of 2008 (FCA). For example, we have worked closely with 
HHS in providing input and assistance as it develops guidance and other 
material on the FCA. ED has also shared with HHS resources developed by 
the National Center for Homeless Education (NCHE), our technical 
assistance contractor for the McKinney-Vento Education for Homeless 
Children and Youth program. NCHE provides technical assistance to ED on 
issues related to homeless students, but it has also put together 
information and recommendations on the education of students who are 
eligible for homeless services while they are awaiting foster care 
placement.
Foster Care and Education National Meeting in 2011
    Finally, ED and HHS will co-host a Foster Care and Education 
National Meeting on November 3 and 4 of 2011 to bring together State 
teams, representing each State's educational, child welfare, and court 
systems, to discuss how to promote educational stability and improve 
educational outcomes for children in foster care. Our goals for this 
meeting are to expand participants' understanding of each system and of 
the individual and collective opportunities that can contribute to 
improving educational outcomes for children in foster care; gain 
insight into foster youths' perspectives on what supports have aided in 
their educational success; familiarize participants with the 
educational provisions of the FCA; and showcase meaningful 
collaborative initiatives that have demonstrated positive educational 
outcomes. During the meeting, each State team will also create an 
action plan for cross-system collaboration to be implemented following 
the conference. All conference attendees will have access to additional 
technical assistance, such as webinars, on topics related to the FCA 
leading up to this national meeting.
            high school dropout recovery/prevention programs
    Question. A June 2011 MDRC report, ``Staying on Course: Three-Year 
Results of the National Guard Youth ChalleNGe Evaluation,'' shows that 
the National Guard Youth ChalleNGe program is effectively reducing our 
Nation's high school dropout rate. According to the report, 3 years 
after entering the program, Youth ChalleNGe graduates were more likely 
to earn their high school diploma or GED, obtain college credits, be 
employed, and have substantially higher earnings than high school 
dropouts who were eligible, but did not participate in the ChalleNGe 
Program.
    Are you aware of any comparable high school dropout recovery/
prevention programs, and if so, how is the U.S. Department of Education 
investing in these programs?
    Answer.
Dropout Prevention Guidance
    Reducing our Nation's high school dropout rates is a key Department 
goal, and we have been actively engaged in identifying and 
disseminating information on effective dropout prevention and recovery 
practices. In fall 2008, the Institute of Education Sciences (IES) 
released Dropout Prevention: A Practice Guide, which provides 
recommendations for dropout interventions using evidence from 
previously implemented programs that positively affected students' 
progress and persistence in school. Using material from this guide, the 
Department developed a Dropout Prevention section for the Doing What 
Works Web site, which provides practitioners with research-based 
information and tools for improving outcomes. The Office of Elementary 
and Secondary Education has also recently initiated an effort to 
identify a set of promising dropout prevention and recovery models. In 
addition, IES continues to fund research on dropout prevention 
programs, currently including a study of the Check & Connect dropout 
prevention model.
Departmental Dropout Prevention and Reentry Programs
    The Department has invested in dropout prevention and reentry 
efforts through the High School Graduation Initiative (HSGI, formerly 
School Dropout Prevention) program, which received $48.9 million in 
fiscal year 2011 and provides competitive grants to States and local 
school districts to implement, at schools with below-average graduation 
rates, effective, sustainable dropout prevention and reentry 
activities, including activities similar to those of the National Guard 
Youth ChalleNGe program. In our proposal to reauthorize the Elementary 
and Secondary Education Act, we propose to consolidate this and two 
other programs that seek to improve outcomes for high school students 
or offer accelerated learning opportunities into a single authority, 
the College Pathways and Accelerated Learning program. This program 
would support comprehensive efforts to increase high school graduation 
rates and preparation for college matriculation and success by 
providing college-level and other accelerated courses and instruction 
in middle and high schools with concentrations of students from low-
income families and in high schools with low graduation rates. It would 
also allow considerable local flexibility for activities including 
efforts to prevent students from dropping out and to reengage out-of-
school youth, including early warning systems and comprehensive 
prevention and reentry plans. The President's fiscal year 2012 request 
includes $86 million for this program.
    In addition, high schools with high dropout rates receive 
significant assistance through the Title I School Turnaround Grants 
(formerly School Improvement Grants) program. Under the 
administration's recent program regulations and ESEA reauthorization 
proposal, Title I secondary schools with a graduation rate below 60 
percent may receive priority for School Turnaround funds. These school 
turnaround grants will provide hundreds of millions of dollars to help 
restructure significant numbers of the Nation's ``dropout factories.''
    Also, the Department will continue to invest in efforts to keep 
students in school and on the path to college through programs 
authorized under the Higher Education Act, including the TRIO-Talent 
Search and GEAR UP programs.
                                 ______
                                 
            Question Submitted by Senator Richard J. Durbin
             study abroad and foreign language instruction
    Question. Currently, only about 1 percent of college students study 
abroad each year, few of whom are minority students, community college 
students, or students studying in the STEM fields or to be teachers. 
Less than 10 percent of students enrolled in higher education 
institutions in the U.S. are taking foreign languages. Given the 
increasingly global nature of our economy, what plans does the 
Department have to help more students graduate college with the global 
mindset and foreign language skills necessary to be successful in 
today's global economy?
    Answer. The Department agrees that a world-class education must 
integrate global competencies and is committed to increasing the global 
competency of all U.S. students, including those from traditionally 
disadvantaged groups. The Department expects these objectives to be 
reflected in a strategy it is currently developing that would govern 
all its international activities. The Department currently administers 
18 discretionary grant programs authorized under the Higher Education 
Act and the Mutual Educational and Cultural Exchange Act of 1961 that 
are designed to strengthen the capability and performance of American 
education in foreign languages and in area and international studies, 
and to improve secondary and postsecondary teaching and research 
concerning other cultures and languages, as well as the training of 
specialists, and the American public's general understanding of the 
peoples of other countries. The Department intends to further align 
activities to be supported in fiscal year 2012 under these programs 
with the Department's goals to advance global educational competency 
for American citizens and to increase access and quality in 
postsecondary education.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                            school libraries
    Question. Given that more than 60 education and library studies 
have shown evidence that effective school libraries are linked to 
increased student achievement and knowing that digital literacy skills 
are essential to being college and career ready, what is the 
administration's plan to ensure that students in title I schools have 
access to effective school library programs?
    Answer. The administration's proposed Effective Teaching and 
Learning: Literacy program would address the need to comprehensively 
strengthen instruction and increase student achievement in literacy in 
high-need districts and schools. The administration believes that this 
new program would help ensure that States and high-need districts have 
in place a solid infrastructure across the grade levels to support 
high-need schools in implementing high-quality, developmentally 
appropriate, and systematic literacy instruction (which may include 
programs that support school libraries).
    Question. What changes does the administration plan to make to 
competitions such as Race to the Top to encourage States and school 
districts to provide effective school library programs?
    Answer. Race to the Top provides significant flexibility to States 
and encourages them to pursue approaches that improve student outcomes 
and best meet State and local needs. Depending on the strategies 
adopted by individual States (and by local educational agencies, if we 
are able to hold a district-level RTT competition), the approaches may 
include activities to strengthen school libraries. In addition, the 
proposed Effective Teaching and Learning: Literacy program would 
encourage States and LEAs to implement high-quality literacy 
instruction, which could include support for school libraries.
                   teacher quality partnership grants
    Question. The President's fiscal year 2012 budget calls for the 
Teacher Quality Partnership program to be consolidated, along with four 
others, into a new authority called Teacher and Leader Pathways. 
Teacher Quality Partnership Grants are currently the Federal 
Government's only investment in reforming teacher preparation at 
institutions of higher education, which prepare nearly 90 percent of 
all teachers. Why is the administration planning to switch course 
before full implementation of the Teacher Quality Partnership Grants?
    Answer. In its March 2011 report entitled ``Opportunities to Reduce 
Potential Duplication in Government Programs, Save Tax Dollars, and 
Enhance Revenue,'' the Government Accountability Office (GAO) 
specifically identified the Teacher Quality Partnerships Grants program 
as a current teacher quality program that overlaps with another program 
in the Department based on its allowable activities or shared 
objectives and target groups. The GAO report noted that the 
administration had already proposed to reform the current fragmented 
approach to improving teacher quality through its Blueprint for the 
reauthorization of the Elementary and Secondary Education Act.
    By consolidating several overlapping and sometimes narrowly 
targeted programs, the administration has proposed an integrated 
approach to recruiting, preparing, developing, rewarding, and retaining 
effective teachers and school leaders that builds on the best elements 
of existing programs and approaches at the Federal, State, and local 
level. The President's fiscal year 2012 budget requests $250 million 
for the Teacher and Leader Pathways program to support the preparation 
of new teachers, with particular emphasis on the preparation of 
science, technology, engineering, and mathematics, or STEM, teachers. 
Institutions of higher education, along with States, local educational 
agencies, and nonprofit organizations, would be eligible for 
competitive grants to support the creation or expansion of high-quality 
traditional and alternative pathways into the teaching profession.
        projects funded under teacher quality partnership grants
    Question. What are the preliminary results from the current Teacher 
Quality Partnership Grants?
    Answer. The Department is currently administering 40 grants under 
the Teacher Quality Partnership Grants program, including 19 teacher 
residency projects, 12 pre-baccalaureate teacher preparation projects, 
and 9 projects that support both a teacher residency project and pre-
baccalaureate teacher preparation. Although it is too early to know if 
these teacher preparation programs are producing more effective 
teachers as a result of the reforms they are implementing through these 
grants, the annual performance reports for the second year of these 
grants indicate that most projects are implementing their projects as 
planned.
    The grants supporting teacher residency projects prepared 620 
teacher candidates last year. These projects focused on preparing 
candidates who will be certified to teach elementary education, 
mathematics, science, or special education. The graduates of these 
residency projects will be teaching in high-need schools in high-need 
districts in the 2011-2012 school year. Due to reductions in State and 
local funding, some of the partnering high-need districts for the 
residency projects have been unable to meet their original commitments 
to hire as many residents to teach in high-need schools. Since grantees 
are required to place successful graduates of residency projects in 
teaching positions in high-need schools, these grantees have had to 
reduce the number of candidates they admitted. The Department is 
hopeful that the partnering districts will be able to commit to hiring 
more teacher residents in the remaining years of these grants and will 
continue to work with grantees to ensure that these projects are as 
successful as possible despite the challenging economic conditions.
    For the pre-baccalaureate teacher preparation grants, six 
institutions of higher education have incorporated information into 
their traditional course offerings to ensure that their teacher 
preparation candidates are prepared to teach students in urban, high-
need schools more effectively. Four pre-baccalaureate projects are 
focused on preparing candidates to teach students in high-need rural 
schools and rural education is an area of emphasis for several other 
projects. Both pre-baccalaureate and residency projects reported that 
they are establishing or expanding clinical experience requirements for 
teacher candidates. In addition to preparing teachers to enter the 
classroom, six projects also have reported that they are offering 
professional development for teachers in partnering schools.
         federal partnerships and need-based student grant aid
    Question. Does the administration see a need for a Federal-State 
partnership to support need-based grant aid for students? What are the 
administration's plans to rebuild such a partnership now that the 
Leveraging Educational Assistance Partnerships, or LEAP, program has 
been defunded?
    Answer. Cooperation between the Department and States is vital to 
achieve good educational outcomes. This is why the 2012 President's 
budget included proposals for new Federal-State partnerships in the 
form of the College Completion Incentive Grant (CCIG) program, and the 
College Access Challenge Grant program. CCIG is designed for twofold 
activity: to encourage States to engage in reforms to increase college 
completion rates (and ensure these students are well-prepared), and to 
reward institutions that are successful at achieving these goals. 
States must apply to receive funding, and include with their 
application a plan of how they will make certain reforms.
    The College Access Challenge Grant Program, as proposed, would 
provide formula aid to States to bolster access, persistence, and 
completion activities, specifically targeted toward low-income 
students. This program would fund activities to ensure low-income 
students are prepared to enter and succeed in postsecondary education, 
such as providing them need-based grant aid, promoting financial 
literacy and debt management, and providing postsecondary education and 
career preparation for students and their families.
    Question. Does the administration see a need for a Federal-
institutional partnership to provide need-based grant aid for students? 
How can we strengthen the current aid programs to improve these 
partnerships?
    Answer. Besides the funding that is able to be granted to 
institutions from States via the College Completion Incentive Grants 
and College Access Challenge Grant programs, the First in the World 
program, included in the 2012 President's budget request, would go 
directly to programs that are evidence-based and willing to undergo 
rigorous evaluation. This would be a competitive grant program, and 
would place priority in the first year on projects that could reduce 
net price, improve outcomes, reduce time to degree or instructional 
costs; and/or improve access and completion rates.
                  race to the top funding and vendors
    Question. With billions of dollars awarded, Race to the Top is the 
largest competitive grant program at the Department of Education. It is 
essential that the use of these funds is fully transparent. Please 
provide information on which vendors States are using to implement 
their grants and the amount of Race to the Top dollars that are being 
awarded to the top vendors across the States.
    Answer. We have not aggregated the information about the vendors 
with whom the Race to the Top States are working to implement their 
plans. All of the States and school districts that received Race to the 
Top funds must meet the reporting requirements set forth in section 
1512 of the Recovery Act. Those requirements include identifying any 
vendors that receive payment of $25,000 or more in a given quarter, and 
that information is publicly available on Recovery.gov. In addition, 
States must follow State procurement laws, which may require the public 
release of the names of entities that are awarded contracts and other 
awards under the program.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
       level playing field for rural areas in grant competitions
    Question. You testified that over 80 percent of the Department of 
Education's funding allocations remain formula based. However, I have 
heard from many of my constituents that are concerned that they do not 
have the ability or the resources necessary to effectively compete for 
the remaining 20 percent of funding in competitive grants. What steps 
is the Department of Education taking to ensure that poor and rural 
school districts are able to apply for competitive grants and compete 
on a level playing field?
    Answer. The Department recognizes that capacity constraints in 
remote and rural areas can make applying for competitive grants 
difficult. To help level the playing field for rural districts, the 
Department is using absolute and competitive priorities to award 
additional points to applications from these districts or other 
applicants serving rural areas. For example, the Department included a 
rural priority and a tribal priority in the Promise Neighborhoods grant 
competition. The Department also has proposed structuring new 
competitions for the Race to the Top and i3 programs to reflect the 
needs of rural districts. Our goal would be to ensure that rural 
districts are able to compete for Race to the Top funds in our proposed 
district-level competition, and that i3 recipients serve geographically 
diverse communities. Under i3, for example, we hope to fund providers 
proposing evidence-based approaches to addressing the unique needs of 
rural districts and schools. Also under i3, we plan to recruit peer 
reviewers experienced in working with rural students and schools, and 
to improve our training methods so that all peer reviewers are aware of 
the unique needs of students and schools in rural communities and our 
expectations for applications that respond effectively to the rural 
priority.
    The Department also is using its Comprehensive Centers to provide 
technical assistance designed to increase the capacity of rural 
districts, working with Rural Education Achievement Program (REAP) 
State coordinators to increase awareness of competitive grant 
opportunities for rural areas, and encouraging the development and 
expansion of consortia and partnerships to help make rural districts 
more competitive. Finally, the Department's recent experience with the 
School Improvement Grants (SIG) program suggests that rural districts 
can hold their own in properly structured competitive grant 
competitions. Rural schools made up just under 20 percent of all 
schools eligible for SIG funds in the fiscal year 2009 State SIG 
competitions, but totaled 23 percent of grant recipients in that year.
   race to the top application process and rural district applicants
    Question. The President has requested $900 million for fiscal year 
2012 for Race to the Top. Can you take me through the process of 
selecting applications for award?
    Answer. We have not yet developed the specific process for the 
district-level competition, but would do so with input from 
stakeholders in a diverse array of districts.
    Question. Additionally, what metrics or criteria do you have in 
place to ensure that rural and underserved States and school districts 
will be evaluated on a level playing field with States and school 
districts that may have more resources?
    Answer. While we do not have specific metrics or criteria in place, 
we would develop the competition with rural districts in mind. If a 
single set of criteria are not appropriate for both rural and non-rural 
districts, we may develop different criteria. We have not yet decided 
what approach we would use.
                        education and employment
    Question. I am increasingly concerned about the ability of students 
with a degree or certification from a high school, technical or 
vocational school, or community college to find gainful employment. How 
can we make sure these students graduate with the knowledge and skills 
that employers are looking for?
    Answer.
Ensuring All Students Graduate College- and Career-Ready
    President Obama and I share your commitment to ensuring that all 
students graduate college- and career-ready, both to expand individual 
opportunity for further education and success in the job market and to 
ensure our Nation's continued competitiveness in the global economy. We 
recognized early on that one of the unintended consequences of No Child 
Left Behind was that it encouraged States to lower the quality of their 
K-12 academic standards, primarily to avoid the law's overly 
prescriptive school improvement requirements. This is why all of our 
key initiatives in elementary and secondary education have emphasized 
the development and adoption of more rigorous college- and career-ready 
academic standards and aligned assessments. In particular, the Race to 
the Top program has had a tremendous impact in this area, encouraging 
the vast majority of States to adopt a common set of State-developed 
college- and career-ready standards and supporting State consortia as 
they develop the next generation of high-quality assessments aligned 
with these standards.
    The development and implementation of college- and career-ready 
standards is also at the core of our proposal to reauthorize title I of 
the Elementary and Secondary Education Act (ESEA), which would provide 
resources to States and school districts for this purpose. It is 
important to recognize, however, that the Department cannot prescribe 
or impose particular standards or curricula on America's schools, and 
that the States bear the primary responsibility for developing, 
adopting, and successfully implementing high-quality academic standards 
linked to success in college and careers. Our role is to highlight the 
need for such standards and, wherever possible, create the incentives 
for States to do the right thing for their students and for our Nation.
College Pathways and Accelerated Learning Program
    Our ESEA reauthorization proposal would create other new programs 
that aim to improve student college and career readiness including the 
College Pathways and Accelerated Learning program, which would 
consolidate several current ESEA programs into a single, more 
comprehensive and flexible authority that supports State and local 
efforts to better prepare students for college and the workforce by 
providing college-level and other accelerated courses and instruction, 
including dual enrollment and early college high school programs, in 
secondary schools with concentrations of students from low-income 
families and with low graduation rates. The President's fiscal year 
2012 request includes $86 million for this program.
Carl D. Perkins Career and Technical Education Act
    The Department is also in the process of developing a 
reauthorization proposal for programs under the under the Carl D. 
Perkins Career and Technical Education Act (Perkins Act). We are 
looking at options for making the Perkins Act a better vehicle for 
ensuring that all career and technical education programs are viable 
and rigorous pathways to postsecondary and career success. College and 
career pathways provide multiple pathways to the same destination: 
achievement of both success in college and an upwardly mobile career. 
These pathways must align academic and technical coursework with 
challenging postsecondary expectations, as well as industry needs and 
certifications, and be designed and implemented in close collaboration 
with employers in order to respond to the changing needs of the global 
economy. The President's fiscal year 2012 request includes $1 billion 
for this program.
      public-private partnerships as tool in ensuring college- and
                            career-readiness
    Question. In your opinion, would public-private partnerships be an 
effective tool? If so, how can we incentivize educational institutions 
to create partnerships with businesses to develop effective programs?
    Answer. Public-private partnerships can definitely be a valuable 
tool for helping young people acquire the knowledge and skills that 
employers are looking for. Surveys of business leaders show that, 
despite the high unemployment rate, they are having difficulty finding 
sufficiently skilled workers to fill many job openings. However, few 
business leaders report that they are working with postsecondary 
institutions to help them improve programs that prepare individuals for 
careers.
    The Department is currently developing its reauthorization proposal 
for the Carl D. Perkins Career and Technical Education Act. One of the 
issues we are considering is how to create incentives for educational 
institutions and businesses to work together to ensure that students 
acquire the knowledge and skills they need to get good jobs and succeed 
in high-wage, high-skill careers.
              supplemental educational services oversight
    Question. Many educators in my State have voiced concern about the 
lack of proper oversight of title I funds for supplemental educational 
services (SES). How can we ensure that these valuable funds are being 
used effectively and in the best interest of students?
    Answer. Under the ESEA, States are responsible for approving SES 
providers and monitoring provider performance in providing tutoring and 
other academic enrichment services to eligible students. To help States 
carry out these responsibilities, the Department in recent years has 
provided extensive technical assistance to States on questions and 
issues related to the provision of SES, including questions regarding 
the allowable use of title I funds by providers for specific activities 
and incentives. The Department also monitors the implementation of SES, 
sometimes including the delivery of services by particular providers, 
as part of the title I monitoring process.
              supplemental educational services evaluation
    Question. What level of evaluation of the impact of SES on student 
achievement is currently underway?
    Answer. The Department is currently completing a rigorous 
evaluation of the impact of supplemental educational services on 
individual student achievement in six school districts with 
approximately 24,000 students eligible for SES. The study also will 
examine whether the impact of SES on student achievement is associated 
with particular characteristics of services, providers, students, or 
practices in the school district. This study currently is undergoing 
peer review and is expected to be released by the end of 2011.
                      common core state standards
    Question. What do you think about the new Common Core State 
Standards and the corresponding Partnership for Assessment of Readiness 
for College and Careers assessment system?
    Answer. The administration believes the adoption of State-
developed, college- and career-ready academic standards is an essential 
first step toward developing next generation accountability systems 
that will help students prepare more effectively for college and 
careers and ensure that our Nation is able to compete successfully in 
the global economy of the 21st century. As a result of the leadership 
of our Governors and Chief State School Officers, the vast majority of 
States have now voluntarily adopted common, college- and career-ready 
standards. The administration also believes that the development and 
implementation of new State assessments linked to these standards, 
including the work currently under way by the Partnership for 
Assessment of Readiness for College and Careers, will be a game-changer 
in public education. These new assessments will, for the first time, 
effectively measure whether America's students are on track for college 
and careers while providing teachers with timely, high-quality 
formative assessments that measure student academic growth and help to 
improve teaching and learning.
       funds for implementing academic standards and assessments
    Question. Are you concerned about resources for teachers and 
schools to implement these Common Core State standards?
    Answer. The Department, as enunciated in both its budget requests 
and in our proposal for reauthorizing the ESEA, intends to continue 
providing State formula grant funding to help States implement high-
quality standards and assessments, as well as competitive grants for 
States and LEAs to support instruction aligned with college- and 
career-ready standards. For fiscal year 2012, the President's request 
includes $420 million under a reauthorized Assessing Achievement 
program, as well as $835 million under a reauthorized Effective 
Teaching and Learning for a Complete Education program. In addition, 
the Department believes that the near-universal voluntary adoption of 
common academic standards by the States is evidence of a commitment to 
make available the State and local resources required to implement 
these standards as well as aligned assessments.
                           ayp waiver request
    Question. In March 2011, Arkansas requested that you waive a 
requirement of NCLB to allow its AYP targets to be held at the 2011-
2012 levels until it fully implements the Common Core State Standards 
(2014-2015 school year). I understand that their request was denied. 
Did you grant any AYP waivers?
    Answer. No, we have not granted any waivers of adequate yearly 
progress (AYP) targets. Several States have submitted amendments to 
their Accountability Workbooks that are consistent with the ESEA 
statute and regulations, but these are not waivers.
           no child left behind requirements flexibility plan
    Question. The reason given for the waiver denial was that these 
issues should be addressed in an Elementary and Secondary Education 
Authorization bill. As we all know, it is highly unlikely that we will 
see such a bill this year. Based on that information, will you take a 
second look at Arkansas's request for a waiver?
    Answer. The Department is developing a plan to provide flexibility 
regarding NCLB requirements for those States that are moving forward 
with reforms that will increase the quality of instruction and improve 
student achievement. Final details on the flexibility package will be 
available in mid-September, and we encourage all interested States, 
including Arkansas, to request it.
                                 ______
                                 
              Questions Submitted by Senator Sherrod Brown
      elimination of in-school subsidy for undergraduate students
    Question. Last year, the Deficit Reduction panel proposed the 
elimination of the in-school subsidy for undergraduates as a way to 
find savings. It is my understanding that this was on the table during 
debt ceiling recent negotiations. Eliminating the in-school subsidy for 
undergraduates would have an extremely negative impact on students. How 
does the administration plan to balance the needs of middle class 
students who may qualify for the in-school subsidy, but not the Pell 
Grant?
    Answer. While the Budget Control Act of 2011 eliminated subsidized 
loans for graduate and professional students--which the administration 
endorsed as part of its 2012 budget proposal--undergraduate students 
still retain the ability to take out subsidized loans. Students who are 
not interested in a Stafford loan, and are not otherwise Pell-eligible, 
should consider the campus-based aid programs--Supplemental Educational 
Opportunity Grants (SEOG), Work-Study grants, and Perkins loans--as a 
good source of aid. Part of the 2012 budget request was to maintain the 
current level of funding for SEOG and Work-Study, and to reform the 
Perkins program with $8.5 billion in volume--eight and one-half times 
the current volume--which could enable it to reach over 3 million 
students at over 2,700 institutions.
                        student loan conversion
    Question. In May, I introduced the Student Loan Simplification and 
Opportunity Act which was a part of the Presidents' Pell Grant 
Protection Act. This legislation would allow students with both Federal 
Family Education Loan Program (FFELP) loans and Direct Loans to 
simplify their loan repayment process and provide borrowers with 2 
percent off of their FFELP principal for converting their loans, while 
saving the Government $1.8 billion. Does the administration support 
this policy included in the bill?
    Answer. The administration supports the policy as presented in its 
fiscal year 2012 budget proposal to Congress. The administration 
believes this policy will make loan repayment simpler for the estimated 
6 million split borrowers--those with loans both in the Direct Loan and 
FFEL programs--and make it less likely they will default as a result.
           race to the top--early learning challenge program
    Question. In July, Senator Hagan and I introduced the Ready Schools 
Act of 2011. This legislation is based off of the great work of the 
Spark Partnership in Ohio and the North Carolina Ready Schools 
Initiative. This legislation focuses on the importance of school 
readiness in addition to the student readiness. Early childhood 
education plays an important role in the short- and long-term success 
of students. I appreciate your efforts in establishing the Early 
Learning Challenge Grant Program but am concerned that this funding 
will only benefit a limited number of children. As childhood poverty 
rates continue to grow, it is important that we invest in all young 
children. Why did the Department decide to spend $500 million for this 
program when the success of the Race to the Top model is still unknown? 
What is included in the budget to improve the systematic alignment and 
delivery of early childhood education?
    Answer. The Race to the Top--Early Learning Challenge program will 
support States that demonstrate their commitment to integrating and 
aligning resources and policies across all of the State agencies that 
administer public funds related to early learning and development. 
Winning States will serve as models of how to build a more unified 
approach to supporting young children and their families--an approach 
that increases access to high-quality early learning and development 
programs and services, and helps ensure that children enter 
kindergarten with the skills, knowledge, and dispositions toward 
learning they need to be successful.
    All States can undertake this work by using existing funds that 
support early learning and development from Federal, State, private, 
and local sources, such as the Child Care and Development Fund, title I 
and II of the ESEA, the Individuals with Disabilities Act, State-funded 
preschool programs, and Head Start.
                         federal trio programs
    Question. In your fiscal year 2012 budget request, you recommend a 
$67 million increase to the TRIO programs. As you know, this is not 
really an ``increase'' but rather it provides funding to ensure that 
the 180 Upward Bound programs funded by the College Cost Reduction and 
Access Act--including three programs in Ohio--would not have to close 
their doors in December 2011. In light of recent funding cuts to TRIO 
in fiscal year 2011, could you reaffirm your commitment to TRIO, 
particularly the administration's fiscal year 2012 funding request for 
the program?
    Answer. The administration believes that the Federal TRIO programs 
play an important role in assisting low-income students and students 
whose parents never completed college with support and preparation to 
enter and complete postsecondary education programs. In designing the 
TRIO competitions for 2012, particularly Upward Bound, the Department 
is focused on ensuring that grantees pursue strategies and activities 
that will maximize the number of students to which they can provide 
high-quality services. The Department also believes that the TRIO 
programs can play an important role in ensuring that our investment in 
Pell Grants results in more students persisting and completing because 
they enroll in postsecondary education better prepared to succeed.
    The administration remains committed to increasing college 
enrollment and completion rates among traditionally underrepresented 
populations. In demonstration of this commitment, we have prioritized 
protecting the $5,550 maximum Pell Grant award in fiscal year 2012 and 
beyond, with the goal of ensuring that more than 9 million low-income 
students can continue to rely on Pell Grants to enter into, and 
complete, a postsecondary education. However, low-income students need 
more than just financial support to enter and complete college; they 
also need supportive services like those provided by our Federal TRIO 
programs.
                           tech prep program
    Question. The Tech Prep program provides college and career 
training for students beginning in high school so that they are 
prepared for success in business and industry. This program also helps 
to ensure more students are on the path to complete higher education 
and thus the United States is on the path to compete in a global 
economy. Why did the administration choose to merge the Tech Prep State 
Grant with the title I basic State grant and then reduce the overall 
appropriation?
    Answer. The Tech Prep program duplicates activities authorized 
under the Career and Technical Education (CTE) State Grants program. 
The purpose of the Tech Prep program is to support development and 
implementation of programs of non-duplicative, sequential courses of 
study that incorporate secondary education and postsecondary education 
with work-based learning experiences. However, the CTE State Grants 
program also requires States to develop these types of programs, and to 
do so within the larger context of CTE programs within the State. In 
addition, 28 States consolidated at least a portion, and generally all, 
of their Tech Prep funds into State Grants during school year 2010-
2011.
    In order to maintain fiscal discipline by placing a priority on 
programs that are most aligned with the President's reform agenda and 
most likely to demonstrate results, the Department did request a 
reduction in funding for CTE for fiscal year 2012. While CTE is vitally 
important to America's future, the Perkins CTE program as it is 
currently structured is not operating in a way that produces optimal 
results for students. The Department is currently engaged in developing 
our reauthorization proposal for the Carl D. Perkins Career and 
Technical Education Act. Our intent is to develop a proposal that will 
improve the statute by ensuring that all CTE programs become viable and 
rigorous pathways to postsecondary and career success, providing 
students with the career skills necessary to compete in a global 
marketplace, and collecting better program performance data.
         family engagement in educational outcomes for children
    Question. I have heard a lot of discussion about family engagement 
in education from the administration, which is a step in the right 
direction. In your blueprint for ESEA reauthorization, you propose the 
establishment of a Family Engagement and Responsibility Fund, along 
with an increase in the title I set-aside for family engagement 
initiatives. However, the Parent Information Resource Center (PIRC) 
funds are consolidated in the Department 2012 budget. Parental 
Information and Resource Centers exist to work in partnership with, and 
build the capacity of, State and local educational agencies and provide 
technical assistance on implementing research-based and effective 
family engagement strategies.
    How does the administration plan to ensure that districts and 
States build their capacity to carry out this work without the PIRC 
program?
    Answer. Enhancing family engagement is crucial to improving 
educational outcomes for children, and the administration's budget and 
Elementary and Secondary Education Act (ESEA) reauthorization proposals 
reflect our commitment to making sure that families are informed of and 
better involved in the educational opportunities available in their 
community. The Department is also committed to pursuing actions that 
will help build the capacity of States, school districts, and schools 
to effectively leverage resources for strengthening family engagement 
in education. As you mentioned, the administration's ESEA 
reauthorization proposal for the renamed College- and Career-Ready 
Students (CCRS) program (currently title I grants to local educational 
agencies) would significantly increase State and local spending on 
parent and family engagement activities, ensuring that every district 
receiving title I funds is developing and implementing a family 
engagement plan focused on raising student achievement and developing 
promising new strategies to engage parents and families. States would 
be permitted to reserve up to 5 percent of their title I, part A 
allocations to carry out activities to build State and local capacity 
to improve student achievement, including by improving capacity to 
carry out effective family engagement strategies.
Family Engagement and Responsibility Fund
    States also would be permitted to set aside up to 1 percent of 
their title I, part A allocations to fund programs that support family 
engagement and to identify and disseminate best practices in this area. 
This Family Engagement and Responsibility Fund would support and expand 
district-level best practices, with a priority for evidence-based 
parental involvement activities. PIRCs, along with districts, 
community-based organizations, and other nonprofit organizations, would 
be eligible to compete for these funds.
Title I Set-aside and Family Engagement
    Our reauthorization proposal would also double the local title I 
set-aside for parent and family engagement, from 1 to 2 percent, 
increasing the total from about $145 million to approximately $270 
million. PIRCs would be eligible to partner with school districts or 
consortia of school districts in implementing activities funded under 
this set-aside. Additional elements of the administration 
reauthorization proposal (including our proposals for Safe and Healthy 
Students, Promise Neighborhoods, and Expanding Educational Options) 
would also focus specifically on issues related to family engagement.
Capacity Building and Technical Assistance for Family Engagement 
        Activities
    Finally, you asked about the Department's plan to provide capacity-
building and technical assistance to States and districts on family 
engagement in education. We will continue to support these goals 
through our new Implementation and Support Unit (ISU), in the Office of 
the Deputy Secretary, and through programs like the Comprehensive 
Centers. The ISU provides technical assistance directly to States 
implementing comprehensive reforms under the Education Jobs Fund, Race 
to the Top, Race to the Top Assessment, and State Fiscal Stabilization 
Fund programs. The Comprehensive Centers also help increase State 
capacity to assist districts and schools in meeting their student 
achievement goals. In fiscal year 2012, the Department will make 
approximately 21 new competitive grant awards to support the first year 
of a second cohort of Comprehensive Centers. Because family engagement 
is a priority for the administration and for the Secretary, it will be 
one of the key issues addressed through these efforts.
                    school-based counseling programs
    Question. School counselors, school psychologists, and school 
social workers provide counseling and other learning support services 
to students who are struggling with issues that create barriers to 
learning. The Elementary and Secondary School Counseling Program is the 
only Federal grant specifically targeted to providing assistance to 
school districts to establish and enhance school counseling programs, 
including ensuring access to these highly trained professionals to 
address students' social and emotional needs. Given the serious impact 
on students' academic success that children can face because of anxiety 
related to a parent's military deployment, issues related to 
homelessness, or other types of mental illness, as well as the need for 
prevention and early intervention to avoid more serious problems, how 
will the priorities of the Elementary and Secondary School Counseling 
Program be preserved under the proposed consolidation program?
    Answer. The administration is committed to addressing student 
mental health issues and believes that school-based counseling programs 
offer great promise for improving prevention, diagnosis, and access to 
treatment for children and adolescents.
Successful, Safe, and Healthy Students Program
    Under the proposed Successful, Safe, and Healthy Students program, 
State educational agencies (SEAs), high-need local educational agencies 
(LEAs), and their partners, that are interested in establishing or 
expanding elementary and secondary school counseling programs would be 
eligible to apply for competitive grant funding to develop and 
implement programs that measure and improve conditions for learning 
based on local needs. The administration believes that this broader, 
more flexible approach, through which grantees could address students' 
mental health and related social needs comprehensively, rather than a 
narrowly focused program, would be more successful in building State, 
district, and school capacity and in providing the resources necessary 
to design and implement strategies for promoting healthy development 
and successful students.
                   promise neighborhoods applications
    Question. There were 339 communities who applied for $10 million in 
Promise Neighborhoods funding in fiscal year 2010. More than 80 of 
these communities scored 80 or higher on the application process. Nine 
of these communities were in Ohio. Many of these communities would have 
been awarded planning grants if additional funding were available. I am 
pleased that for fiscal year 2011, there is $30 million available for 
Promise Neighborhoods, and that ED is offering implementation grants, 
in addition to a second round of planning grants. I understand that the 
notice of intent for this second round was due last week; do you have a 
sense of how many communities applied for the new implementation? 
Specifically, do you know how many communities are seeking 
implementation verse planning grants?
    Answer. As of the July 22 deadline for Intents to Apply in the 
fiscal year 2011 competition, 501 entities had submitted their intent 
for the planning grant competition and 161 entities had submitted their 
intent for the implementation grant competition. The deadline to submit 
a full application for both the planning and implementation grant 
competitions is September 6, 2011.
                     promise neighborhoods funding
    Question. What is the Department of Education doing to meet the 
national need and demand for Promise Neighborhoods?
    Answer. The President's fiscal year 2012 budget request includes 
$150 million to provide continued funding to fiscal year 2011 
implementation grantees in addition to funding a new round of planning 
and implementation grants. We consider this a priority within our 2012 
budget request. In addition, as part of the White House Neighborhood 
Revitalization Initiative (NRI), the Department is partnering with 
other Federal agencies to provide comprehensive technical assistance to 
additional communities, many of which have expressed interest in the 
Promise Neighborhoods program, as part of the NRI's Building 
Neighborhood Capacity program. This program will support organizations 
with limited capacity, but serving high-poverty neighborhoods, through 
hands-on technical assistance. Designed to serve an initial cohort of 
five neighborhoods, the program will provide an online resource center 
and leverage assistance from multiple Federal agencies and other 
sources in support of local neighborhood revitalization initiatives.
         technical assistance to promise neighborhoods grantees
    Question. For those communities who did receive planning grants, 
how is the Department providing the necessary coaching and technical 
assistance needed to ensure success?
    Answer. The fiscal year 2010 appropriation did not provide Federal 
resources to support coaching or technical assistance for the planning 
grantees. Nevertheless, the Promise Neighborhoods Institute (PNI), an 
independent, foundation-supported nonprofit resource, is meeting many 
of the needs of the communities. PNI offers tools, information, and 
strategies to assist any community interested in participating in the 
Promise Neighborhoods program. In addition, PNI provides technical 
support directly to the program's grantees for planning, identifying 
quality approaches, building partnerships, assessing needs, and many 
more essentials for successfully building a Promise Neighborhood. The 
$30 million fiscal year 2011 appropriation will support national 
activities, including technical assistance for the first cohort of 
Promise Neighborhood implementation grantees.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                          pell grants funding
    Question. The unsustainable growth in the costs of the Pell Grant 
program continues to be an anchor dragging down the entire budget for 
the Department of Education. While the fiscal year 2012 budget request 
does propose some policy changes to address the growth in Pell Grant 
costs, the administration also proposes a $5.6 billion increase in 
discretionary funding. How will the fiscal year 2012 budget request 
address the fiscally unsustainable path of the Pell Grant program?
    Answer. The President's budget for fiscal year 2012 seeks to 
protect the $5,550 maximum award for those students with the greatest 
need, while also finding ways to reduce the overall cost impact of the 
Pell Grant program. One way the request does this is by not seeking to 
raise the maximum award, instead keeping it level with the prior 2 
years. Additionally, in the President's budget, the administration 
outlined a comprehensive plan to cover rising Pell Grant costs and help 
close the program's shortfall through changes to other student aid 
programs, and changes to the administration of Pell itself. In total, 
these changes are estimated to save $100 billion over 10 years.
                       reducing pell grants costs
    Question. Specifically, how is the administration proposing to 
reduce the overall rapid cost growth in the Pell Grant program?
    Answer. The Department's plan for reducing Pell Grant costs 
specifically includes eliminating the availability of a second Pell 
Grant in an award year, FAFSA simplification, creating easier student 
repayment through a debt conversion plan, expanding and modernizing the 
Perkins Loan program so it can assist more students, replacing the 
TEACH Grants program with Presidential Teaching Fellows, creating the 
College Completion Incentive Grants program to achieve better outcomes 
for students, and eliminating subsidized loans for graduate and 
professional students. Two of these policy proposals--the elimination 
of the second Pell Grant in an award year, and the elimination of 
subsidized loans to graduate and professional students--have already 
been adopted by Congress. In total, the Department estimates these 
changes will reduce Pell's discretionary appropriations need by $13.2 
billion in 2012 alone.
           state authorization of distance education programs
    Question. There continues to be concerns raised by colleges and 
universities regarding State authorization provisions under the 
proposed Program Integrity regulations and the potential impact on 
access to distance education at higher education institutions. At the 
risk of losing Federal financial aid, colleges and universities will be 
required to request permission to offer their distance education 
programs in every State in which a student is located while receiving 
instruction. Many States already have legislation that requires 
registration. Why is the Department of Education moving forward with 
regulations where States already have efficient and equitable policies 
in place regarding distance learning?
    Answer. The Department's regulations governing State authorization 
of distance education programs simply required institutions to comply 
with State laws where they exist; it imposed no additional requirements 
beyond being able to demonstrate that they complied with State law 
where those laws exist. A Federal court recently took action to strike 
the provision of the Department's regulation but did not overturn State 
law. The United States is still evaluating whether to appeal.
    With that said, Alabama has set high standards and imposed 
significant charges on institutions that offer distance learning in the 
State. While we do not endorse these requirements, we do acknowledge 
that each State has the ability to regulate higher education 
institutions operating in the State.
    Question. How will the Department ensure universities that have 
already been approved by their home State's Higher Education Commission 
and accredited by the relevant regional accrediting authority that they 
will not be unduly burdened by duplicative, costly, time consuming, and 
academically unnecessary regulations?
    Answer. The Department's regulations governing State authorization 
of distance education programs simply required institutions to comply 
with State laws where they exist; it imposed no additional requirements 
beyond being able to demonstrate that they complied with State law 
where those laws exist. A Federal court recently took action to strike 
the provision of the Department's regulation but did not overturn State 
law. The United States is still evaluating whether to appeal.
    With that said, Alabama has set high standards and imposed 
significant charges on institutions that offer distance learning in the 
State. While we do not endorse these requirements, we do acknowledge 
that each State has the ability to regulate higher education 
institutions operating in the State. So, States, including Alabama, can 
take steps to reduce the burden imposed on institutions of higher 
education if they believe those burdens are duplicative, costly, time 
consuming, and academically unnecessary. The Federal Government ought 
not to limit the authority of States but if that were to be done it 
would involve preempting State laws. Such preemption would require 
either congressional action or a regulatory action. Such regulations 
would need to be developed consistent with the Executive Order of 
Federalism signed by President Reagan.
    high school graduation initiative and the college pathways and 
                      accelerated learning program
    Question. The fiscal year 2012 Department of Education budget 
request proposes to consolidate 38 programs into 11 new authorities in 
line with the administration's Elementary and Secondary Education Act 
reauthorization proposal. Beginning in 2010, the Mobile County School 
System will receive nearly $9 million over 5 years under the High 
School Graduation Initiative to support the implementation of 
effective, sustainable, and coordinated dropout prevention and reentry 
efforts in high schools. However, the fiscal year 2012 budget request 
would eliminate the High School Graduation Initiative and replace the 
program with a new College Pathways and Accelerated Learning program. 
How will the Department of Education ensure that schools who have been 
awarded funding under the High School Graduation Initiative continue to 
receive their promised funding under the budget request?
    Answer. The administration's proposal for the College Pathways and 
Accelerated Learning program would require the Secretary to reserve 
funds to pay for grants made under the High School Graduation 
Initiative and Advanced Placement programs through the grants' 
completion.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
        targeting of title i funds to local educational agencies
    Question. It is clear that the funds appropriated for title I could 
be distributed in a more equitable manner that targets those for whom 
the program is intended: children in concentrated poverty. Is the 
Department of Education actively pursuing potential changes to title I 
distribution formulas to ensure Federal education funding better 
reaches disadvantaged children?
    Answer. The administration is strongly committed to ensuring that 
title I funds are targeted to high-poverty schools, regardless of 
geographic location, and stands ready to work with the Congress, 
through the reauthorization process, on ways to improve the targeting 
of title I funds.
national not-for-profit organizations and the improving teacher quality 
                          state grants program
    Question. There continues to be concern with the consolidation of 
existing programs into 11 new authorities in the administration's 
reauthorization proposal for the Elementary and Secondary Education 
Act. Specifically, the Department of Education budget appears to direct 
funding to programs for States and localities without a path for 
national not-for-profit organizations with a proven track record to 
compete. In fiscal year 2011 Congress addressed this concern by 
including a 1 percent set aside under the Improving Teacher Quality 
State Grants program for a competition for national not-for-profit 
organizations that provide teacher training or professional development 
activities. When does the Department of Education intend to have a 
competition for national not-for-profit (NFP) organizations under the 
Improving Teacher Quality State Grants program?
    Answer. A notice inviting applications for new awards under this 
set-aside was published in the Federal Register on September 8, 2011. 
Our goal is to make awards in early 2012, well before the period of 
availability ends on September 30, 2012.
            national nfp organizations set-aside competition
    Question. Can you please provide details to this subcommittee on 
how the Department intends to conduct a competition for these funds, 
including any expected priorities for the competition?
    Answer. Through the new Supporting Effective Educator Development 
competition, the Department will make grants to national non-profit 
organizations to support projects that are supported by at least 
moderate evidence, as defined in the notice inviting applications. 
Grantees will use the funds to recruit, select, and prepare or provide 
professional enhancement activities for teachers or for teachers and 
principals.
Supporting Effective Educator Development Competition Absolute 
        Priorities
    An applicant may apply under any of three absolute priorities:
  --Under Absolute Priority 1, the Department will support the creation 
        or reform of practices, strategies, or programs that are 
        designed to increase the number or percentage of teachers (or 
        teachers and principals) who are highly effective, especially 
        teachers (or teachers and principals) who serve concentrations 
        of high-need students, by identifying, recruiting, and 
        preparing highly effective teachers or teachers and principals. 
        To meet this priority, an applicant must propose a plan 
        demonstrating that teacher or principal participation in the 
        applicant's proposed activities will be determined through a 
        rigorous, competitive selection process.
  --Under Absolute Priority 2, we will support projects that will 
        increase the quality of student literacy and writing by 
        creating or reforming practices, strategies, or programs that 
        improve teachers' knowledge, understanding, and teaching of 
        English language arts with a specific focus on writing through 
        high-quality professional development or professional 
        enhancement programs.
  --Under Absolute Priority 3, the Department will fund projects that 
        encourage and support teachers or teachers and principals 
        seeking advanced certification or advanced credentialing 
        through high-quality professional enhancement programs designed 
        to improve teaching and learning for teachers or for teachers 
        and principals. To meet this priority, an applicant must 
        demonstrate or propose a plan to demonstrate that the award of 
        the advanced certification or advanced credential will be 
        determined on the basis of a rigorous evaluation with multiple 
        measures that include measures of student academic growth.
    The Department will also award points in this competition based on 
two competitive preference priorities. An applicant may receive 
additional points by proposing:
  --a project that is supported by strong evidence of effectiveness (as 
        defined in the notice inviting applications), or
  --a project that is designed to significantly increase efficiency in 
        the use of time, staff, money, or other resources while 
        improving student learning or other educational outcomes. 
        Projects that receive points under the second competitive 
        preference priority may include innovative and sustainable uses 
        of technology, modification of school schedules and teacher 
        compensation systems, use of open educational resources, or 
        other strategies.
        national nonprofit competitions and esea reauthorization
    Question. Will the Department of Education commit to supporting a 
dedicated funding stream for the same purpose in fiscal year 2012?
    Answer. Our proposal for ESEA reauthorization includes several 
competitions in which many national nonprofit organizations would be 
eligible to participate. For example, organizations such as Teach for 
America, the National Writing Project, and the National Board for 
Professional Teaching Standards, the organizations no longer receiving 
earmarked assistance, could partner with schools to apply for an 
Investing in Innovation grant. In addition, Teach for America could 
compete for funds under the proposed new Teacher and Leader Pathways 
program. The National Board for Professional Teaching Standards could 
partner with States in the Teacher and Leader Innovation Fund to 
strengthen State standards for certification and licensure. The 
National Writing Project could receive funding under the national 
activities set-aside in the new Effective Teaching and Learning 
initiative and could also partner with States on comprehensive literacy 
strategies.
    promise neighborhoods competition--absolute priority for rural 
                              communities
    Question. The fiscal year 2012 budget request includes $150 million 
for the Promise Neighborhoods program, which supports projects designed 
to improve education and life outcomes for children and youth within a 
distressed geographic area. The Indianola Promise Community in 
Mississippi was awarded one of the first Promise Neighborhood grants in 
fiscal year 2010. However, there are concerns that as the process moves 
forward the Indianola Promise Community will have to compete on a 
national scale with large, urban school districts for implementation 
grant funding. Please provide details on the steps that the Department 
has taken under the Promise Neighborhoods program to ensure rural 
communities can compete for grant funding to implement reform efforts.
    Answer. In fiscal year 2010, the Department included an absolute 
priority for rural communities applying for Promise Neighborhood 
grants. The Delta Health Alliance in Indianola applied for and received 
a planning grant under this rural community priority. The fiscal year 
2011 competition again includes an absolute priority for rural 
communities as well as tribal communities, for both planning and 
implementation grants, in order to ensure that communities such as 
Indianola are able to compete on a national scale for Promise 
Neighborhood funding.
improving competitive stance of rural communities for education funding
    Question. Does the Department plan to take similar steps in the 
future to ensure that rural communities are less disadvantaged under 
competitive grant opportunities, as it has with the Promise 
Neighborhoods and Investing in Innovation programs?
    Answer. Through the rulemaking process, the Secretary has created 
supplemental priorities to target funds to high-priority areas. These 
priorities include a priority for improving the achievement and high 
school graduation rates of students in rural school districts. The 
Department is considering applying this priority in competitions for 
absolute or competitive preference in a number of programs for fiscal 
year 2012.
                innovative strategies in early learning
    Question. The Department recently announced that $500 million of 
the fiscal year 2011 funding for the Race to the Top program will be 
awarded to States to help build comprehensive early learning systems. 
For fiscal year 2012, the administration requested an additional $900 
million for the Race to the Top program and $350 million for a new 
Early Learning Challenge Fund. What plan does the Department have in 
place to ensure that funding awarded through Race to the Top or the 
Early Learning Challenge Fund prioritizes innovative strategies for 
early learning, including the implementation and expansion of full-day 
kindergarten?
    Answer. We want to provide funding to support the important work of 
transforming early learning programs and services from a patchwork of 
disconnected programs with uneven quality into a coordinated system 
that prepares children for success in school and in life. The purpose 
of the Race to the Top-Early Learning Challenge (RTT-ELC) program, 
which we are implementing with about $500 million of the fiscal year 
2011 appropriation for Race to the Top, is to improve the quality of 
early learning and development and close the achievement gap for 
children with high needs. The overarching goal is to make sure that 
many more children, especially children with high-needs, enter 
kindergarten ready to succeed. The competition for RTT-ELC grants also 
includes an invitational priority to encourage States to sustain 
positive early learning program effects in the early elementary grades.
                          geography education
    Question. According to results from the National Assessment of 
Educational Progress that were released on July 19, 2011, fewer than 
one-third of the Nation's students achieve at or above the proficient 
level in geography. As the sponsor of S. 434, the ``Teaching Geography 
Is Fundamental Act,'' which would create a dedicated program to improve 
geographic literacy, these recent results are gravely concerning. Will 
the Department of Education commit to do more to ensure that funding is 
directed to geographic education activities?
    Answer. The Department is committed to ensuring that our Nation's 
students have access to high-quality instruction across academic 
content areas. Our proposal to reauthorize the Elementary and Secondary 
Education Act (ESEA) includes the Effective Teaching and Learning for a 
Well-Rounded Education program, which would support efforts to improve 
instruction in a wide range of subjects, including geography, while 
providing States and local school districts with greater flexibility to 
meet the needs of their students and teachers. The President's fiscal 
year 2012 request includes $246 million for this new program.
    Although geography is included among the subjects in the current 
ESEA definition of ``core academic subjects,'' geography education is 
not the focus of any current ESEA program and, thus, most likely does 
not receive significant Federal support under current law. Enactment of 
the Effective Teaching and Learning for a Well-Rounded Education 
program would give the Department and grantees a better vehicle for 
supporting the evaluation and expansion of geography education programs 
as well as efforts to integrate geography more prominently in 
instruction in other subject areas.
                     career and technical education
    Question. Across the country, unemployment levels are still high, 
but there are jobs available for individuals with the right skill sets. 
The Career and Technical Education program works to ensure that 
students have the academic, technical and employability skills 
necessary for career readiness in the current workforce. In fiscal year 
2012, the Department of Education budget request proposes an almost 
$125 million reduction to the Career and Technical Education State 
Grants. How will the Department of Education ensure that schools can 
continue to offer Career and Technical Education programs to help 
students attain these skills with a decrease in funding?
    Answer. While CTE is vitally important to America's future, the 
Perkins CTE program as it is currently structured is not operating in a 
way that produces optimal results for students. The Department is 
currently engaged in developing our reauthorization proposal for the 
Carl D. Perkins Career and Technical Education Act. Our intent is to 
develop a proposal that will improve the statute by ensuring that all 
CTE programs become viable and rigorous pathways to postsecondary and 
career success, providing students with the career skills necessary to 
compete in a global marketplace, and collecting better program 
performance data.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                   incentive compensation regulations
    Question. It is my understanding that recent sub-regulatory 
language related to incentive compensation rules issued by your 
Department would prohibit one or two entities from providing support 
services to other colleges and universities, services that other 
companies can provide without reservation. If this is accurate, this 
regulation would be arbitrarily picking winners and losers. It is 
difficult to comprehend either the statutory grounds or rationale for 
interfering with the provision of services to educational institutions.
    In order to better understand the intent of the regulation, I 
respectfully request clarity on the statutory grounds and why the 
Department would choose to include some institutions under the 
regulation while leaving others out.
    Answer. On March 17, 2011, the Department issued guidance related 
to several areas of program integrity, including the issue of incentive 
compensation. This guidance was designed to assist institutions in 
understanding the regulations and provide examples of permissible 
activities. The guidance provided in this letter, and the regulations 
in general, seek to ensure title IV aid at all institutions is used to 
successfully train students.
    Please be aware that there is no prohibition upon any entity 
providing support services to another entity. The only prohibition is 
upon the manner in which compensation may be provided should one of 
those services involve student recruitment. Pursuant to section 
487(a)(20) of the HEA an ``institution will not provide any commission, 
bonus, or other incentive payment based directly or indirectly on 
success in securing enrollments or financial aid to any persons or 
entities engaged in any student recruiting or admission activities or 
in making decisions regarding the award of student financial 
assistance.'' It is that statutory provision which the Department is 
enforcing when it monitors the manner in which student recruitment 
activities are compensated.
 title vi centers for international business education (ciber) program
    Question. For fiscal year 2011, your Department cut the title VI 
Centers for International Business Education and Research (CIBER) 
program by 55 percent. Over two decades, CIBERs have been engaged in 
cutting-edge activities to strengthen the Nation's global economic 
competitiveness on many levels.
    I respectfully request detailed information on CIBERs' recent role 
in supporting an increase in our country's exports, including 
collaboration with business and government on the President's National 
Export Initiative. I also request information on how CIBERs have 
enhanced institutes of higher education, including underrepresented 
institutions such as HBCUs, MSIs, and community colleges, in meeting 
global demand for a competitive workforce.
    Answer. In response to President Obama's recent announcement of the 
National Export Initiative, which calls for increased resources to 
expand international trade, the U.S. Commercial Service--the trade 
promotion arm of the U.S. Department of Commerce's International Trade 
Administration--plans to increase its efforts to move U.S. companies 
into new and emerging markets. The CIBERs have a good track record with 
the U.S. Department of Commerce and will work with President Obama's 
National Export Initiative, either directly or indirectly, by holding 
conferences and assisting businesses to improve their export 
strategies.
    In the 2010 CIBER competition, the Department encouraged the 
applicants to help improve internationalization at minority-serving 
institutions (MSIs). Many applicants responded to the priority by 
incorporating activities into their 2010-2013 CIBER projects. For 
example, Michigan State University hosts a bi-annual training program 
for community colleges where the Commerce Department's teaching 
materials are featured.
    As outreach to other constituencies, a number of CIBERs have 
developed 4-year training programs for faculty from HBCUs. The program 
includes mentoring institutions as well as individual faculty and 
providing for faculty study abroad. The program will be extended to 
Hispanic-Serving Institutions, and three CIBERS--Colorado, Hawaii, and 
Washington--will work with Alaska Native, Native Hawaiian, and Native 
American students and faculty during the 2010-2014 cycle.
    In partnership with the University of Memphis, CIBERs and the 
Institute of International Public Policy, which is operated by the 
United Negro College Fund Special Programs Corporation, have been 
working with 46 Historically Black Colleges and Universities (HBCUs) to 
enhance understanding of interdisciplinary international business 
education. The consortium has been engaged in equipping HBCU faculty 
with discipline specific international knowledge, pedagogical tools, 
research methodologies, and study abroad experiences to incorporate 
international content into existing business courses and/or develop new 
courses, and to increase international business research. An integral 
component of the program is one-on-one assistance provided by the 
sponsoring CIBERs to their respective HBCUs in the implementation of 
international business education programs on HBCU campuses and in 
acquiring Federal grants to support these efforts.
    CIBERs at Brigham Young University and the University of Colorado 
at Denver support a consortium of 36 community colleges and 
universities across 10 western States to provide CIBER programs to the 
region's small and medium-sized rural institutions and to facilitate 
the sharing of resources among regional schools with developing 
international business expertise. The consortium is now reaching out to 
Tribal Colleges and Universities (TCUs) recognized by the American 
Indian Higher Education Consortium, as 23 TCUs are located in 10 States 
with a significant number of Native American students.
       national impact of fiscal year 2011 budget cuts on cibers
    Question. Lastly, what has been the impact of the cuts on CIBERs 
nationally and their ability to continue their legislative mandates?
    Answer. Besides producing the majority of internationally prepared 
business students and entrepreneurs, CIBERs are designed to serve as 
regional and national resources to businesses, students, and academics. 
The CIBERs are the equivalent of the National Resource Centers (NRCs) 
in Schools of Business. Most are located at major U.S. universities.
    The most recent competition for new awards was held in fiscal year 
2010 and 33 grants averaging $386,576 were awarded. The CIBER 
allocation in 2011 is $5.7 million, a reduction of $7 million or 55 
percent, below the 2010 funding. The reduced funding in 2011 will 
likely hamper activities supported by the CIBER program. Outreach to 
business, including export development; business language training and 
other interdisciplinary programs; outreach and faculty development to 
minority-serving institutions, community colleges, other colleges and 
universities, and K-12 schools in the 50 States; practical, policy-
oriented international business research; and study abroad and 
international internships could be eliminated or reduced.
           plan for ciber program funding in fiscal year 2012
    Question. What is your plan for CIBER program funding in fiscal 
year 2012?
    Answer. The Department is currently supporting 33 universities, 
designated as CIBERS, who were awarded multi-year grants in fiscal year 
2010. Fiscal year 2012 funds would be used to cover, to the extent 
possible, funding for the third year of the 4-year grants.
    Currently funded CIBERS institutions are: Brigham Young University, 
Columbia University, Duke University, Florida International University, 
George Washington University, Georgia Institute of Technology, Georgia 
State University, Indiana University, Michigan State University, Ohio 
State University, Purdue University, San Diego State University, Temple 
University, Texas A&M University, University of California, LA, 
University of Colorado at Denver, University of Connecticut, University 
of Florida, University of Hawaii at Manoa, University of Illinois at 
Urbana-Champaign, University of Maryland, University of Memphis, 
University of Miami, University of Michigan, University of Minnesota, 
University of North Carolina--Chapel Hill, University of Pennsylvania, 
University of Pittsburgh, University of South Carolina, University of 
Southern California, University of Texas--Austin, University of 
Washington, and University of Wisconsin--Madison.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
                 possible waivers of esea requirements
    Question. Secretary Duncan, you have stated recently that if 
reauthorization of the Elementary and Secondary Education Act (ESEA) is 
not completed by this September, you will look to issue States 
conditional waivers from No Child Left Behind's most troublesome 
requirements provided that States agree to make certain changes to 
their education systems. Specifically, what No Child Left Behind 
requirements would you waive for States and what changes would you 
require of States to receive such waivers?
    Answer. The Department is still working out the details of possible 
flexibility from ESEA requirements pending the completion of 
reauthorization, and expects to announce the specifics in mid-
September.
                   measuring student academic growth
    Question. Mr. Secretary, last March, your Department released its 
Blueprint for the Reauthorization of ESEA, which outlined in broad 
terms proposed changes to the current law, including the development of 
new assessments of student growth. What do you see as the ideal 
``growth models'' for States to measure individual student performance 
and how will these models be different from current ``adequate yearly 
progress'' (AYP) standards?
    Answer. The Department believes that there are a number of valid 
and reliable methods for measuring student academic growth that States 
would be able to choose from to meet the requirements of our 
reauthorization proposal. The key benefit of growth models is that they 
will track the academic progress of individual students over time, as 
opposed to simply measuring the percentage of students who have reached 
grade-level proficiency in a particular subject at a particular point 
in time, as under most assessment and accountability systems used by 
States under current law. The Department's reauthorization proposal 
would continue to require States to set performance targets for 
schools, similar to current AYP requirements, but schools would be able 
to meet such targets either by demonstrating that students are ``on 
track'' to college- and career-readiness or making adequate progress 
toward being on track to college- and career-readiness.
               impact of the esea on student achievement
    Question. We all know that education is a primary key to increasing 
our country's global competitiveness. Knowledge and human capital are 
what drive innovation, entrepreneurship, and growth. We talk a lot 
about holding our schools and teachers accountable for creating our 
leaders of tomorrow, but we also need to hold ourselves accountable. 
Since the ESEA was enacted more than 45 years ago, Federal per-pupil 
spending has nearly tripled. However, our national graduation rates and 
other academic achievement measures have remained relatively flat and 
we have fallen in international education ranking. Considering these 
measures, why have we failed to improve and what are some examples you 
have seen in your travels across the country that represent a fresh 
approach where schools are raising the bar for student achievement?
    Answer. I believe a number of factors have been holding us back 
educationally despite decades of effort to improve academic and other 
outcomes at the Federal, State, and local levels. First, I believe we 
have set the bar too low. We all know that young people tend to perform 
up to expectations, and our expectations for academic achievement in 
core subjects, as reflected in State standards and assessments, have 
simply been lower than many of our strongest economic competitors have 
for their students. In part this ``dumbing down'' of standards and 
assessments has been due to flawed and overly prescriptive 
accountability requirements, such as those we have experienced over the 
past decade under No Child Left Behind. The administration's response 
to these problems has been to encourage and create incentives for 
States to raise their standards, and thanks to the leadership of our 
Nation's Governors and Chief State School Officers, we have seen great 
success in this area with the voluntary adoption of common, State-
developed, college- and career-ready standards by the vast majority of 
States over the past 2 years. And we are proposing to create, through 
the reauthorization of the ESEA, more nuanced accountability systems 
that ask States and school districts to focus their attention and 
support on the lowest-performing schools and schools with the largest 
achievement gaps, while also giving them considerable flexibility to 
develop and implement their own improvement strategies for most 
schools.
Teacher Recognition and Academic Achievement
    Another issue is that we have not treated our teachers like the 
professionals that they are: we must provide needed support, reward 
excellence, and create incentives for our best teachers to work in our 
toughest schools. A key first step toward elevating the teaching 
profession is the development and implementation of rigorous and fair 
teacher evaluation systems that will help us identify, support, learn 
from, and reward effective teachers. We have been promoting the 
creation of those systems in several of our key initiatives, including 
Race to the Top, the Teacher Incentive Fund, School Improvement Grants, 
and our ESEA reauthorization proposal.
Examples of Innovative Approaches to Ensuring Academic Success
    Despite these challenges to excellence in our education system, 
many districts and schools are finding innovative ways to make 
extraordinary progress in preparing their students for success in 
college and careers as well as for lifelong and active participation in 
our democracy. For example, Mooresville Graded School District in North 
Carolina has launched a Digital Conversion Initiative to promote the 
use of technology to improve teaching and learning. The district has 
provided laptops to every 4th to 12th grade student and interactive 
SMART Boards and Slates and Response Devices have been employed in 
every K-3 classroom. In addition to the use of computers as 
instructional tools, the Digital Conversion Initiative has resulted in 
a shift to digital textbooks with content that is aligned with State 
standards. Traditional textbooks may still be used, but generally as 
supplemental materials. The use of digital textbooks and other 
technology can increase student achievement and enhance the learning of 
21st century skills.
    In Florida, the Florida Virtual School also taps into technology to 
provide online learning options for students in grades K-12. The school 
has modified the way most traditional public school systems work by 
moving to a completely results-based funding model in which a school 
receives funding only for students who successfully complete courses. 
It allows students to progress at their own pace--usually faster than 
normal seat-time classes would allow--and provides many traditional 
schools economical options for providing courses they would have 
difficulty staffing locally.
    And in Mobile, Alabama, George Hall Elementary School underwent a 
restructuring plan that involved hiring a new principal and replacing a 
majority of school staff. The new staff signed contracts to stay at the 
school for at least 5 years. The principal focused on developing staff 
cohesion, a positive culture, and a curriculum that was aligned with 
State standards and connected from one grade level to the next. Since 
then student achievement has risen sharply. In reading, the percentage 
of students scoring at or above the proficient level almost doubled 
from 24 percent in 2003-2004 to 43 percent in 2004-2005; math gains 
were even larger, rising from 34 percent to 69 percent. By 2008-2009, 
the percentage of students who scored proficient or above reached 90 
percent in reading and 94 percent in math.
                     career and technical education
    Question. In Kansas and many other States, career and technical 
education is critical to economic growth and expansion of a competitive 
workforce. Your Department's Blueprint for the Reauthorization of ESEA 
references developing and implementing new statewide assessments for 
career and technical subjects. Specifically, what role do you see 
career and technical education playing in a reauthorized ESEA?
    Answer. For too long, career and technical education (CTE) has been 
a neglected part of the education reform movement. That neglect must 
end, and CTE must change its mission to play a key role in the goal of 
ensuring that all students graduate high school ready for college and 
careers. President Obama has suggested that every American earn both a 
high school diploma and a degree or an industry-recognized 
certification. CTE can and must help ensure that young adults receive 
those two credentials, both of which are essential to securing a good 
job.
                 esea title i accountability structure
    Question. Also, how do we successfully incorporate career and 
technical education and other learning that may take place outside the 
traditional classroom into ESEA's accountability structure?
    Answer. The ESEA title I accountability structure is based on 
student performance on assessments in reading/language arts and 
mathematics, as well as additional academic indicators such as high 
school graduation rates. Students who participate in career and 
technical education are included in those assessments, but they 
typically are assessed in the 10th grade, before they begin taking CTE 
coursework, and the assessments do not measure their progress in CTE.
    Many observers of the current title I accountability structure have 
criticized it as being too focused on reading/language arts and 
mathematics, which may have resulted in a narrowing of the curriculum. 
The administration's ESEA reauthorization blueprint includes a number 
of proposals that would seek to ensure that students have access to a 
broad, well-rounded curriculum that is not dominated by the tested 
subjects.
Accountability in Career and Technical Education Programs
    In addition, in the context of the upcoming reauthorization of the 
Carl D. Perkins Career and Technical Education Act, we are seeking to 
develop mechanisms for holding career and technical education programs 
appropriately accountable for results-- mechanisms that would track 
student programs in CTE as well as in the academic subjects. We believe 
that this type of strategy is likely to be more successful than trying 
to incorporate CTE skill and knowledge acquisition within the title I 
framework.

                         CONCLUSON OF HEARINGS

    Senator Harkin. And with that, the--we are done. The 
subcommittee will stand in recess.
    [Whereupon, at 11:40 a.m., Wednesday, July 27, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
